<html>
<title> - ALTERNATIVE APPROACHES TO DEFENSE STRATEGY AND FORCE STRUCTURE</title>
<body><pre>[Senate Hearing 114-209]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 114-209

     ALTERNATIVE APPROACHES TO DEFENSE STRATEGY AND FORCE STRUCTURE

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 29, 2015

                               __________

         Printed for the use of the Committee on Armed Services




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








        Available via the World Wide Web: http://www.fdsys.gov/

                               __________

                         U.S. GOVERNMENT PUBLISHING OFFICE 

99-538 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001


  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  

                      COMMITTEE ON ARMED SERVICES

                     JOHN McCAIN, Arizona, Chairman

JAMES M. INHOFE, Oklahoma            JACK REED, Rhode Island
JEFF SESSIONS, Alabama               BILL NELSON, Florida
ROGER F. WICKER, Mississippi         CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          JOE MANCHIN III, West Virginia
DEB FISCHER, Nebraska                JEANNE SHAHEEN, New Hampshire
TOM COTTON, Arkansas                 KIRSTEN E. GILLIBRAND, New York
MIKE ROUNDS, South Dakota            RICHARD BLUMENTHAL, Connecticut
JONI ERNST, Iowa                     JOE DONNELLY, Indiana
THOM TILLIS, North Carolina          MAZIE K. HIRONO, Hawaii
DAN SULLIVAN, Alaska                 TIM KAINE, Virginia
MIKE LEE, Utah                       ANGUS S. KING, JR., Maine
LINDSEY GRAHAM, South Carolina       MARTIN HEINRICH, New Mexico
TED CRUZ, Texas

                   Christian D. Brose, Staff Director

               Elizabeth L. King, Minority Staff Director

                                  (ii)

  
























                            C O N T E N T S

                               __________

                            october 29, 2015

                                                                   Page

Alternative Approaches to Defense Strategy and Force Structure...     1

Krepinevich, Andrew, President, The Center for Strategic and 
  Budgetary Assessments..........................................     4
Wood, Dakota, Senior Research Fellow, Defense Programs, The 
  Heritage Foundation............................................    17
Preble, Christopher, Vice President for Defense and Foreign 
  Policy Studies, The Cato Institute.............................    22
Donnelly, Thomas, Resident Fellow And Co-Director of the Marilyn 
  Ware Center for Security Studies, The American Enterprise 
  Institute......................................................    29
Brimley, Shawn, Executive Vice President and Director of Studies, 
  The Center for a New American Security.........................    34

.................................................................

                                 (iii)
 
     ALTERNATIVE APPROACHES TO DEFENSE STRATEGY AND FORCE STRUCTURE

                              ----------                              


                       THURSDAY, OCTOBER 29, 2015

                                        U.S. Senate
                                Committee on Armed Services
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 9:32 a.m. in Room 
SD-G50, Dirksen Senate Office Building, Senator John McCain 
(chairman) presiding.
    Committee members present: Senators McCain, Inhofe, 
Sessions, Ayotte, Fischer, Cotton, Rounds, Ernst, Tillis, 
Sullivan, Reed, Nelson, Manchin, Shaheen, Gillibrand, 
Blumenthal, Donnelly, Hirono, Kaine, King, and Heinrich.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Well, good morning. We're pleased to have 
with us today a group of witnesses that will present a variety 
of alternatives on how to reimagine, reshape, and realize, and 
resize our military for the future.
    Before I go further, I'd like to just mention to members of 
the committee that, now that, hopefully, we will have completed 
our work, assuming that the agreement will be passed by both 
Senate and House, and signed by the President, on the NDAA [The 
National Defense Authorization Act], I intend to embark, with, 
hopefully, the participation of every member of the committee, 
on extensive examination of our force structure, of our 
challenges in the future, our need for reforms in every area of 
national defense. And I would seek and urge both subcommittee 
chairmen and ranking members, as well as all members, to engage 
in a series of examinations of national defense in every--all 
of its aspects and so that we can come up with a continued 
reform package to follow on the modest beginnings in this 
year's NDAA.
    I know that Senator Reed is committed to the same prospect, 
and I know that we can embark on this odyssey in a completely 
bipartisan fashion. I think the men and women who are serving 
deserve it, but I think, more than that, America deserves a 
thorough examination of how we can best equip our military in 
the ability to defend this Nation in very turbulent times. So, 
I'll be having a meeting of the committee next week so that we 
can discuss this in greater detail.
    So, we are pleased to have Thomas Donnelly, Resident Fellow 
and Co-Director of the Marilyn Ware Center for Security Studies 
at the American Enterprise Institute; Shawn Brimley, Executive 
Vice President and Director of Studies at the Center for a New 
American Security; Andrew Krepinevich, President of the Center 
for Strategic and Budgetary Assessments; Christopher Preble, 
Vice President for Defense and Foreign Policy Studies at the 
Cato Institute; and Dakota Wood, Senior Research Fellow for 
Defense Programs at the Heritage Foundation.
    I welcome all of you today.
    Last week, former Secretary of Defense Robert Gates echoed 
what senior national security leaders have testified to this 
committee all year, that, while we should not forget or 
downplay the dangers we faced in earlier times, the current 
global threat environment is uniquely challenging, complex, and 
uncertain. Many of our adversaries have spent the past decade, 
and more, investing billions to build up and reshape their 
militaries and developing technologies to thwart America's 
military advantages. As we'll hear today, many of the 
technologies that made America the unparalleled global military 
power just 15 to 25 years ago, such as precision-guided 
munitions and stealth, are proliferating to others at a 
dangerous speed and scale. Our adversaries are also finding 
new--fielding new technologies from cyber to counterspace in 
order to defeat our traditional military advantages 
asymmetrically.
    At the same time, we face growing networks of violent 
Islamist extremists that will engage us in a low-technology 
conflict of ideas and wills for years, even decades, to come. 
As the bipartisan National Defense Panel [NDP] warned, in the 
future, quote, ``conflicts are likely to unfold more rapidly, 
battlefields will be more lethal, operational sanctuary for 
U.S. forces will be scarce and often fleeting, asymmetric 
conflict will be the norm. In this rapidly changing 
environment, U.S. military superiority is not a given.''
    Yet, since the end of the Cold War, now a quarter century 
ago, the United States has maintained a similar, but ever 
shrinking, version of the military we built during the 1980s. 
In constant dollars, we're spending almost the same amount on 
defense now as we were 30 years ago. But, for this money today, 
we're getting 35 percent fewer combat brigades, 53 percent 
fewer ships, 63 percent fewer combat air squadrons, and a lot 
more bureaucracy and overhead. Yes, our forces are now more 
capable than ever, but they are not capable of being in 
multiple places at once. Capacity still matters, especially 
given the numerous potential contingencies we face around the 
world. What's more, our adversaries are more capable, too--
many, significantly so. Our military technological advantage is 
eroding fast. Add that to the years of arbitrary defense 
spending cuts and foolish cuts imposed by the Budget Control 
Act and sequestration, and we are now facing the dual problem 
of a quantitative and qualitative erosion of our military edge.
    At the level of strategy, we are now living through an all-
too-familiar pattern in American history. A period of 
international exertion is followed by the desire to cut defense 
spending and research from the--and retrench from the world. 
That inevitably goes too far, and we end up courting disaster 
through inaction and self-imposed harm done to our ability to 
project power and influence. That is where we are today: 
relearning that underreaching can be as dangerous as 
overreaching, if not more so.
    Now more than ever, we need a clear strategy, or strategies 
plural, to guide our actions and defense investments. 
Unfortunately, all too often senior leaders in our government 
do not even seem able to define the concept. When pressed for a 
strategy, they offer objectives and general interest inputs and 
means, hopes and dreams, but not a strategy, not a description 
of the way they will marshal limited means to achieve their 
ends. That's how we heard--and let's get--we get what we heard 
on Tuesday, ``the three R's'' [``Ruqqa, Romadi, and Raids,'' 
the lines of effort against the Islamic State in Iraq and the 
Levant unveiled by Secretary of Defense Ashton B. Carter at an 
October 29, 2015 hearing before the Senate Armed Services 
Committee]. What's worse, the national security strategy has 
become a speechwriting exercise designed to please all 
constituencies. It tells us preciously little about strategy, 
as does the Quadrennial Defense Review [QDR], which, as many 
of--our witness told us last Thursday, has become more of a 
sustained explanation of the program of record.
    Strategy, like governing, is to choose. We must set 
priorities, we must determine what missions are more important 
than others, what capabilities we must have at the expense of 
others, and there are no shortcuts around strategy. Doing more 
with less is often just a rationalization for doing less. And, 
while we need more money for defense, more money spent in the 
wrong ways and on the wrong things will still fail if we think 
we can succeed with business as usual. We cannot.
    That is why defense reform is so important, not merely as a 
cost-saving measure, although there are certainly costs to save 
at the Department of Defense [DOD], but because we need to be 
smarter and more innovative about how we prioritize our 
national security interests, how we use our military power to 
achieve our policy objectives, and what size and shape our 
military must be to succeed now and in the future.
    The choices entailed here will not always be popular in all 
quarters of the defense establishment, but these are the 
choices we must make to ensure our military is built and 
postured to deter and, if necessary, defeat our adversaries.
    That is the purpose of today's hearings and hearings in the 
future. And I look forward to the testimony of our witnesses.
    Senator Reed.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, thank you very much, Mr. Chairman.
    Let me join you in thanking the witnesses for being here 
today.
    Gentlemen, your expertise, your insights, are particularly 
important as we cope with the issues the Chairman has laid out. 
Thank you very much.
    Again, let me thank the Chairman for providing the 
committee with this opportunity to take a deliberate and 
holistic review of the Defense Department organization, 
structure, missions, and, essentially, look forward very 
creatively and thoughtfully. So, thank you, Mr. Chairman.
    As the Chairman pointed out, last week we were privileged 
to have former Secretary of Defense Bob Gates and a host of 
other experts, former officials, historians, academicians. They 
talked about the Defense Department, the strategic context, and 
going forward. It is worthwhile, as the Chairman has done, to 
quote Dr. Gates. He said, ``Americans, including all too often 
our leaders, regard international crises and military conflict 
as aberrations, when, in fact, and sad to say, they are the 
norm.'' Dr. Gates also repeated his conclusion, informed by 
more than four decades of public service, that our record in 
predicting the future remains perfect: We have never gotten it 
right. Because of this, Dr. Gates said, ``We must place a 
premium on acquiring equipment and providing training that give 
our forces the most versatile possible capabilities across the 
broadest possible spectrum of conflict.''
    Now, following Dr. Gates' testimony, we heard comments from 
several of last week's panelists about outdated DOD processes 
and the way in which our strategic guidance is crafted, 
including the National Security Strategy and the Quadrennial 
Defense Review. Among other things, our witnesses highlighted 
that these documents consume significant energy and resources, 
and are frequently overtaken by global developments by the time 
they are published. I would be interested in hearing each of 
our witnesses' comments about this process and how it can be 
improved.
    Another theme of Dr. Gates' testimony was the need for 
strong civilian leadership in the Department, particularly by 
the Secretary. While this point is self-evident, Dr. Gates 
emphasized that, ``Satisfying critical operational and 
battlefield needs cannot depend solely on the intense personal 
involvement of the Secretary.'' He continued, ``The challenge 
is how to institutionalize a culture and incentive structure 
that encourages wartime urgency simultaneously with long-term 
planning and acquisition as a matter of course.''
    Now, several of our witnesses today have previously stated 
that the Department's organization and processes are outdated. 
Once again, I'd be interested in updating and giving us more 
insights on these particularly important issues.
    Given the dynamic and evolving security challenges facing 
our Nation today, and nearly 30 years after the passage of 
Goldwater-Nichols, it is appropriate to ask what missions our 
military should perform in the future, how that military should 
be structured and postured to most effectively carry out such 
tasks, and how we might reform the development of strategic 
defense guidance to make those products more relevant to 
planning and budgeting efforts.
    I commend the Chairman for leading us in this effort.
    Thank you.
    Chairman McCain. Dr. Krepinevich.

  STATEMENT OF ANDREW KREPINEVICH, PRESIDENT, THE CENTER FOR 
              STRATEGIC AND BUDGETARY ASSESSMENTS

    Dr. Krepinevich. Thank you, Mr. Chairman, Senator Reed, 
members of the committee. Thank you for inviting me to appear 
before you here today to present my views on this important 
topic.
    Given limited time, I would like to summarize my testimony 
by making five points.
    Chairman McCain. Could I just say, all witnesses' complete 
statement will be made part of the record.
    Dr. Krepinevich. Thank you, Mr. Chairman.
    Again, it's in the context of, I would guess--I would say, 
a medical analogy. First, you need a good diagnosis of the 
environment you're in before writing the prescription. A lot of 
times, I think we like to go from the threat environment to 
talking about forces and equipment and the defense program. 
But, as you pointed out, Mr. Chairman and Senator Reed, the key 
connective tissue really is the strategy that tells us how 
we're going to develop a defense program that most effectively 
helps protect our interests and achieve our objectives.
    My first point is that we are now in a period where we face 
threats that are growing in scale and shifting in form from 
those against which we've spent most of the last quarter 
century planning for. There are three revisionist powers in 
three key regions of the world, regions that Presidents of both 
parties, going back decades, have declared to be vital to our 
security. These powers are interested in overturning, in 
significant ways, the rules- based international order that has 
benefited us and our allies and partners over an extended 
period of time. Aside from these three revisionist powers--
China, Russia, and Iran--we also see the rise and empowerment 
of radical nonstate groups and entities.
    In terms of the scale of the problem, we're also seeing a 
shift in the form of the challenges they present. Any good 
strategy involves developing sources of advantage that you can 
use to exploit your enemies' weaknesses. We've seen this, in 
part, through the diffusion of advanced military technology. 
So, for example, the Chinese, in particular, focusing on the 
tendency we've had to operate in permissive environments, areas 
where our operations aren't contested. So, developing 
capabilities to go after our battle networks and also our 
forward bases and large mobile platforms, like aircraft 
carriers.
    Second, if our adversaries can't take us on directly, in 
those cases, they've gone more toward the protracted warfare. 
They've also engaged in acts of ambiguous aggression, whether 
it's ``the little green men'' in the Ukraine, proxy warfare 
that Iran has waged against us throughout the Middle East for 
over 30 years, and also paramilitary forces in the form of 
organizations like China's coast guard that are pushing and 
advancing its interest to overturn the international order in 
East Asia.
    We also find the potential for ambiguous aggression in new 
warfare domains--space, cyberspace, and the undersea--where it 
may be very difficult for us to detect acts of aggression, or 
attribute them once we have detected them.
    Finally, there's a--what is called ``the second nuclear 
age,'' which I think really could be better described as a new 
age of strategic warfare. If you look at Russian and Chinese 
military writings, not only do they talk about nuclear weapons, 
but they talk about new kinds of nuclear weapons, with 
specified effects, very low-yield weapons, using weapons in 
warfare, where, in many cases, we consider nuclear weapons to 
be nonusable, but also the role that--conventional 
capabilities. The Chinese talk about the United States' global 
conventional strategic strike capabilities, something that 
perhaps we haven't really thought through in detail. There's 
also the issue of cyberwarfare and the ability of cyberweapons 
to hold certain targets at risk that perhaps were once reserved 
only for nuclear weapons. So, an array of new challenges on a 
greater scale and presented to us in a different form.
    Now, in confronting these challenges, we confront them with 
diminished resources. As a percentage of our gross domestic 
product, our defense budgets are declining over time. In terms 
of the budget itself, we have rising personnel costs. The cost 
per servicemember since 9/11, in real terms, has gone up over 
50 percent. This means, over time, if the budget doesn't 
outgrow the rate of personnel cost growth, what you have are 
diminished resources for things like training, equipping, 
modernization of the force, and readiness.
    We also find that our capital stock, our inventory of 
planes, tanks, ships, and guns, while more formidable than that 
possessed by any other power in the world, may depreciate at an 
accelerated rate if the form of the challenges presented to us 
is shifting. And, in fact, it is. So, our emphasis on--for 
example, on forward deploying forces to large bases, when you 
have adversaries that are mastering the revolution in precision 
warfare, increasingly able to target these bases with high 
accuracy may make what was once a source of reassurance to our 
allies and partners a source of, actually, anxiety and lack of 
assurance.
    Finally, if there's an arms race going on between ourselves 
and our allies and partners, it's more of a disarmament race, 
or a race to the bottom. Our allies and partners, particularly 
in Europe, have failed, in most cases, to meet the NATO [the 
North Atlantic Treaty Organization] standard for 2 percent of 
GDP [Gross Domestic Product] deployed--or invested in defense. 
Japan, which, under the Abe government--another one of our 
powerful allies, potentially powerful allies--has said some 
impressive things recently, and adopted some very, I think, 
forward- looking policies. But, again, we've yet to see Japan 
break through that 1-percent-of-GDP barrier.
    So, again, we're not just restricted to our budget, in 
terms of how we respond to threats and the increasing scale and 
shifting form of the challenges we face, but, in terms of the 
budget itself, how the budget is distributed, our capital 
stock, and the ability or the willingness of our allies and 
partners to step up when they're needed, I think there's a 
growing disconnect between the threats we face and the means we 
have to address them.
    Consequently, I think there is a need for a well- designed 
strategy, one that employs our resources most effectively to 
maximize the effect of these limited resources. Unfortunately, 
I think we have lost a great deal of our competence to do 
strategy well. I don't think this is a military problem or a 
civilian problem. I don't think it's a Republican problem or a 
Democrat problem. I think it's a problem that's developed since 
the end of the Cold War. In the '90s, when we didn't have a 
threat, we didn't have to focus very much on strategy. After 9/
11, when, as Secretary Gates said, the tap was open, in terms 
of defense spending, we didn't, again, have to make tough 
choices. Now we're in that kind of period again, where 
resources are limited, and perhaps diminishing, where the 
threats are growing. It is about time that we begin to focus on 
strategy.
    One final comment. In terms of the size and scope of our 
military, in terms of the forces we have and the mix of where 
they're positioned around the world, we have to come up with a 
strategy before we can make informed decisions about those 
kinds of issues. How are we going to deter China from advancing 
its revisionist aims in the Far East? Is our objective to 
defend the first island chain? Have we made that public? Have 
we made that clear? If we have, are we going to defend it by 
positioning forces there in what would be called a forward 
defense posture? There are arguments, called offshore control, 
that we ought to limit our focus to simply blockading China as 
a way of discouraging and deterring acts of aggression or 
coercion. That has an enormous effect on the kinds of forces, 
where you position them, what we ask of our allies. So, first, 
you have to come up with that strategy.
    I'll close with a quote from a British admiral, Jackie 
Fisher, who, along with Nelson, is regarded by many Brits as 
their two greatest admirals. And Fisher said, ``A lot of 
members of Parliament ask me what kind of a navy do we need, 
and how many ships, and of what type, and I tell them, the 
first thing you have to do is make up your mind how you're 
going to fight.'' Or, as we would say, how you're going to 
deter and fight if you need to. He said, ``How many of us have 
made up our minds?'' And then, famously, he said, ``And how 
many admirals even have minds?''
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Krepinevich follows:]

                 Statement by Dr. Andrew F. Krepinevich
    Mr. Chairman, Senator Reed, Members of the Committee, thank you for 
inviting me to appear before you today to present my thoughts on the 
critical issue of our defense strategy.
    I have followed this issue for over four decades now, beginning 
with my studies as a cadet at West Point. My doctoral dissertation 
focused on our strategy during the Vietnam War, and my military service 
on the staff of three defense secretaries and in Andrew Marshall's 
Office of Net Assessment during the Cold War gave me an opportunity to 
witness strategy formulation at the highest levels in the Defense 
Department. After retiring from the Army, my interest in military 
strategy has continued, over the last two decades, during my time as 
president of the Center for Strategic and Budgetary Assessments. Today 
I will provide a framework for thinking about our defense strategy, 
along with some preliminary thoughts regarding strategy, its 
relationship to operational concepts, force sizing, force posture, 
missions, and capabilities.
    It is my strong belief that the need for a well-crafted U.S. 
defense strategy has never been greater since the Cold War's end. Today 
the United States confronts three revisionist powers in three different 
regions that have long been viewed by administrations of both parties 
as vital to our national security. These powers are actively 
challenging the rules-based international system that has enabled a 
generation of relative peace and unparalleled prosperity. The scale of 
the challenge posed by these powers far exceeds that of the minor 
powers and radical non-state groups that formed the basis for much of 
our defense planning over the past quarter century. At the same time, 
the means available to address these challenges are diminishing. Just 
as important, the form of the challenges presented by our existing and 
prospective adversaries is shifting, in some cases dramatically.
    This suggests that we will likely need to develop different ways of 
deterring our enemies, and of defeating them if deterrence fails. Our 
military will require a significantly different force sizing construct, 
operational concepts and doctrine, and corresponding changes in our 
force structure and capabilities. This effort should be informed by 
(and inform) the strategy we adopt. Put another way, how our military 
deters, and how it fights depends on our security interests, the threat 
posed to those interests, the resources available to address those 
threats, and how we can best employ those resources. The ``how'' is the 
province of strategy.
                  background to the current situation
    The United States has been an active global power for nearly three-
quarters of a century. The experience and cost of fighting two world 
wars convinced the leaders of both major U.S. political parties that 
the emergence of a hostile hegemonic power on the Eurasian landmass 
would constitute a major threat to both our security and economic 
prosperity. If such a nation or coalition succeeded in dominating the 
key power centers of Eurasia, it would possess the military potential--
the manpower, natural resources, and industrial capacity--to overturn 
the global balance of power and isolate the United States, putting our 
security at risk and challenging our access to the global commons.
    The U.S. strategic objective of preserving a balance of power to 
forestall the rise of a hostile hegemon was evident during World War I, 
when the United States intervened in Europe to prevent Germany from 
establishing a dominant position on the Continent. Following that war, 
Washington attempted to retreat from global affairs and put its trust 
in Great Britain to preserve the global military balance, much as it 
had done over the previous two centuries. Yet a little more than two 
decades later U.S. policymakers confronted the possibility that Nazi 
Germany's conquest of much of Europe and Imperial Japan's move to 
establish a Greater East Asia Co-Prosperity Sphere would find hostile 
powers dominating much of Eurasia, leaving Washington without any major 
allies and isolated in the Western Hemisphere. The United States 
responded by supporting the allies--Great Britain, Nationalist China 
and the Soviet Union--through means such as Lend Lease, convoy escorts 
in the western Atlantic Ocean, and the economic embargo of Japan. After 
the attack on Pearl Harbor, the United States became a fully active 
belligerent, taking the lead in Europe's Western Front and in the 
Pacific Theater of Operations as well. Following the war, it became 
clear that Great Britain could no longer sustain its position as the 
world's principal global ``balancer.'' This convinced a majority of the 
American political elite and the American public that there was no 
alternative to the United States shouldering the responsibilities of 
global leadership, particularly given the Soviet Union's rise and 
communism's threat to the existing international order.
    The threat of Soviet expansion from the Eurasian heartland into 
Western Europe (driving U.S. forces off the continent), Northeast Asia 
(isolating Japan, perhaps in league with China), and the Persian Gulf 
(seizing the region's petroleum reserves and gaining a permanent 
foothold along the Indian Ocean littoral) had a lasting impact on 
virtually every aspect of American military power. For instance, the 
United States forged alliances and partnerships with frontline nations 
across the Eurasian Rimland, principally to augment U.S. military 
capabilities (thereby helping to maintain a strong economic foundation 
at home), and to secure the forward bases and access agreements it 
needed to defend the homeland in depth and project power against 
emerging threats.
    Despite the passage of time and the Soviet Union's collapse in 
1991, the objectives of U.S. security policy have remained remarkably 
consistent. They can be generally summarized as keeping major threats 
as far away from the U.S. homeland as possible, thereby leveraging the 
country's favorable geographic position and strategic depth; 
collaborating with highly capable allies and partners; preserving 
favorable military balances in key regions along the Eurasian 
periphery; and maintaining sufficient access to the global commons--to 
include the air and maritime domains and expanding over time to include 
the space and cyberspace domains--in order to sustain a forward defense 
posture while preserving access to key trading partners and vital 
natural resources.
    While these security objectives have endured, the defense strategy 
and military posture for securing them has shifted over time. This is a 
function of factors such as the changing character of the threats to 
U.S. security objectives; the attitude of the American people; 
increasing partisanship in the American political system; the 
development of new means of warfare; changes in the U.S. alliance 
portfolio and in the contributions of U.S. allies and partners; and the 
United States' varying ability to mobilize its economic and manpower 
resources for defense.
                            the cold war era
    The U.S. defense posture in Europe in the early years of the Cold 
War relied heavily on the country's advantage in nuclear weapons to 
deter aggression, with forward-based conventional forces serving 
primarily as a ``tripwire'' to enhance deterrence by increasing the 
chances that a Soviet attack would ensure U.S. entry into the war, 
thereby also reassuring America's NATO allies. As the Soviets began 
deploying substantial numbers of nuclear weapons, the U.S. defense 
posture shifted to rely relatively less on nuclear weapons and more 
heavily on large, forward-deployed conventional forces in Europe to 
mount a successful defense (or at least raise the risks to Moscow of 
being able to launch a successful conventional invasion), and to meet 
the challenge posed by Soviet proxies in the developing world, such as 
by expanding the Special Forces and employing U.S. state and non-state 
proxies.
    In the 1970s, the Soviets continued building up their nuclear 
forces despite having reached what many U.S. policy-makers and military 
strategists considered to be a rough parity with the United States. 
Moscow also enjoyed what appeared to be an advantage in conventional 
forces. Rather than trying to match the Soviets tank-for-tank, plane-
for-plane, and ship-for-ship, the United States adapted its defense 
strategy to emphasize an area of emerging (and what some perceived to 
be a likely enduring) advantage in information-related technologies. 
Thus, during the Carter administration, the U.S. formulated an ``Offset 
Strategy'' with the Defense Department giving priority to developing 
``information-intensive'' capabilities such as stealth aircraft, 
precision-guided munitions, undersea sensor beds, increasingly quiet 
(and thus difficult to detect) submarines, advanced reconnaissance 
satellites, and the Global Positioning System.
    Following the United States' defeat in the Vietnam War, Washington 
also shifted its emphasis away from such interventions and toward 
greater reliance on regional partners in the developing world. In the 
early 1980s increased reliance was placed on supporting non-state proxy 
forces, such as the Mujahedeen in Afghanistan and the Contras in 
Nicaragua, to wage unconventional wars that imposed disproportionate 
costs on the Soviet Union.
                            the unipolar era
    Following the Cold War's end the U.S. defense posture shifted once 
again. With the Soviet Union's collapse, the United States was left as 
the world's sole superpower with no immediate major threat to its 
security interests. With no extant great power rival and none on the 
immediate horizon, longstanding concerns over the emergence of hostile 
hegemons seemed anachronistic, while the threats posed by rogue nations 
(including nuclear proliferation) and terrorist groups became the most 
pressing concerns for U.S. policymakers and strategists. At the same 
time, Europe was largely free of major power rivalry due to the 
weakness of Russia, while most East Asian nations were more preoccupied 
with economic growth than military competition. Thus the United States 
was able to concentrate much of its attention on the broader Middle 
East--locus of the most proximate challenges to Eurasian stability as 
well as the most immediate threats to U.S. security.
    Consequently both Democratic and Republican administrations made 
major cuts in the U.S. military's size and modernization programs and 
called home a large portion of America's forward-deployed forces. The 
``frontier'' forward-defense posture of the Cold War era was 
progressively reduced as U.S. forces were re-positioned in the 
continental United States and shifted toward an expeditionary posture. 
Following the First Gulf War, the U.S. military found itself 
increasingly engaged in minor conflicts in the developing world, such 
as in the Balkans, Haiti, Rwanda and Somalia, while conducting residual 
security operations centered on Iraq. Operations against irregular 
threats such as these expanded greatly following the 9/11 attacks. 
Large U.S. and allied expeditionary forces were deployed to Afghanistan 
and Iraq to conduct stability operations, while American and allied 
Special Forces engaged in sustained global counter-terrorist 
operations. In summary, in the quarter-century following the fall of 
the Berlin Wall, the U.S. military has increasingly emphasized 
expeditionary operations against modestly equipped irregular forces.
                     the rise of revisionist powers
    The U.S. military's large and protracted campaigns against radical 
Islamist forces in Afghanistan and Iraq, combined with a significant 
erosion of the U.S. Government's fiscal position, did much to convince 
President Barack Obama to withdraw all U.S. forces from Iraq in 2011 
and end all American combat operations in Afghanistan in 2014. In 2011, 
the administration negotiated an agreement with Congress designed to 
reduce the large deficits the government had been running since the 
onset of the Great Recession. The result, the Budget Control Act of 
2011, requires substantial reductions in defense spending over ten 
years amounting to nearly $1 trillion when compared to the projections 
submitted by President Obama in his fiscal year (FY) 2012 budget.
    While U.S. defense budgets have typically increased and declined as 
threats to the country's security have grown and faded, respectively, 
the same cannot be said regarding the current situation. Indeed, 
despite the Obama administration's efforts to reduce U.S. involvement 
in countering radical Islamist groups, their strength has increased 
rather than decreased in recent years. To paraphrase Leon Trotsky, 
``The United States may not be interested in waging war against radical 
Islamists, but radical Islamists are waging war on the United States.''
    As the Islamist State in Iraq and the Levant (ISIL) and other Sunni 
extremist groups, like al-Qaeda, demonstrate, radical Islamism remains 
a persistent threat. Yet the challenges posed by radical Islamism are 
relatively modest when compared to the increasingly belligerent 
activities of three revisionist powers: China, Iran, and Russia, which 
threaten long-standing U.S. interests in the Western Pacific, Middle 
East, and Europe, respectively.
    China and Russia far outstrip the capabilities of any terrorist 
organization or minor power, such as Iraq and North Korea, that formed 
the basis for much of our defense planning over most of the past two 
decades. Moreover, in East Asia and the Middle East there are other 
threats to American and allied security aside from China and Iran, 
respectively. In the case of the former, the challenges posed by a 
nuclear-armed North Korea cannot be underestimated. Nor can resurgent 
radical Sunni Islamism be ignored in the Middle East. Our military 
strategists are thus confronted not only with prioritizing their 
efforts across three Eurasian regions, but also within regions. The 
problem is further complicated in that Sunni and Shi'a extremists pose 
a threat not only to U.S. security interests, but view each other as 
enemies.
    In East Asia, China's continuing economic growth has fueled its 
revisionist ambitions and enabled a large-scale, sustained military 
buildup, one that is beginning to shift the local balance of power in 
its favor. As a result, Beijing has been emboldened to act more 
assertively toward its neighbors, as reflected in its expanding its 
territorial claims, which include not only Taiwan, but also most of the 
South China Sea and Senkaku Islands.
    In Europe, Russia's recent behavior suggests that its 2008 military 
campaign against Georgia was not an aberration, but rather an initial 
effort to overturn the prevailing regional order. By seizing the 
Crimea, waging unconventional warfare in eastern Ukraine, and engaging 
in military deployments that threaten its East European neighbors, 
Moscow has made it clear that it does not accept the post-Cold War 
political order in Europe. Russia's recent deployment of forces to 
Syria suggests that it is once again both willing and able to employ 
its military to advance its aims beyond its ``near abroad.''
    Finally, Iran continues to support extremist groups that seek to 
destabilize friendly regimes across the Middle East, while questions 
remain about its willingness to accept stringent restrictions on its 
capacity to build nuclear weapons. Moreover, the region remains wracked 
by ethnic and religious tensions instigated by Iran and its proxies, 
and by radical Sunni Islamist groups.
    Together, these developments have greatly increased the scale of 
the security challenges confronting the United States relative to what 
they were less than a decade ago.
                          military challenges
    Moreover, the forms of the threats posed by these three revisionist 
states are in some important ways quite different from the Soviet 
threat of the Cold War era. Beijing, Moscow and Tehran are accumulating 
military capability at different rates, on different scales, and in 
varying levels of sophistication. When combined with other factors, 
such as geography, demography and political culture, each poses a 
unique challenge to U.S. security interests. Disruptive change in the 
military competition is almost certainly under way in the following 
areas.
The Battle Network Competition
    During the Cold War, the U.S. military focused considerable 
attention on electronic warfare, or what the Soviets called ``Radio-
Electronic Combat.'' As both superpowers began deploying satellites in 
substantial numbers during the 1960s, space became the focus of 
increased competition as well. Following the Cold War, however, the 
U.S. military entered a period when its command, control, 
communications, computers, intelligence, surveillance and 
reconnaissance (C4ISR) operations were conducted in benign (or 
uncontested) environments. This happy circumstance no longer exists. 
The entrance of Russia and (especially) China into direct military 
competition with the United States means that the U.S. military can no 
longer count on its C4ISR capabilities being immune from attack.
    Although China is the pacing threat, its emphasis on attacking the 
U.S. military's ``nervous system'' in the form of its battle networks 
is hardly unique. According to the U.S. intelligence community, 
``Russian leaders openly maintain that the Russian armed forces have 
antisatellite weapons and conduct antisatellite research.'' \1\ 
Likewise, Russia and Iran both have active and capable cyber warfare 
programs, as evidenced by Moscow's apparent use of computer network 
attacks against Estonia in 2007 and Georgia in 2008, as well as 
Tehran's alleged attacks on Saudi Aramco in 2012.
---------------------------------------------------------------------------
    \1\ James R. Clapper, ``Statement for the Record: Worldwide Threat 
Assessment of the US Intelligence Community,'' Senate Select Committee 
on Intelligence, January 29, 2014, p. 7, available at http://
www.intelligence.senate.gov/140129/clapper.pdf.
---------------------------------------------------------------------------
The Mature Precision-Strike Competition
    For nearly seventy years--beginning with the buildup of American 
military forces for an anticipated invasion of Japan in the summer of 
1945, and through the Korean, Vietnam and both Gulf wars, as well as 
innumerable lesser operations in places like the Balkans, Dominican 
Republic, Panama, and Somalia--the United States has repeatedly been 
able to deploy and sustain its forces over lengthy air and sea lines of 
communication to forward theater ports, airfields, and staging areas 
immune from serious attacks; and achieve air superiority using short-
range platforms based in close proximity to an area of operations. \2\ 
These favorable conditions have had a profound influence on U.S. force 
structure and contingency planning. \3\ Yet, as in the case of U.S. 
battle networks, the era of uncontested U.S. global force projection is 
rapidly drawing to a close, due in large part to the proliferation of 
conventional precision-strike capabilities. Combined with improvements 
in guidance kits, wide-area sensors, communications links, data 
processing systems, and other key information technologies, this is 
enabling conventional munitions to become increasingly lethal over 
progressively greater ranges--and against both fixed and mobile 
targets. The United States, however, no longer enjoys the commanding 
position in the precision-strike regime that it occupied in the two 
decades following the end of the Cold War. \4\
---------------------------------------------------------------------------
    \2\ Andrew F. Krepinevich, The Military-Technical Revolution: A 
Preliminary Assessment (Washington, DC: Center for Strategic and 
Budgetary Assessments, 2002). This is a reprint of the assessment 
written in the Office of the Secretary of Defense in 1992; and Jan van 
Tol with Mark Gunzinger, Andrew Krepinevich, and Jim Thomas, AirSea 
Battle: A Point of Departure Operational Concept (Washington, DC: 
Center for Strategic and Budgetary Assessments, 2010).
    \3\ Mark Gunzinger, Shaping America's Future Military: Toward a New 
Force Planning Construct (Washington, DC: Center for Strategic and 
Budgetary Assessments, 2013).
    \4\ Barry Watts, The Maturing Revolution in Military Affairs 
(Washington, DC: Center for Strategic and Budgetary Assessments, 2011); 
and Barry Watts, The Evolution of Precision Strike (Washington, DC: 
Center for Strategic and Budgetary Assessments, 2013).
---------------------------------------------------------------------------
    Once again China is the pacing threat. The People's Liberation Army 
(PLA) is fielding a variety of advanced surveillance and strike 
capabilities to support its anti-access/area denial (A2/AD) \5\ forces, 
with an eye toward progressively shifting the East Asian military 
balance in Beijing's favor. Although China's precision-strike 
capabilities far exceed those of most other nations, Iran and Russia 
appear to be following its example, albeit in more modest fashion. 
Ultimately, in a conflict against an adversary that possesses large 
numbers of guided weapons along with the battle networks needed to 
locate distant (and mobile) targets, and coordinate complex operations, 
the U.S. military may find that air and seaports of debarkation, 
forward bases and staging areas, and mobile high signature assets such 
as major surface combatants are increasingly vulnerable to attack.
---------------------------------------------------------------------------
    \5\ Anti-access capabilities are used to prevent or constrain the 
deployment of opposing forces into a theater of operations, whereas 
area-denial capabilities are used to restrict their freedom of maneuver 
once in theater. See Andrew F. Krepinevich, Jr., ``The Pentagon's 
Wasting Assets,'' Foreign Affairs, Vol. 88, No. 4 (July/August 2009). 
For an overview of China's military capabilities and strategy, see 
Office of the Secretary of Defense. Annual Report to Congress: Military 
and Security Developments Involving the People's Republic of China 2014 
(Washington, DC: Department of Defense, 2014).
---------------------------------------------------------------------------
Modern Sub-Conventional Warfare
    Precision weaponry (such as precision-guided rockets, artillery 
rounds, mortars and missiles, or G-RAMM, as well as anti-tank guided 
munitions (ATGMs) and shoulder-fired surface-to-air missiles) has the 
potential to augment profoundly the military potential of irregular 
proxy forces. \6\ Non-state actors--especially groups such as Hezbollah 
with significant resources, state sponsors, or both--are embracing the 
precision revolution by acquiring guided anti-aircraft, anti-armor, and 
anti-personnel weapons that were, only a decade or so ago, beyond their 
reach. \7\ If this trend continues, even irregular armed groups like 
Hezbollah and Daesh may be able to establish denial zones on, above, 
and even beyond their territory.
---------------------------------------------------------------------------
    \6\ During the Second Lebanon War in 2006, Iran's proxy Hezbollah 
proved surprisingly capable against the Israeli Defense Force during 
their month-long conflict. Yet Hezbollah possessed only ATGMs and a few 
anti-ship cruise missiles (ASCMs) to augment a substantial arsenal of 
rockets, artillery, mortars and missiles (or ``RAMM''), none of which 
had precision guidance.
    \7\ On Hezbollah's capabilities in particular, see Nicholas 
Blanford, Warriors of God: Inside Hezbollah's Thirty-Year Struggle 
against Israel (New York: Random House, 2011). Non-state actors armed 
with precision-guided weapons are often cited as the chief example of 
``hybrid'' threats that combine guerrilla tactics with capabilities 
that were until recently widely available only to states. For 
discussions of this concept, see Frank G. Hoffman, ``Hybrid Warfare and 
Challenges,'' Joint Force Quarterly No. 52 (2009); and Williamson 
Murray and Peter R. Mansoor, eds., Hybrid Warfare: Fighting Complex 
Opponents from the Ancient World to the Present (New York: Cambridge 
University Press, 2012).
---------------------------------------------------------------------------
    Today China, Iran and Russia are employing paramilitary forces, 
non-state proxies, and/or soldiers in disguise (also referred to as 
``little green men'') in pursuing sub-conventional acts of aggression 
against their neighbors. Unfortunately, this form of military 
competition has often proven particularly troublesome for the United 
States.
The Second Nuclear Age
    The nuclear competition has become both different and in some ways 
more complex than was the case during the Cold War, which was dominated 
by the United States and the Soviet Union. Since the Cold War new 
nuclear powers have emerged. A regional nuclear competition has emerged 
in South Asia between, India and Pakistan, and one may develop in the 
Middle East between Iran and Israel. There are concerns that a nuclear-
armed Iran may trigger a nuclear proliferation cascade across the 
Middle East, perhaps involving Saudi Arabia, Turkey and other states as 
well. \8\ Moreover, the United States and Russia have reduced their 
arsenals to levels far below those of the Cold War. Consequently the 
barrier to entry to great power nuclear status has been lowered. This 
could tempt China and perhaps India and/or Pakistan (currently the 
leading producer of nuclear weapons) to augment their arsenals to 
``superpower'' levels. Such an ``n-player'' nuclear competition among 
comparable powers would likely be characterized by higher levels of 
uncertainty and, perhaps, crisis instability as well. \9\
---------------------------------------------------------------------------
    \8\ Andrew F. Krepinevich, Critical Mass: Nuclear Proliferation in 
the Middle East (Washington, DC: Center for Strategic and Budgetary 
Assessments, 2013). See also Bob Graham and Jim Talent et al., World at 
Risk: The Report of the Commission on the Prevention of Weapons of Mass 
Destruction Proliferation and Terrorism (New York: Vintage, 2008), 
available at http://www.absa.org/leg/WorldAtRisk.pdf; William J. Perry 
and James R. Schlesinger, et al., America's Strategic Posture: The 
Final Report of the Congressional Commission on the Strategic Posture 
of the United States (Washington, DC: United States Institute of Peace 
Press, 2009), available at http://www.usip.org/sites/default/files/
America's--Strategic--Posture--Auth--Ed.pdf; and Bradley Bowman, Chain 
Reaction: Avoiding a Nuclear Arms Race in the Middle East, S. Prt. No. 
110-34 (Washington, DC: U.S. Government Printing Office, 2008), 
available at http://www.gpo.gov/fdsys/pkg/CPRT-110SPRT39674/html/CPRT-
110SPRT39674.htm.
    \9\ Fred Charles Ikle et al. The Diffusion of Nuclear Weapons to 
Additional Countries: The ``Nth Country'' Problem (Santa Monica, CA: 
RAND Corporation, 1960); Fred Charles Ikle, ``Nth Countries and 
Disarmament'' Bulletin of the Atomic Scientists Vol. 16, no. 10 
(December 1960), available at http://csis.org/images/stories/ikle/
038.BulletinAtomicSc1960.pdf; and Andrew F. Krepinevich, Critical Mass: 
Nuclear Proliferation in the Middle East (Washington, DC: Center for 
Strategic and Budgetary Assessments, 2013).
---------------------------------------------------------------------------
    The era of precision warfare is further complicating matters. 
During the Cold War the ``firebreak'' between conventional and nuclear 
weapons was relatively stark. The advent of precision-guided munitions 
in large quantities that, in some instances, can cover targets 
previously reserved for nuclear weapons has provided the U.S. military 
with a significant advantage over its prospective rivals. Both China 
and Russia are developing their own precision warfare capabilities. In 
the interim, both have sought to offset the U.S. advantage in precision 
warfare by improving their atomic arsenals, in some cases by developing 
nuclear weapons with extremely low yields and/or focused effects (such 
as an electromagnetic pulse). The result is a progressive blurring of 
the distinction between nuclear and conventional weapons and the 
firebreak that has, in the minds of many, helped to discourage nuclear 
weapons use.
    The Second Nuclear Age, as it has been called, is also changing the 
strategic landscape regarding the role of defenses as well as crisis 
stability. With the emergence of small nuclear powers, modern air and 
missile defenses may prove effective against nuclear missile attack in 
some circumstances, even if the offense still enjoys an overall 
advantage. States with large nuclear arsenals that are also major 
advanced economic and technology powers may be able to field effective 
defenses against minor nuclear powers. In the case of minor nuclear 
powers that are in close geographic proximity to one another (such as 
India and Pakistan, or (prospectively) Iran and Israel), owing to the 
speed at which ballistic missiles travel, both sides' attack warning 
times would be compressed from the twenty to thirty minutes or so that 
existed between the two Cold War superpowers to perhaps a little as 
five to six minutes. This time compression will place enormous strain 
on the early warning and command and control systems of nuclear rivals 
in close geographic proximity to one another--assuming they have the 
technical, human and material resources to field, operate and maintain 
them.
    Other problems loom as well. One is the potential of cyber weapons 
to corrupt early warning data and command-and-control systems. Another 
concerns the lack of understanding of how the culture and personalities 
of those controlling nuclear weapons in the new nuclear powers 
calculate cost, benefit and risk. Simply stated, the character of the 
nuclear competition is undergoing a fundamental and potentially 
dangerous shift.
                          resource challenges
The Budget
    Since World War II, as threats to U.S. security have increased, 
generally the resources allocated to meet them have increased as well. 
Correspondingly, in periods where threats appeared to be receding, the 
resources allocated for defense typically declined. This is not the 
case now. The U.S. defense budget, as a percentage of GDP, is expected 
to decline from over four percent in 2010 to less than three percent by 
2020, a decline of over 25 percent.
    Further complicating matters since 9/11, maintaining an all-
volunteer force has seen personnel costs increase dramatically, 
crowding out spending on training, readiness and new equipment. With 
respect to modernization, the challenge is made more acute by the 
cancellation of a series of new systems due to concerns regarding cost 
growth, over-ambitious technical requirements, and questionable 
performance, among others. \10\ As discussed above, emerging security 
challenges could accelerate the depreciation of the military's existing 
equipment stocks.
---------------------------------------------------------------------------
    \10\ Among the major programs terminated or greatly truncated are 
the Army's Future Combat System, Crusader artillery system, and 
Comanche helicopter; the Navy's CG(X) cruiser and DDG (1000) destroyer, 
the Air Force's Airborne Laser and F-22 fighter, and the Marine Corps' 
Expeditionary Fighting Vehicle.
---------------------------------------------------------------------------
Allies and Partners
    Ideally, under these circumstances Washington could prevail upon 
its allies and partners, particularly those that are among the most 
advanced states of the developed world, to take up some of the slack. 
Reality, however, finds the opposite: Our European allies with the 
largest GDP--Germany, France and Great Britain--have seen their 
allocations for defense (as a percentage of GDP) fall from an average 
of 1.6, 2.9 and 3.2, respectively, during the period from 1995-1999, to 
1.3, 1.9, and 2.4 percent in 2013.Our European allies with the largest 
GDP--Germany, France and Great Britain--have seen their allocations for 
defense (as a percentage of GDP) fall from an average of 1.6, 2.9 and 
3.2, respectively, during the period from 1995-1999, to 1.3, 1.9, and 
2.4 percent in 2013.1A\11\ Japan, which boasts the world's third 
largest economy, remains tethered to its self-imposed ceiling on 
defense spending at 1 percent of GDP, and has recently failed to reach 
the modest level.1A\12\
---------------------------------------------------------------------------
    \11\ The corresponding U.S. percentages are 3.2 and 4.4. One might 
interpret this as the United States increasing its military efforts in 
part to offset the decline in its allies' efforts. As noted, U.S. 
defense funding is now in decline as well when measured as a share of 
GDP.
    \12\ Although Japan, under the Abe government, has sent strong 
signals that it intends to increase its defenses, it remains to be seen 
whether it will match its words with deeds.
---------------------------------------------------------------------------
    In summary, the means available to both the United States, its 
allies and partners to defend their interests are declining while those 
available to the three revisionist powers are increasing. Thus the 
United States finds itself progressively less capable of pursuing a 
``rich man's strategy'' of simply outspending its competitors. Instead 
it will need to figure out a way to prevail by crafting a ``smart man's 
strategy.'' It also means that dificult choices will have to be made 
regarding U.S. defense priorities.
    This is not to say that the United States and its allies should 
seek to maintain a level of defense spending pegged to a particular 
percentage of their GDP. The level of defense spending should be a 
function of many factors, among them: the scale and form of the 
security challenges to our interests; the level of risk we are willing 
(and able) to accept to those interests; social factors (such as the 
cost of maintaining a volunteer force versus a draft); the defense 
strategy chosen (e.g., one that adopts an objective of mounting a 
successful forward defense versus a mobilization strategy that 
maintains a relatively small active force); and how effective a 
strategy one is able to craft (i.e., one that makes the most efficient 
use of resources, aligns friendly strengths against an enemy's 
weaknesses, imposes disproportionate costs upon the enemy in conducting 
a long-term competition, etc.). That being said, and all other factors 
being equal, the decline in resources projected to be devoted to 
defense relative to those being invested by the revisionist powers 
suggest the United States is accumulating risk to its ability to 
preserve security interests at an alarming rate, one that even a well-
designed strategy may be unable to offset.
                         the need for strategy
    The situation described above finds the United States entering a 
period of heightened security challenges--in both their scale and 
form--not witnessed since the late 1940s and early 1950s when the 
Soviet Union and Communist China emerged as major threats to U.S. and 
allied vital interests in Europe and the Far East. The geopolitical 
threat was compounded by profound discontinuities in the military 
competition driven in part by the development of nuclear weapons, 
thermonuclear weapons, ballistic missiles, and military satellites, all 
within the span of little more than a decade.
    Faced with growing threats and declining or, at best, plateauing 
resources, the need for well-crafted regional defense strategies and an 
integrated U.S. global defense strategy and posture is clear. Yet the 
U.S. Government has lost much of its competence to do strategy well. 
\13\ The Defense Department's approach to strategy is primarily driven 
by process--the QDR is undertaken every four years, not sooner, not 
later--than by need or from an understanding that strategy is not an 
occasional effort, but a constant endeavor.
---------------------------------------------------------------------------
    \13\ Andrew F. Krepinevich and Barry D. Watts, Regaining Strategic 
Competence (Washington, DC: Center for Strategic and Budgetary 
Assessments, 2009).
---------------------------------------------------------------------------
    This view is shared by some who have been deeply involved in U.S. 
defense strategy formulation. Andrew Marshall, who recently retired as 
head of the Office of Net Assessment, Office of the Secretary of 
Defense, declared before his departure:

        There's a disinclination . . . as compared with the interest in 
        and the capacity to do this kind of thing [i.e., strategy], 
        that characterized the early part of the Cold War. It just has 
        disappeared in the U.S. Government.

        [W]hen you look at what the government has mainly produced as 
        so-called strategies, [they] are, first, simply lists of good 
        things they want to happen. They have nothing about how you're 
        really going to get there . . . [T]hey are focused entirely--to 
        the extent that they pay any attention to the opponent--it is 
        his strengths that they get into the business of reacting to. 
        Whereas strategy . . . [involves] exploiting the weaknesses of 
        the other side, or your strengths. The big problem in the 
        Defense Department is that the minute you start categorizing 
        our strengths and advantages then the Services faint, because 
        their sales pitch on the Hill is [focused on] our weaknesses, 
        or the strengths of the other side. \14\
---------------------------------------------------------------------------
    \14\ Andrew W. Marshall, Remarks at a Senior Roundtable on 
Strategy, Center for Strategic and Budgetary Assessments, Washington, 
DC, September 25, 2007.

    President Dwight D. Eisenhower noted that any strategy, no matter 
how good it might be, is at the mercy of constantly changing events. 
This does not mean that efforts to develop strategy do not matter; 
rather it is the need, undertaken on a continuing, persistent basis to 
identify new sources of competitive advantage in a constantly changing 
world that matters most. As Eisenhower put it, ``[T]he secret of a 
sound, satisfactory decision made on an emergency basis has always been 
that the responsible official has been `living with the problem' before 
it becomes acute.'' \15\ Or, as he put it, ``Plans are useless . . . 
planning is indispensable.'' \16\
---------------------------------------------------------------------------
    \15\ Robert R. Bowie and Richard H. Immerman, Waging Peace (Oxford. 
UK: Oxford University Press, 1998), p. 89.
    \16\ Richard Nixon, Six Crises (Garden City, N.J.: Doubleday, 
1962), p. 235.
---------------------------------------------------------------------------
    The decline of competence when it comes to defense strategy can 
also be attributed to the fact that strategy requires not only 
persistent effort, but that it also is something that is difficult to 
do well. Eisenhower realized this and noted that:

        The basic principles of strategy are so simple that a child may 
        understand them. But to determine their proper application to a 
        given situation requires the hardest kind of work from the 
        finest available staff officers. \17\

    \17\ Dwight D. Eisenhower, Crusade in Europe (New York: Doubleday, 
1948), p. 36.
---------------------------------------------------------------------------
    Consequently he tasked small groups of highly competent strategists 
to develop strategy. \18\
---------------------------------------------------------------------------
    \18\ An example of this is Eisenhower's so-called Solarium Project, 
which proved instrumental in developing NSC 162/2, one of the 
foundational Cold War strategy documents.
---------------------------------------------------------------------------
    Yet for a variety of reasons the current development of U.S. 
defense strategy is not undertaken by proven strategists, but as part 
of a bureaucratic process involving hundreds of people. It is not a 
persistent endeavor, but an occasional undertaking.
                    strategy and the defense posture
    As President Eisenhower observed, the crafting of a good strategy 
is a very challenging proposition. Consequently, the best I can do at 
present is to provide a sense of how to think about the problem.
    The first order of business is to answer the question: ``What are 
we trying to do?'' or ``What do we seek to accomplish?''
    Next, what, given the resources--human, technical and material--
likely to be available to us, are our options for accomplishing the 
objectives we have set for ourselves? Simply put, having identified 
what we are trying to achieve and the means at hand to accomplish the 
task, what choices are available regarding how we are going to link the 
two. The ``how'' is our strategy. Only after choosing a strategy can we 
make informed decisions regarding our defense posture, such as 
operational concepts, doctrine, force size and mix, basing posture. 
\19\
---------------------------------------------------------------------------
    \19\ That being said, the choice of a strategy should be informed 
by the kinds of operational concepts available for executing it. The 
range of plausible operational concepts are themselves limited by, 
among other things, the kinds of capabilities available, those that may 
be deployed over the planning horizon, basing alternatives, the 
contributions of allies, and so on.
---------------------------------------------------------------------------
    To give you a sense of what I am talking about, permit me to offer 
two examples. The first is our strategy for defending Western Europe 
during the Cold War. The second examines our current approach to the 
Western Pacific.
Example: Cold War Europe
    Given our longstanding interest in preventing the rise of a hostile 
hegemonic power in Europe, early in the Cold War we set containing 
Soviet power as our objective under the key assumption that time was on 
our side in this competition and that, given enough time, the Soviet 
system would fail. The military objective we set in the key theater of 
operations--Western Europe--was to deter Soviet aggression and, if 
deterrence failed, to end the war on terms favorable to us and our NATO 
allies. The military strategy we chose was the forward defense of 
Western Europe.
    The principal means for executing this strategy changed over time. 
Early on the United States relied on its advantage in nuclear weapons 
and employed a ``tripwire'' conventional force in Western Europe. As 
the Soviet Union expanded its nuclear arsenal more emphasis was given 
to conventional forces.
    Simultaneously, operational concepts that set forth how our forces 
might best accomplish their missions were developed and refined. This 
effort reached its apex in the early 1980s when the Air Force joined 
with the Army to develop AirLand Battle. This operational concept 
called for U.S. and NATO forces to hold the line against the initial 
wave of Warsaw Pact forces while also engaging the second wave coming 
from Eastern Europe and the western Soviet Union. Plans were made and 
exercised for the rapid reinforcement of Army and Air Force units from 
the United States to Western Europe, with their equipment pre-
positioned in West Germany to accelerate the process.
    Our Navy and Marine Corps built upon this concept with their own. 
The Navy sought to accomplish its mission of safeguarding the sea lines 
of communication from North America to Europe by keeping Soviet forces 
north of the so-called Greenland-Iceland-UK (or ``GIUK'') gap through 
an operational concept known as the Outer Air Battle. Meanwhile, the 
Marine Corps pre-positioned equipment in Norway to enable its rapid 
deployment to that country to help secure NATO's northern flank.
    These integrated concepts, which were also coordinated with our 
NATO allies, gave a clear sense as to the size and shape of the forces 
we would need, the kind of equipment that would serve them best, the 
division of labor between the Services, and the kind of support our 
allies might provide that would prove the most valuable.
Example: Today's Western Pacific
    I assume that the United States is not abandoning its longstanding 
interest in preventing the rise of a hostile hegemonic power in the Far 
East. The only revisionist power in the region that seeks to establish 
such a dominant position is China. Let me further assume that our pivot 
or rebalance to the Asia-Pacific is designed, to an increasing degree, 
to prevent China from achieving its revisionist aims through coercion 
or aggression. Given China's expanding territorial claims, the so-
called First Island Chain, running through Japan's main islands and its 
Ryukyu Chain, through Taiwan and then along the Philippine Islands 
before stretching across the Malay Peninsula, is likely to be the focal 
point of the military competition. Importantly, the United States has 
alliances with both Japan and the Philippines and remains committed to 
the security of Taiwan.
    How do we plan to meet these commitments? What is our military 
strategy for maintaining our interests in this region?
    We have several plausible strategies we might pursue, most of which 
are not mutually exclusive. One is to commit to a forward defense of 
the First Island Chain. Or we might rely on a tripwire force as we did 
in Europe in the early days of the Cold War, implying that we are 
prepared to ``go to the brink'' of nuclear war if need be. Then there 
is the mobilization strategy pursued in World War II, ceding territory 
while amassing overwhelming military power to pursue what proved to be 
a long and costly, but successful counter-offensive. There is the 
strategy of ``Offshore Control,'' that calls for a distant blockade of 
China as the best way to achieve our security objectives.
    Depending upon the strategy that emerges out of these options 
(there are other possibilities as well), we can begin to make sense of 
how well our current and projected force posture supports it. At 
present, however, neither the American people, nor its Congress, nor 
our allies have a sense of our military strategy in the Western Pacific 
remotely comparable to what we achieved during the Cold War in Europe. 
Nor are efforts by the strategic studies community in recent years to 
fill the vacuum a substitute for such a strategy. \20\ Moreover, this 
challenge exists not only in the Western Pacific, but also in other 
regions of long-standing vital interest and to key domains such as 
space, cyberspace and the seas that enable access to these regions.
---------------------------------------------------------------------------
    \20\ See, for example, Jan van Tol with Mark Gunzinger, Andrew 
Krepinevich, and Jim Thomas, AirSea Battle: A Point of Departure 
Operational Concept (Washington, DC: Center for Strategic and Budgetary 
Assessments, 2010); Mark Gunzinger with Chris Dougherty, Outside-In: 
Operating from Range to Defeat Iran's Anti-Access and Area-Denial 
Threats (Washington, DC: Center for Strategic and Budgetary 
Assessments, 2011); T. X. Hammes, ``Offshore Control is the Answer,'' 
Proceedings, 2012; and Andrew F. Krepinevich, ``How to Deter China: The 
Case for Archipelagic Defense,'' Foreign Affairs, March-April 2015.
---------------------------------------------------------------------------
                                summary
    The strategic pause that characterized the immediate post-Cold War 
era is long past. We are confronted with growing security challenges 
and are accumulating strategic risk at an alarming rate. At the same 
time the resources available to address these challenges are 
diminishing. As the gap widens between the threats to our interests and 
the means we have available to meet them, we need to employ these 
resources as effectively as possible. Hence the acute need for a well-
crafted strategy.
    Given our circumstances, there is an understandable eagerness to 
have answers to many questions, such as: What kinds of capabilities do 
we need? What kinds of forces? What is the proper division of labor 
between the military services, and between our military and those of 
our allies? Where should our forces be positioned? But informed 
responses to questions like these cannot be arrived at without knowing 
our strategy, and developing one will require persistent effort by 
talented strategists, and sustained involvement by our senior political 
and military leaders. There is no short cut.

About the Center for Strategic and Budgetary Assessments 

    The Center for Strategic and Budgetary Assessments (CSBA) is an 
independent, nonpartisan policy research institute established to 
promote innovative thinking and debate about national security strategy 
and investment options. CSBA's goal is to enable policymakers to make 
informed decisions on matters of strategy, security policy and resource 
allocation. CSBA provides timely, impartial and insightful analyses to 
senior decision makers in the executive and legislative branches, as 
well as to the media and the broader national security community. CSBA 
encourages thoughtful participation in the development of national 
security strategy and policy, and in the allocation of scarce human and 
capital resources. CSBA's analysis and outreach focus on key questions 
related to existing and emerging threats to US national security. 
Meeting these challenges will require transforming the national 
security establishment, and we are devoted to helping achieve this end.

    Chairman McCain. I'll take that as a personal insult.
    [Laughter.]
    Dr. Krepinevich. Beat Navy.
    Chairman McCain. Mr. Wood.

   STATEMENT OF DAKOTA WOOD, SENIOR RESEARCH FELLOW, DEFENSE 
               PROGRAMS, THE HERITAGE FOUNDATION

    Mr. Wood. Chairman McCain, Ranking Member Reed, members of 
this committee, thank you for this opportunity to contribute to 
your effort to better understand factors that shape the U.S. 
military.
    My remarks today are a more concise summation of the 
submitted testimony.
    I'm delighted to know that this committee is challenging 
all aspects of defense--U.S. defense policy. And this session 
on force-sizing rationales and military capabilities is an 
important step in that process.
    Obviously, there are differing opinions on how and why the 
military should be postured and equipped to defend U.S. 
interests. With Russia in Ukraine and Syria and threatening 
NATO, Iran deeply involved in operations across the Middle East 
and expanding its military portfolio, China behaving ever more 
provocatively in the Asia-Pacific region, and North Korea 
developing longer-range, presumably nuclear-capable, missiles 
with the assessed ability to reach the United States, having 
the right forces in sufficient quantity is critically 
important.
    In recent work with which I've been involved as editor of 
the Heritage Foundation's Index of U.S. Military Strength, we 
took a different approach to considering how might--how one 
might think about sizing U.S. military and posturing it for the 
future. Instead of trying to predict where forces might be 
needed, and for what type of conflict, we chose to look at what 
history tells us about the actual use of military force. We 
also reviewed other top-level studies on national defense 
requirements, to include the bottom-up review in 1992 in the 
QDR and NDP reports. What we found was that, from the Korean 
War onward, the United States has found itself in a major war 
every 15 to 20 years, and, in each instance, used roughly the 
same size force. Further, each of the nine major studies came 
to roughly the same recommendations for end strength, major 
platforms, and large unit formations. In general, the 
historical record in these studies indicate the U.S. needs an 
Active Army of about 50 brigade combat teams, a Navy 
approaching 350 ships, an Air Force of at least 1,200 fighter 
attack aircraft, and a Marine Corps based on 36 battalions. 
This size force would provide the U.S. the ability to fight a 
major war or handle a major sustained contingency, while also 
having sufficient capacity to sustain large-scale commitments 
elsewhere and respond to an emergent crisis, should a major 
competitor try to take advantage of a perceived window of 
opportunity. In other words, the force enables the country to 
handle one major crisis while deterring competitors from acting 
opportunistically.
    This historical record spans 65 years, encompassing decades 
of technological advancements, various geographic regions, 
enemy forces, economic conditions, and even shifts in political 
control of the executive and legislative branches of the U.S. 
Government.
    There are practical realities in the use of force that also 
override nearly all other factors. The nature of war and the 
operating spaces within which it is waged require large forces 
to control territory or to deny such to an enemy force. Numbers 
really do matter. Sustained stability operations require a 
large rotational base. Conventional combat operations require 
sizable forces to replace combat losses and to rotate fresh 
units into battle. Small numbers of exquisitely equipped forces 
are inadequate to such situations and can lead to a force that 
is overly sensitive to combat losses or is quickly worn down by 
numerous deployments in rapid succession.
    Numbers also matter in preparing for the future. When the 
force is small and is already hard-pressed to meet current 
operational demands, little capacity is available to prepare 
for the future. If we truly believe that new ways are needed to 
maintain a competitive advantage over opponents, then a portion 
of the force must be available for experimentation, whether by 
reducing current demands on the force or enlarging the force so 
that it can do all the things being demanded of it. Instead, we 
continue to see further reductions and increased workload.
    Former Secretary of Defense Robert Gates recently appeared 
before this committee, as has been noted. One of his major 
points was that the U.S. continually cycles between ramping up 
for a crisis that no one predicted or believed would happen, 
and then cutting the force to some bare minimum once the crisis 
is over, with folks blithely assuming that another crisis won't 
come along in short order or that we will somehow be able to 
predict when, where, and against whom it will occur.
    Modern technologies do provide U.S. forces core advantages 
in many areas, especially against similarly equipped opponents. 
But, they are usually expensive and can come at a cost and 
capacity. We should continue to explore the advantages of 
unmanned systems, advanced C4ISR networks, and precision-guided 
munitions, but should not lose sight of the fact that numbers 
matter more, especially when combat losses remain a feature.
    On our current modernization path at existing levels of 
funding, we are likely to find ourselves with a military 
equipped with state-of-the-art capabilities, yet incapable of 
conducting sustained operations against a credible opponent. 
This potential outcome is quite troubling and is something this 
committee should seriously consider.
    So, to sum it up, I'd emphasize that numbers matter, the 
capacity of our military for a great variety of operations is 
at least as important as how it is equipped, if not more so. 
The overall size of the force, and how much of it is used in 
major contingencies, appears to be independent of technology, 
perhaps even strategy, internal organization, or force-sizing 
rationale. And too small a force has profound consequences for 
its readiness, health, and strategic value.
    Once again, I thank you for the opportunity, and I look 
forward to answering your questions.
    [The prepared statement of Mr. Wood follows:]

                      Statement by Dakota L. Wood
    Chairman McCain, Ranking Member Reed, and members of this 
Committee: It is a great honor to testify before you today to share my 
thoughts on sizing and shaping the U.S. military such that it can 
defend the national security interests of the United States. Thank you 
for this opportunity to contribute to this discussion.
    The views I express in this testimony are my own, and should not be 
construed as representing any official position of The Heritage 
Foundation.
    I am delighted to know that this Committee is in the process of 
challenging all aspects of U.S. defense policy, starting with the 
underpinnings of national security interests, challenges to those 
interests, and practical approaches to relevant strategies. This 
session on force sizing rationales, the appropriate mix of military 
capabilities, and the multitude of issues that impact the ability of 
the U.S. military establishment to ready itself for effective action is 
an important step to ensuring America and its interests are adequately 
protected.
    The problem, of course, is that there are differing opinions about 
the specifics of each of these. How many conflicts and of what type? 
Against what sort of opponent and for what period of time? What might 
be the role of advanced technologies and to what extent should future 
forces be shaped to account for such? That this committee has decided 
to aggressively tackle these challenging questions is not only 
laudable, but critical to ensuring Congress is appropriately informed 
in its deliberations on resource allocation.
    This general topic has spurred a cottage industry of sorts. After 
fourteen years of continuous military operations, the loss of nearly 
7,000 service members and almost 50,000 wounded, \1\ and (by some 
accounts) a direct monetary expense of at least $1.6 trillion, \2\ to 
dubious benefit vis-a-vis U.S. interests, some openly question whether 
the U.S. military has lost its competency for winning wars. Now, with 
Russia in Ukraine and Syria and threatening NATO, Iran deeply involved 
in operations across the Middle East and expanding its military 
portfolio, China behaving ever more provocatively in the Asia-Pacific 
region, and North Korea developing longer-range missiles with the 
assessed ability to reach the United States, presumably with a nuclear 
warhead, the military services, senior civilian leaders within the 
Department of Defense, and a host of public and private institutions 
with an interest in national security affairs are all attempting to 
determine what changes are needed to ensure America has the military it 
will likely need in the years to come.
---------------------------------------------------------------------------
    \1\ iCasualties: Operation Iraqi Freedom and Operation Enduring 
Freedom Casualties, iCasualties.org, (October 28, 2015).
    \2\ Richard D. Hooker, Jr. and Joseph J. Collins, ``Lessons Learned 
from the Iraq and Afghan Wars,'' Foreign Policy Research Institute, 
October 2015, http://www.fpri.org/docs/hooker--collins-lessons.pdf 
(October 28, 2015).
---------------------------------------------------------------------------
    A number of organizations and individuals have suggested various 
models. The American Enterprise Institute argues for a three-theater 
standard as the basis for sizing U.S. forces. \3\ Michael O'Hanlon, 
from the Brookings Institution, makes the case for a 1+2 construct, one 
large war and two smaller contingencies, noting a wide range of 
scenarios that would call for substantial ground forces in particular. 
\4\ At the Hudson Institute, Seth Cropsey, Bryan McGrath, and Timothy 
Walton state that the size of the Navy should be based on a three-hub 
framework that demands 16 aircraft carriers and assorted support 
vessels \5\ while Jerry Hendrix, at the Center for a New American 
Security, argues the carrier's days are numbered, at least when 
populated with conventional aircraft, and that more attention needs to 
be paid to unmanned systems. \6\ Add to this the superb work of others 
like John Stillion and Bryan Clark from the Center for Strategic and 
Budgetary Assessments, in air \7\ and naval warfare, \8\ respectively, 
who are challenging conventional thinking about these areas of 
competition and it is plain to see that this committee has ample 
material from which to draw in considering how big our forces need to 
be, what should inform their shaping, and what capabilities they likely 
need to possess.
---------------------------------------------------------------------------
    \3\ American Enterprise Institute, To Rebuild America's Military, 
October 2015, http://www. aei.org/wp-content/uploads/2015/10/To-
Rebuild-Americas-Military.pdf (October 28, 2015).
    \4\ Michael E. O'Hanlon, The Future of Land Warfare (Washington, 
D.C.: Brookings Institution Press, 2015), http://www.brookings.edu/
research/books/2015/the-future-of-land-warfare (October 28, 2015).
    \5\ Seth Cropsey, Bryan McGrath, and Timothy Walton, Sharpening the 
Spear: The Carrier, the Joint Force, and High-End Conflict, 
(Washington, D.C.: The Hudson Institute, October 2015), https: // 
s3.amazonaws.com / media.hudson.org/files/publications/
201510SharpeningtheSpear TheCarriertheJointForceandHighEndConflict.pdf 
(October 28, 2015).
    \6\ Dr. Jerry Hendrix, Retreat from Range: The Rise and Fall of 
Carrier Aviation, (Washington, D.C.: Center for New American Security, 
October 2015), http://www.cnas.org/sites/default/files/publications-
pdf/CNASReport-CarrierAirWing-151016.pdf (October 28, 2015).
    \7\ John Stillon, Trends in Air-to-Air Combat: Implications for 
Future Air Superiority, (Washington, D.C.: Center for Strategic and 
Budget Analysis, April 2015), http://csbaonline.org/publications/2015/
04/trends-in-air-to-air-combat-implications-for-future-air-superiority/ 
(October 28, 2015).
    \8\ Bryan Clark, Commanding the Seas: A Plan to Reinvigorate U.S. 
Navy Surface Warfare, (Washington, D.C.: Center for Strategic and 
Budget Analysis, November 2014), http://csbaonline.org/publications/
2014/11/commanding-the-seas-a-plan-to-reinvigorate-u-s-navy-surface-
warfare/ (October 28, 2015).
---------------------------------------------------------------------------
    In recent work with which I have been involved as editor of The 
Heritage Foundation's Index of U.S. Military Strength, \9\ we took a 
different approach to considering how one might think about sizing the 
U.S. military and posturing it for the future. Instead of trying to 
predict where forces might be needed and for what type of conflict, we 
chose to look at what history tells us about the actual use of military 
force. We also reviewed the research of the top-level studies on 
national defense requirements from the past few decades, beginning with 
the Bottom-Up Review of 1992 through the latest Quadrennial Defense 
Review and National Defense Panel reports. What we found was that from 
the Korean War onward, the United States has found itself in a major 
war every fifteen to twenty years and in each instance used roughly the 
same size force. Likewise, each of the nine major studies came to 
roughly the same recommendations for end strength, major platforms, and 
large unit formations. In general, the historical record and these 
studies indicate the U.S. needs an active Army of 50 brigade combat 
teams (or an end-strength of approximately 550,000 soldiers), a Navy 
approaching 350 ships, an Air Force of at least 1,200 fighter/attack 
aircraft, and a Marine Corps based on 36 battalions. This size force 
would provide the U.S. the ability to fight a major war or handle a 
major sustained contingency while also having sufficient capacity to 
sustain large-scale commitments elsewhere or respond to an emergent 
crisis should a major competitor try to take advantage of a perceived 
``window of opportunity.'' In other words, this force enables the 
country to handle one major crisis while deterring competitors from 
acting opportunistically.
---------------------------------------------------------------------------
    \9\ Dakota L. Wood, ed., 2016 Index of U.S. Military Strength, 
(Washington, D.C.: The Heritage Foundation, 2015), http://
index.heritage.org/military/2016/ (October 28, 2015).
---------------------------------------------------------------------------
    I find this especially interesting in that this record spans sixty-
five years, encompassing decades of technological advancements, various 
geographic regions, enemy forces, economic conditions, and shifts in 
political control of the executive and legislative branches of 
government.
    It might be the case that each of the study groups found itself 
captive of previous work, but given the variety of participants and 
strategic contexts, it seems more likely that the groups simply could 
not dismiss the practical realities of the United States as a global 
power. Further, the historical record itself, capturing the actual use 
of force in vastly different decades, regions, and operational 
settings, says something about the enduring nature of war. I realize I 
am painting with a rather broad brush, but at this level of discussion, 
where Congress must determine how many hundreds of billions of dollars 
to spend and millions of people to retain in uniform, I think this is 
actually helpful. Trying to precisely define requirements when the 
breadth of scenarios is so great and our ability to predict is so poor 
seems a fool's errand.
    There are practical realities in the use of force that override 
nearly all other factors. The nature of war and the operating spaces 
within which it is waged--on land, at sea, and in the air--require 
large forces to control or to deny control by an enemy force. It takes 
a lot of people to control hundreds of square miles of territory, a 
significant urban area, or to interact with a large population. 
Similarly, the vast expanses of sea and air easily measuring thousands 
of square miles place substantial demands on fleets of ships and 
aircraft.
    Then there is combat itself and sustained military operations of 
all types. In both instances, numbers really do matter. Sustained 
stability operations require a large rotational base as we have most 
recently seen in Iraq. Conventional combat operations, especially 
against a peer or near-peer competitor, require sizable forces to 
replace combat losses and to rotate fresh units into battle. Rotational 
``presence'' missions and efforts meant to ``build partner capacity'' 
likewise call for a sufficiently large base of units to perform such 
tasks in many areas over time. Small numbers of exquisitely equipped 
forces are inadequate to such situations and can lead to a force that 
is overly sensitive to combat losses or is quickly worn down by 
numerous deployments in rapid succession with little time to recover in 
between.
    Then we come to the matter of preparing for the future and here, 
too, numbers matter. Nearly every voice in the debate over defense 
planning calls for innovation. In many cases this chorus focuses on 
technological innovation but many pundits also note the need to explore 
new operational concepts, creative ways of blending evolving 
technologies into existing forces, new organizational concepts that 
leverage emerging technologies, and even new ways of leveraging old 
tools. Often overlooked in this debate is the necessity of having the 
resources available to do all of this experimentation, resources that 
include people, units, and high-level institutional attention in 
addition to funding. In fact, the people part is arguably the more 
important component. Yet when the force is small and is already hard-
pressed to meet current operational demands, little if any capacity is 
available to do the things everyone agrees are essential to prepare for 
the future. If we truly believe that new ways are needed to maintain a 
competitive advantage over opponents, then a portion of the force must 
be made available for such experimentation whether by reducing current 
demands on the force or enlarging the force so that it can do all the 
things being demanded of it. Instead, we continue to see further 
reductions and increased workload.
    Just one week ago, former Secretary of Defense Robert Gates 
appeared before this committee and noted that ``turbulent, unstable, 
and unpredictable times have recurred to challenge U.S. leaders 
regularly since World War II,'' and that ``Americans, including all too 
often our leaders, regard international crises and military conflict as 
aberrations when, in fact and sad to say, they are the norm.'' \10\ He 
continued to say that ``we always discover . . . that we [go] too far 
in cutting'' and find we ``need to rearm . . . but the cost in treasure 
and in the blood of our young men and women is always far higher than 
if we had remained strong and prepared all along.'' The point he was 
making was that the U.S. continually cycles between ramping up for a 
crisis that no one predicted or believed would happen and cutting the 
force to some bare minimum once the crisis is over, with folks blithely 
assuming that another crisis won't come along in short order or that we 
will somehow be able to predict when, where, and against whom it will 
occur.
---------------------------------------------------------------------------
    \10\ Robert M. Gates, ``Future of Defense Reform,'' testimony 
before the Committee on Armed Services, U.S. Senate, October 21, 2015, 
http://www.armed-services.senate.gov/imo/media/doc/Gates--10-21-15.pdf 
(October 28, 2015).
---------------------------------------------------------------------------
    As for needed capabilities, discussions about such usually come 
down to ``all of the above.'' As soon as we conclude that one form or 
another of warfare is obsolete, it comes roaring back with a vengeance. 
Billions of dollars are spent to field the latest in unmanned platforms 
or fused-intelligence support systems only to find that irregular 
forces using improvised weapons and lacking any modern combat systems 
prove yet again that a determined enemy operating on his home soil and 
fighting ``total war'' in his own eyes can routinely frustrate, if not 
defeat, U.S. ``limited war'' objectives despite our material 
advantages.
    Yes, modern technologies provide U.S. forces clear advantages in 
many areas, especially against similarly equipped opponents, but they 
are usually expensive and can come at a cost in capacity. Should we 
continue to explore the advantages of unmanned systems, advanced C4ISR 
networks, precision guided munitions, and the like? Certainly. But we 
should not lose sight of the fact that numbers matter in war especially 
when combat losses remain a feature.
    On our current modernization path at existing levels of funding, we 
are likely to find ourselves with a military equipped with state-of-
the-art capabilities yet incapable of conducting sustained operations 
against a credible opponent. This potential outcome is quite troubling 
and is something this Committee should seriously consider.
    So, to sum up, I would emphasize that:

    <bullet>  Numbers matter. The capacity of our military for a great 
variety of operations is at least as important as how it is equipped, 
if not more so.

    <bullet>  The overall size of the force and how much of it is used 
in major contingencies appears to be independent of technology, 
strategy, internal organization, or force-sizing rationale.

    <bullet>  Too small a force has profound consequences for its 
readiness, health, and strategic value.

    Once again I thank you for this opportunity and look forward to 
answering your questions.
                               * * * * *
    The Heritage Foundation is a public policy, research, and 
educational organization recognized as exempt under section 501(c)(3) 
of the Internal Revenue Code. It is privately supported and receives no 
funds from any government at any level, nor does it perform any 
government or other contract work.
    The Heritage Foundation is the most broadly supported think tank in 
the United States. During 2013, it had nearly 600,000 individual, 
foundation, and corporate supporters representing every state in the 
U.S. Its 2013 income came from the following sources:

    Individuals 80 percent

    Foundations 17 percent

    Corporations 3 percent

    The top five corporate givers provided The Heritage Foundation with 
2 percent of its 2013 income. The Heritage Foundation's books are 
audited annually by the national accounting firm of McGladrey, LLP.
    Members of The Heritage Foundation staff testify as individuals 
discussing their own independent research. The views expressed are 
their own and do not reflect an institutional position for The Heritage 
Foundation or its board of trustees.

    Chairman McCain. Dr. Preble.

STATEMENT OF CHRISTOPHER PREBLE, VICE PRESIDENT FOR DEFENSE AND 
           FOREIGN POLICY STUDIES, THE CATO INSTITUTE

    Dr. Preble. Thank you, Senator McCain, Senator Reed, 
distinguished members of the committee. It's an honor to be 
here.
    I would like to focus on how current U.S. national security 
strategy shapes the international system, and discuss an 
alternative strategy for the future. I'll then briefly address 
a few of the military capabilities required under this new 
strategy.
    The single word that best describes U.S. foreign policy 
today is ``primacy,'' a strategy that hinges on a forward- 
deployed military poised to stop prospective threats before 
they materialize. Primacy reassures our allies, thus 
discouraging them from taking steps to defend themselves and 
their interests. As one government document explained, our 
preponderant military power aims to deter ``potential 
competitors from even aspiring to a larger global or regional 
role.''
    Leaving aside the question of whether the strategy is 
actually preventing rivals from challenging U.S. power--and Dr. 
Krepinevich suggest that it's not--the costs have been 
considerable. The American taxpayers, and especially American 
troops, have borne the burdens of primacy, while U.S. allies 
have been content to focus on domestic priorities as their 
underfunded defenses languish. Going forward, we should ask 
more of our security partners. We shouldn't merely expect them 
to support us when we use force abroad. Rather, we should 
expect them to address urgent threats to their security before 
they become regional or global ones.
    What are these threats? We are quite good at identifying a 
dizzying array of them, but far less proficient at prioritizing 
among them. Under primacy, the United States is expected to 
address all threats in all vital regions at all times. A more 
resilient world would not be so overly dependent upon the 
military power of a single country. Restraining our impulse to 
use the U.S. military when our vital interests are not directly 
threatened would move us in that direction.
    Reluctance to use our military power allows for a smaller 
one, but we must first revisit our security relationships. 
Alliances that advance common interests are acceptable. The 
current arrangement, whereby we agree to defend our allies, and 
they agree to let us, is not.
    Let me turn now to three aspects of the overall force 
structure consistent with a foreign policy of self-reliance and 
restraint: a capable Navy, a credible nuclear deterrent, and a 
flexible mobile Army.
    I'm very proud to have served the United States Navy. I 
have a great naval name. Plus, I grew up in Maine, where, you 
might have heard, they build ships. So, yes, I'm a Navy 
partisan. But, my support for a strong and capable Navy is more 
than just parochial, it is integral to a strategy of restraint. 
In thinking about the missions that our Navy may be expected to 
perform, and the ships that it will need to perform them, we 
shouldn't focus on numbers of ships in the fleet today, but, 
rather, on the cost and capabilities of those of the future. 
Investing a substantial share of the shipbuilding budget on 
just a few aircraft carriers--for example, exquisite 
technologies, as Mr. Wood said--leaves less money for small 
surface combatants. And where do submarines fit in the mix? The 
budget must also account for them. Understanding these 
tradeoffs is crucial.
    We should not build our fleet around the supposition that 
it will be continuously engaged in offensive operations all 
around the world. The U.S. Navy should be a surge force capable 
of deploying if local actors fail to address threats, not a 
permanent-presence force committed to preventing bad things 
from happening all the time and everywhere.
    What about our nuclear deterrent? Maintaining a credible 
nuclear deterrent is a key component of U.S. national security 
policy, under restraint, but does not require nearly 1,600 
nuclear warheads deployed on a triad of delivery vehicles. A 
smaller nuclear force, based entirely on submarines, would be 
more than sufficient. The triad grew up during the Cold War, 
but it's not clear, in retrospect, that it was ever actually 
required to deter Soviet attacks against the United States. The 
case for the triad today is even more dubious. No adversary can 
destroy all U.S. ballistic missile submarines, let alone all 
three types of delivery vehicles, and there would be time to 
change if the circumstances did.
    Lastly, what about our ground forces? Our troops are 
overtaxed. We've asked much of them, and they have responded 
honorably, but they cannot do everything, and they cannot be 
everywhere. More troops is not the answer. A more judicious use 
of those that we already have is.
    In that context, we should consider the wisdom of armed 
nation-building--a.k.a. counterinsurgency, or COIN. To observe 
that the United States is ill-suited to such missions is not 
the fault of the U.S. military. The American people will 
support missions to strike our enemies with a vengeance, but 
most doubt that nation-building is worth the effort. The public 
skepticism is warranted. The crucial factors for success in 
COIN are beyond the capacity of outside forces to control, and 
the track record of democratic powers pacifying uprisings in 
foreign lands is abysmal.
    Then again, Americans are accustomed to doing the 
impossible, if that's what's required. The real reason why we 
will not master state-building is that it's not needed. We 
should deal with threats as they arise, and drop the pretense 
that we must succeed at nation-building abroad in order to be 
safe here at home.
    If we revisit the other possible rationales for a large 
standing Army, if we reduce our permanent overseas presence, 
and encourage other countries to defend themselves, we could 
rely more heavily on reservists here at home, here stateside.
    In conclusion, it's generally assumed that the roles and 
missions that we assign to our military will grow more onerous. 
It is unreasonable to expect our military to do more with less. 
Many would solve this means/ends mismatch by increasing the 
means. We should reconsider the ends, as well.
    The military's roles and missions are not handed down on 
stone tablets from Heaven, they are chosen by policymakers 
right here on Earth. Strategy must take account of the 
resources that can be made available to execute it. Increasing 
the military budget in order to implement a primacy strategy 
entails telling the American people to accept cuts in popular 
domestic programs, higher taxes, or both, so that our allies 
can neglect their defenses. It seems unlikely that Americans 
will embrace such an approach. The best recourse, therefore, is 
to reconsider our global policing role, encourage other 
countries to defend themselves and their interests, and bring 
the object of our foreign policy in line with the public's 
wishes.
    Thank you.
    [The prepared statement of Dr. Preble follows:]

            the prepared statement by christopher a. preble
    Senator McCain, Senator Reed, and distinguished members of the 
committee, thank you for the opportunity to testify this morning. It is 
an honor to be here.
    This is a vital undertaking. There is an urgent need for the United 
States to clarify its national security goals, to craft a strategy that 
prioritizes those goals, and to consider the tools necessary to achieve 
them. Our military forces of the future should conform to that 
strategy.
    I will focus first on how U.S. foreign policy has shaped the 
international system. Second, I will explain the flaws of our current 
grand strategy, and propose an alternative, with a particular focus on 
the role that U.S allies and partners should play in the future. 
Lastly, I will briefly touch on some of the capabilities that the U.S. 
military requires to carry out its vital missions.
                   understanding u.s. foreign policy
    U.S. foreign policy is crippled today by a dramatic disconnect 
between what Americans expect of it and what the nation's leaders are 
giving them. If U.S. policymakers don't address this gap, they risk 
pursuing a policy whose ends don't match with the means the American 
people are willing to provide.
    What is our foreign policy? To the extent that it can be summarized 
in a single word, that word is ``primacy'': a foreign policy that 
hinges on a forward-deployed military geared to stopping prospective 
threats before they materialize. Primacy holds that it would be too 
dangerous to allow other countries to defend themselves and their 
interests. Some will botch the job, necessitating costly U.S. 
intervention later. Others will succeed too well, unleashing arms races 
that would alter the delicate balance of regional or international 
relations. Thus, primacy reassures; it discourages other countries from 
defending themselves and their interests.
    For much of the past two decades, these underlying premises of U.S. 
foreign policy have not changed, although the preferred terms or 
phrases to describe it have. Other popular variations include ``deep 
engagement,'' ``unipolarity,'' ``liberal hegemony,'' or the 
particularly grandiose ``benevolent global hegemony.''
    President Obama favors ``leadership.'' That word appears 35 times 
in his latest National Security Strategy.
    His predecessors have all had similar aspirations, although most 
managed to work in a few more synonyms. It all boils down to primacy.
    For example, at the dawn of the post-Cold War era, officials in the 
George H.W. Bush administration aspired for the United States to be the 
sole global power. Now that the nation's long-time rival was gone, the 
object of U.S. foreign policy, according to an early draft of the 
Defense Planning Guidance, was to ``prevent the re-emergence of a new 
rival'' capable of challenging U.S. power in any vital area, including 
Western Europe, Asia, or the territory of the former Soviet Union. To 
accomplish this task, the United States would retain preponderant 
military power, not merely to deter attacks against the United States, 
but also to deter ``potential competitors''--including long-time U.S. 
allies such as Germany and Japan--``from even aspiring to a larger 
regional or global role.'' \1\
---------------------------------------------------------------------------
    \1\ ``Excerpts From Pentagon's Plan: 'Prevent the Re-Emergence of a 
New Rival','' New York Times, March 8, 1992.
---------------------------------------------------------------------------
    Leaving aside, for now, the question of whether the strategy is 
preventing rivals from challenging U.S. power, the costs have been 
considerable. Primacy, notes MIT's Barry Posen, ``encourages less-
friendly states to compete with the United States more intensively, 
while encouraging friendly states to do less than they should in their 
own defense, or to be more adventurous than is wise.'' \2\
---------------------------------------------------------------------------
    \2\ Barry Posen, Restraint: A New Foundation for U.S. Grand 
Strategy (Ithaca, NY: Cornell University Press, 2014), p. 24.
---------------------------------------------------------------------------
    For the most part, American taxpayers, and especially American 
troops, have borne the burdens of primacy, while U.S. allies have been 
content to focus on domestic spending, and allow their underfunded 
defenses to languish. Because U.S. security guarantees to wealthy 
allies have caused them to under-provide for their own defense, they 
also have less capacity to deal with common security challenges, from 
ethnic violence in the Balkans in the late 1990s, to combatting 
terrorism and piracy in the Middle East, South Asia, or the Horn or 
Africa in the 2000s, to averting state collapse in North Africa today.
    But there is an even more dramatic problem underlying U.S. foreign 
policy today: it requires U.S. leaders to push, prod, and occasionally 
even hoodwink Americans into taking on unnecessary tasks. Even strong 
advocates of primacy concede that it might not be realistic to expect 
Americans to bear the burdens of global governance indefinitely, and 
admit to the need for misdirection and subterfuge.
    ``Americans,'' Michael Mandelbaum grudgingly admitted in his book, 
The Case for Goliath, ``approach the world much as other people do . . 
. .For the American public, foreign policy, like charity, begins at 
home.'' For that reason, above all others, Mandelbaum predicted, ``the 
American role in the world may depend in part on Americans not 
scrutinizing it too closely.'' \3\
---------------------------------------------------------------------------
    \3\ Michael Mandelbaum, The Case for Goliath: How America Acts as 
the World's Government in the 21st Century (New York: Public Affairs, 
2005), pp. 173, 224.
---------------------------------------------------------------------------
    It is no longer appropriate to expect Americans to remain ignorant 
about our foreign policy. Primacy served us well immediately after the 
end of World War II, when the nations of Europe and East Asia were 
physically broken and fiscally broke, and we wanted to prevent the 
reemergence of Japan and Germany as rivals. Protecting our Asian and 
European allies continued to make sense during the Cold War, as long as 
our absence from those continents would have left an imbalance of power 
that the Red Army or Communist China could exploit.
    But we should ask more of our allies and security partners today 
and in the future. We shouldn't merely expect them to support us when 
we act militarily abroad. We shouldn't merely demand that they allow us 
to use our facilities in their lands, often on their behalf. Rather, we 
should expect them to act first, to address urgent threats to their 
security, before they become threats to their wider region, or the 
world.
    On the subject of threats, I do not believe that we are living in 
the most dangerous time in human history, or even in my lifetime. There 
are dangers in the world; there always have been, and there always will 
be. We are quite good at identifying a dizzying array of possible 
threats. \4\ An effective national security strategy will prioritize 
among them, and identify the best tools to mitigate them.
---------------------------------------------------------------------------
    \4\ See, for example, John Mueller and Christopher Preble, eds., A 
Dangerous World? Threat Perception and U.S. National Security (Cato 
Institute, 2014).
---------------------------------------------------------------------------
    In that context, the key question is what Americans should be 
prepared to do to address which threats, and what will be expected of 
others. Whether you agree with me or not about today's threats as 
compared to those a generation ago, or a century ago, the best approach 
would involve many countries who are willing and able to confront 
potential local or regional challenges.
    Under the current model, the United States is expected to address 
all threats, in all regions, at all times. We need a new grand 
strategy, one that expects other countries to take primary 
responsibility for their protecting their security and preserving their 
interests. We need a resilient international order, one that is not 
overly dependent on the military power of a single country. We need 
capable, self-reliant partners. And we must restrain our impulse to use 
the U.S. military when our vital interests are not directly threatened.
                         a new profile of power
    Such a grand strategy, built around a greater skepticism toward 
military intervention, leads logically toward a new profile of power: 
namely, a smaller military oriented around defending U.S. security and 
U.S. interests.
    We should not reduce our military without first rethinking how 
those forces will be used. If a finite number of assets are stretched 
to the limit to cover excessive global commitments, there is a serious 
risk that we will damage morale and readiness, thus contributing to a 
``hollow force''--a military that appears capable on the surface, but 
that is, in actuality, crippled by inferior equipment, insufficient 
maintenance, and inadequate training.
    We must work over the next decade to renegotiate or abrogate 
security relationships. Alliances for mutual defense, and to advance 
common interests, are acceptable; the current inequitable arrangement, 
whereby we agree to defend our allies, and they agree to let us, is 
not. It is unreasonable to expect U.S. taxpayers to foot the bill when 
U.S. interests are not at stake.
    Put another way, the days of the U.S. military serving as the 
world's global constabulary, responding to every 911 call, from every 
corner of the world, should end.
    For the balance of my time, I'm going to focus on three aspects of 
the force structure consistent with a foreign policy of self reliance 
and restraint: a capable Navy, a credible nuclear deterrent, and a 
flexible, mobile Army.
A Focused Navy
    I'm proud to have served in the United States Navy. I spent about 
six months at Navy schools in Newport, Rhode Island, and then three 
years on the guided missile cruiser USS Ticonderoga, mostly in Norfolk, 
Virginia, but also two deployments overseas. I have a great naval name. 
I grew up in Maine, as did about 10 generations of Prebles before me. 
They build ships at Bath just across the Kennebec River from where some 
of my ancestors first settled.
    I am a Navy partisan. There is no point in trying to conceal that 
fact. But my support for a strong and capable Navy reflects more than 
just parochialism and ancestral pride. And my love of the institution, 
and the men and women who serve in it, informs my attitudes about the 
missions that our Navy should be expected to perform, and the ships 
that it will need to perform them.
    The number of ships in the U.S. Navy has declined precipitously 
since the late-1980s. In those days, we were confronting a globe-
straddling Soviet empire with a vast and capable blue-water navy. I 
remember it well. I was a young midshipman in the Navy ROTC program at 
George Washington University, and the SecNav back then, John Lehman, 
famously aspired to build a 600-ship navy.
    But times have changed. The Soviet Union is where it belongs: on 
the ash heap of history. And the ships that we deploy today are vastly 
more capable than the Cold War-era ships, some of which were 
considerably older than the sailors who deployed on them. We shouldn't, 
therefore, focus on numbers of ships in the fleet today, per se, but 
rather on the mix of vessels, and especially their costs and 
capabilities to perform key missions.
    Those costs include opportunity costs. Choosing to invest a 
substantial share of the Navy's total shipbuilding budget on just a few 
Ford-class aircraft carriers necessarily means that we will buy fewer 
small surface combatants, especially cruisers and destroyers. I also 
believe that we need a successor to the Oliver Hazard Perry class 
frigates, the last of which was decommissioned earlier this year. The 
costly and disappointing littoral combat ships may not be the answer. 
And where do submarines fit into the mix? The shipbuilding budget must 
also account for them, both ballistic missile submarines and fast 
attack boats. Understanding these tradeoffs is crucial. Are we prepared 
to say that a single platform costing $14 billion is worth more than 
six or seven DDGs? Can the United States build a small surface 
combatant for less than $500 million? Other countries can, so why can't 
we?
    We should not build our fleet around the supposition that it will 
be continuously engaged in offensive operations across the planet. 
Under a strategy of self-reliance and restraint, the U.S. Navy will be 
a surge force, capable of deploying if local actors prove incapable of 
addressing threats, not a permanent presence force, committed to 
preventing bad things from happening, all the time, and everywhere.
    Safeguarding the flow of essential commodities and finished goods 
was a core mission for the U.S. military during the Cold War, when the 
Soviet Navy aspired to close vital sea lanes of communications (SLOCs), 
and they appeared to have the ability to do so, at least for a time. 
Today the situation is far different. Few international actors have an 
incentive to close major international waterways, and those that are so 
inclined--e.g pirates, bandits, and various non-state actors--lack the 
capacity to do so. They can disrupt. They can threaten. They cannot 
deny the use of these waterways to determined shippers backed by 
capable nation states.
    Sea-lane control in the modern era aims to ensure the free flow of 
goods and is therefore primarily defensive in nature. Given that the 
sea-control mission will be shared with other countries, most of whom 
will be operating in close proximity to their home waters, our force 
planning can focus on our core obligations, principally in the Western 
Hemisphere. That mission could be supported by small surface 
combatants, including destroyers, and possibly a new class of frigates. 
In the unlikely event that a regional conflict threatened to close a 
distant strategic choke point, naval and air forces from many different 
countries would be able to respond, augmented by U.S. forces as 
necessary.
    In this context, we should revisit the decision to build a number 
of very large and costly aircraft carriers. These vessels are not well 
suited to the sea control mission, and will become increasingly 
vulnerable to defensive weapons that force them to operate at greater 
and greater distances from shore. The investment in such exquisite 
technology--a single platform that consumes a substantial share of the 
total shipbuilding budget--raises serious questions about how such 
platforms will actually be deployed in an era of defensive dominance. 
Simply put, will any future president of the United States risk losing 
even a single such vessel? And what interests would justify taking such 
risks? \5\
---------------------------------------------------------------------------
    \5\ See, especially, CAPT Henry J. Hendrix, USN (Ret.) ``At What 
Cost a Carrier?'' Disruptive Defense Papers, March 2013, Center for a 
New American Security, http://www.cnas.org/files/documents/
publications/CNAS%20Carrier--Hendrix--FINAL.pdf.
---------------------------------------------------------------------------
A Small but Credible Nuclear Deterrent
    Maintaining a credible nuclear deterrent is a key component of U.S. 
national security policy, but U.S. security does not require nearly 
1,600 nuclear weapons deployed on a triad of delivery vehicles--
bombers, land-based intercontinental ballistic missiles (ICBMs), and 
submarine-launched ballistic missiles (SLBMs). A smaller nuclear 
deterrent based entirely on submarines would be sufficient to deter 
attacks against the United States. It might be more politically 
feasible to reduce to a dyad of delivery vehicles--SLBMs with either 
bombers or ICBMs--but that would signal the triumph of parochial 
interests over the needs of U.S. security.
    The triad grew up during the 1950s as a result of competition 
between the military services. The rationales were thin at the time, 
and quickly were superseded by dramatic technological improvements that 
the services chose to downplay. As the competition for resources abated 
in the 1960s, the Navy and the Air Force stopped denigrating each 
others' nuclear delivery systems and began arguing on behalf of the 
triad as an article of faith. It is not clear, in retrospect, that a 
triad was ever required to deter Soviet attacks against the United 
States or U.S. allies.
    Maintaining a guaranteed second-strike for deterrence was never the 
only goal, but today's submarines are also capable of counterforce 
(i.e. first-strike) missions.
    U.S. power today makes the case for the triad even more dubious. 
Survivability is no longer a feasible justification. No adversary has 
the capability to destroy all U.S. ballistic submarines, let alone all 
three types of delivery vehicles, and there would be time to adjust our 
nuclear force posture if that circumstance changed.
    Overinvesting in nuclear weapons and nuclear delivery vehicles, 
even if such expenditures represent only a small share of the total 
military budget, nonetheless diverts resources that could be more 
effectively invested elsewhere. We should build and maintain only what 
we need. \6\
---------------------------------------------------------------------------
    \6\ See Benjamin H. Friedman, Christopher A. Preble, and Matt Fay 
``The End of Overkill? Reassessing U.S. Nuclear Weapons Policy,'' Cato 
Institute White Paper, September 24, 2013, http://www.cato.org/
publications/white-paper/end-overkill-reassessing-us-nuclear-weapons-
policy.
---------------------------------------------------------------------------
Flexible Ground Forces Postured for Defense, Not Nation Building
    What about our ground forces? Some argue that the Army and Marine 
Corps are well-suited for counterterrorism missions, because they rely 
on precision firepower and they are more adept at separating terrorists 
and terrorist-sympathizers from innocent bystanders.
    But the belief that a larger military is necessary, or even 
effective, at reducing the threat of terrorism is mistaken. 
Counterterrorism is not an especially personnel-intensive endeavor, 
and, to the extent that it is, the people most heavily involved are 
not, and should not be, members of the military. \7\
---------------------------------------------------------------------------
    \7\ For more on this point, see Paul R. Pillar and Christopher A. 
Preble, ``Don't You Know There's a War On? Assessing the Military's 
Role in Counterterrorism,'' in Benjamin H. Friedman, Jim Harper, and 
Christopher A. Preble, eds., Terrorizing Ourselves: Why American 
Counterterrorism Policy Is Failing and How to Fix It (Cato Institute, 
2010).
---------------------------------------------------------------------------
    And what of the supposed need for more troops to conduct Iraq and 
Afghanistan-style conflicts--regime-change operations followed by years 
of armed nation building? Some Americans believe that our failings in 
those countries, especially in Iraq, are a function of having too few 
``boots on the ground.'' From that flows the logical conclusion that we 
need more people in boots.
    The idea that our military is stretched too thin because our 
commitments exceed our means to achieve them is widespread. The best 
way to resolve this imbalance, however, is to rethink the ends, as 
opposed to merely increasing the means.
    No one disputes that our troops have been overtaxed by the wars in 
Iraq and Afghanistan. But the problem of too few troops chasing too 
many missions predated 9/11. We have asked the members of our 
military--and especially those men and women in the Army and Marine 
Corps--to be the lead instrument of our foreign policies ever since the 
end of the Cold War. Our troops have responded honorably, but they 
cannot do everything, and they cannot be everywhere.
    More troops are not the answer. A more judicious use of the troops 
that we already have is. Rather than increase the size of the Army and 
Marine Corps, we should reduce the number of active-duty personnel in 
both services, and transition to a smaller force augmented by a capable 
ready reserve.
    We should also pause to consider the wisdom of armed nation 
building, what the military also calls counterinsurgency (COIN). When 
the United States chooses to shuffle the political deck in a weak or 
failing state, it needs men and women on the ground to do the work. 
Bombs can't build schools or bridges, reform legal codes or root out 
corruption. They can't convince the locals that we care about them 
enough to stick around for the long haul and will be there to protect 
them if the irreconcilables return to exact vengeance.
    And that backlash is nearly inevitable; those driven out of power 
will fight to regain what they lost. FM 3-24, the military's COIN 
manual, explains ``Insurgencies are protracted by nature. Thus, COIN 
operations always demand considerable expenditures of time and 
resources.''
    The United States is ill suited to such missions. This is not the 
fault of the U.S. military. The American people will support missions 
to strike our enemies with a vengeance, but solid majorities believe 
that the nation-building efforts in Iraq and Afghanistan weren't worth 
the effort. The widespread opposition to deeper involvement in the 
Syrian civil war demonstrates that the public's skepticism hasn't 
abated.
    The public's instincts are correct. If you understand the culture, 
if you avoid counterproductive violence, if you integrate civilians and 
make reconstruction operations a reward for cooperation, if you train 
the local forces well, if you pick your allies wisely, if you protect 
enough civilians and win their loyalty and more, you might succeed. But 
even avoiding a few of those ifs is too much competence to expect of 
any political and military leaders. Many of the crucial factors for 
success are simply beyond the capacity of outside forces to control. 
That is why insurgencies in the last century generally lasted for 
decades and why the track record of democratic powers pacifying 
uprisings in foreign lands is abysmal. \8\
---------------------------------------------------------------------------
    \8\ From Benjamin H. Friedman, Harvey M. Sapolsky, and Christopher 
Preble, ``Learning the Right Lessons from Iraq,'' Cato Institute Policy 
Analysis no. 610, February 13, 2008, http://www.cato.org/publications/
policy-analysis/learning-right-lessons-iraq. See also Gil Merom, How 
Democracies Lose Small Wars: State, Society, and the Failures of France 
in Algeria, Israel in Lebanon, and the United States in Vietnam (New 
York: Cambridge University, 2003). See also Jeffrey Record, Beating 
Goliath: Why Insurgencies Win (Washington: Potomac Books, 2007).
---------------------------------------------------------------------------
    Then again, Americans are accustomed to doing the impossible if the 
impossible is truly necessary. The ultimate reason why Americans will 
not master counterinsurgency and state-building is that it is not 
necessary. The supposed link between terrorism and state failure is 
weak to nonexistent. Terrorists operate in many perfectly healthy 
states (including Spain, the U.K. and, most recently, France), while 
many weak or failing states don't serve as launching pads for violent 
extremism directed at Americans. We should deal with threats from Yemen 
or Somalia or Afghanistan as they arise and drop the pretense that we 
can or must construct a modern nation state in any of those places in 
order to defeat transnational terrorism.
    If we are unlikely to embark on protracted nation-building missions 
for decades on end, and if the military, particularly our ground 
forces, are not the best tool for counterterrorism, we should revisit 
the other possible rationales for a large standing Army. The principal 
advantage of having that force, 20 to 30 percent of which is forward 
deployed in foreign bases, is that it is quite easy for it to become 
involved in foreign wars, without attracting too much attention by the 
American people, or their representatives here in Congress. The public 
is rarely engaged to the point of debating why we might be involved in 
such wars, let alone how to win them. This hardly seems like an 
advantage at all. If we reduce our permanent overseas presence and 
encourage other countries to defend themselves, we could rely more 
heavily on reservists serving stateside. And when there are calls for 
deploying U.S. forces abroad, and those reserves are mobilized into the 
active force, we can be sure that that will trigger a national debate.
    Let me be clear: this isn't just about saving money; it's about 
spending money wisely. Ronald Reagan said, ``Defense is not a budget 
issue. You spend what you need.'' He was right, which is why it is 
crucial that we understand what we need. The misallocation of funds--
whether for platforms the Pentagon doesn't need, or bases it doesn't 
want or personnel it won't use--takes away from other priorities. We 
need a balanced force focused on defending vital U.S. interests, not a 
top-heavy force geared to fight the last decade's wars or to defend 
others who can and should defend themselves.
                 Conclusion: Rethinking Ends and Means
    In the debate over military spending that is now raging, it is 
generally assumed that our foreign policy, and thus the roles and 
missions that we assign to our military, will remain unchanged--or at 
least will not become less onerous. It is unreasonable to expect our 
military to do the same, or more, with less. It is unfair to the troops 
and their families. This noble sentiment explains the current push to 
increase the Pentagon's budget above the spending caps imposed by the 
bipartisan Budget Control Act of 2011. Many people believe that the 
only way to address the means/end mismatch is to remove the fiscal 
constraints.
    But the military's roles and missions are not handed down from 
heaven. They are not carved on stone tablets. They are a function of 
the nation's grand strategy and informed by the dominant intellectual 
paradigms at a given point in time.
    That strategy must take account of the resources that can be made 
available to execute it. Under primacy, in the current domestic 
political context, increasing the means entails telling the American 
people to accept cuts in popular domestic programs, higher taxes, or 
both, so that our allies can maintain their bloated domestic spending 
and neglect their defenses.
    It seems unlikely that Americans will embrace such an approach. 
``Defending our allies' security'' ranked near the bottom of Americans' 
foreign policy priorities--tied with ``Limiting Climate Change''--in 
the Chicago Council on Global Affairs' most recent report on American 
public opinion and U.S. foreign policy. \9\ The best recourse, 
therefore, is to reconsider our global policing role, encourage other 
countries to defend themselves and their interests, and bring the 
object of our foreign policy in line with the public's wishes.
---------------------------------------------------------------------------
    \9\ Dina Smeltz, Ivo Daalder, Karl Friedhoff, and Craig Kafura, 
``America Divided: Political Partisanship and U.S. Foreign Policy,'' 
Chicago Council on Global Affairs, 2015, Appendix Figure 2, p. 45.

    Chairman McCain. Mr. Donnelly.

 STATEMENT OF THOMAS DONNELLY, RESIDENT FELLOW AND CO-DIRECTOR 
 OF THE MARILYN WARE CENTER FOR SECURITY STUDIES, THE AMERICAN 
                      ENTERPRISE INSTITUTE

    Mr. Donnelly. I would like to reiterate my thanks to the 
Chairman, to the Ranking Member, and to the committee for this 
opportunity. This is, indeed, a really critical topic.
    As many people have said before me, defense planning is 
strategy. On the other hand, strategy is not the place that we 
should be starting, I don't believe. Nor should we be starting 
with threats, nor operational capabilities. The place to start 
is really with a reflection upon the internal or--not internal, 
but continuing security interests of the United States. This is 
a lesson that I learned while serving as a staff scribe to the 
National Defense Panel and the QDR Independent Panel before 
that. The distinguished members of those panels took all the 
QDR briefings that were available, and then began to scratch 
their heads. They found themselves deeply dissatisfied with 
what they heard. But, what they came away from simply--not by 
taking the briefings or reading any documents, but by 
reflecting on the behavior of the United States since 1945, if 
not before--was that there was a consistent pattern of American 
behavior, and this they both consolidated in a remarkably 
concise way. They said--and it's in both reports--that the 
principal security interests of the United States are having a 
secure homeland, by which we mean not just North America, but 
the Caribbean basin, access to, commercially, and the ability 
to militarily exploit the commons--that is the seas, the skies, 
cyberspace, and space--and a favorable balance of power across 
the three critical theaters in Eurasia--Europe, East Asia, and 
the Middle East; and finally, that, because we were Americans, 
it was important to us to preserve a decent quality of 
international life. When there was a humanitarian crisis or the 
threat of a genocide, the United States could not stand by 
idly, and would be willing to use military force to intervene.
    So, if those are the purposes of our power, then we can ask 
the how-to strategy question. But, without that azimuth to 
orient on, it's--then any strategy will do, any set of 
capabilities will do, and any size force will do, as we have 
heard from the previous three witnesses. On the other hand, if 
you want to preserve the international system as it exists, 
which I think is not only wise, possible, but something of a 
moral obligation. Our children would not look kindly on us, 
would hold us accountable, if we failed to prevent the 
remarkable post-Cold-War peace that's now beginning to slip 
away. It's been remarkably peaceful. There hasn't been a great 
power war. It's been remarkably prosperous. There are more 
middle-class people on this planet than there have been in any 
previous period of history. And, most of all, it's the freest 
international system that anyone can record. So, it has great 
benefits. It's fundamentally sound. But, it requires us to 
reengage now. I believe that time in defense planning, in 
strategy- making, is equally as important as numbers of troops 
or the quality of weapon systems.
    So, I have just four basic yardsticks that I want to 
suggest that you should consider in appraising defense 
strategies. They are derived, in a moment of shameless 
commerce, from the report that we just put out a couple of 
weeks ago. But, there are really four fundamental tenets in 
that.
    First of all, the force-sizing construct really needs to be 
a three-theater construct, not a two-war construct or a one-
and-a-half-war construct, as recent defense reviews have framed 
them, but something that's relevant to the international 
politics of the moment. As I said, the principal driver of 
military force structures is preserving this favorable balance 
of power in the Middle East, in East Asia, and in Europe. 
That's possible for us to do. Deterring Russia and China is not 
an impossible task, but it requires us to be not simply capable 
of establishing supremacy in combat, but deterring them from 
crossing of the line in the first place. Therefore, we must be 
present.
    And there is no status quo to preserving the Middle East 
that's worth the cost. So, if you're going to be responsive to 
the situation that we, you know, read about every day in the 
newspapers, we want to reverse the course of events. The trends 
are negative, and accelerating. So, simple deterrence is not 
likely to be acceptable in those theaters. Those theaters are 
all very different in character and geography. Land-based 
forces in Europe, but obviously play the central role. 
Likewise, in the Pacific, my maps show a lot of blue there, so 
maritime forces are at least critical for presence. And in the 
Middle East, probably all sorts of forces are necessary.
    So, we need to balance and a variety of forces. If we make 
strategic choices and geopolitical choices by accentuating one 
form of military power over another, then we'll find ourselves 
behind the eight ball, as we have found ourselves in the last 
two decades.
    Secondly, capacity matters. That's the most immediate 
problem that the military faces. I look at the history of the 
past 15 years, and my takeaway was that we did not have 
sufficient force, despite belatedly expanding the Active Duty 
Army and the Marine Corps, despite employing Reserve- component 
forces at record numbers, and despite employing Marine--or, 
pardon me, naval and Air Force officers in ground missions, to 
successfully prosecute campaigns in Iraq and Afghanistan 
simultaneously. We did not meet our own two-war standard. And 
those wars were relatively small wars, by historical standards. 
So, the first thing, and the thing that we can do in a timely 
way to meet the crisis of the moment, is to increase the 
capacity of the force that we have.
    That said, I agree completely with the testimony of people 
like Andy Krepinevich that new capabilities are needed. 
However, I think the time factor needs to be applied in this 
regard, as well. As much as it would be great to have warp 
drives and photon torpedoes, and cloaking devices and all the 
things that American and international science can invent, it's 
important to field new capabilities now. We have a very few 
number of programs that we can throw money at. This is not like 
the Reagan years, where there was a warm and diverse defense 
industrial base that could digest a lot of money rapidly. 
Ronald Reagan decided not to build either the B-1 or the B-2, 
but to build both. We won't have--even though we've just chosen 
the company team to build a new bomber, that is not likely to 
be actually fielded within the span of the next administration. 
So, we have to put money where it can show some return. We 
can't afford to wait another 10 years to get new capabilities 
into the field.
    And finally, we have to pay the price. Reforms are 
important, no doubt. And I would urge the committee to focus on 
structural reforms, like the Goldwater-Nichols Act, which was 
an ideal way of fighting the Cold War and was passed into law 
just as things began--just as the Soviet Union passed into the 
dustbin of history. It's remarkable that we can support combat 
outposts deep in Afghanistan or Iraq with F-18s from a carrier, 
but it's not the most efficient or effective way to do that.
    There are things that we can do now, and we need to be able 
to have a sustained increase in our defense establishment. Many 
people, including the NDP report, have talked about getting 
back to the Gates baseline budget of 2012. Well, that's not 
going to be sufficient, for sure. That's a good first step. 
But, getting back to something like a 4-percent base, which is 
affordable, sustainable, and is the kind of spending that would 
be necessary to build the force that would be sufficient to 
protect and defend and advance our geopolitical interests and 
allow the United States to continue to be the leader of the 
free world.
    Thank you.
    [The prepared statement of Mr. Donnelly follows:]

                      Statement by Thomas Donnelly
    I must begin by thanking Chairman McCain, Ranking Member Reed and 
the committee for the opportunity to offer you whatever insights I can 
on the most profound subject of national security strategy. My 
testimony today is derived from the study we at AEI published earlier 
this month; I will rely heavily on ideas developed by the team at the 
Marilyn Ware Center, including your former colleague Sen. Jim Talent 
and my longtime colleagues Gary Schmitt and Mackenzie Eaglen.
    Military force planning and defense budgeting, more than any other 
activities of the federal government, set the course of U.S. national 
security strategy. If strategy-making involves aligning ends, ways and 
means, it is the military means that most determine success. War aims 
can and frequently do change quickly; ask Abraham Lincoln. So, too, do 
strategies; ask Ray Odierno, just retired as Army chief of staff. The 
means, however, are harder to transform; ask Donald Rumsfeld, who 
wished to be the ``secretary of transformation'' and found himself 
forced to ``go to war with the Army he had.''
    The presumption behind Rumsfeld's desire for transformation and his 
lament about the force he inherited has become a paralyzingly common 
one in the post-Cold War era. Indeed, it would appear to be the 
presumption behind much of the testimony the committee has heard in 
previous sessions in this series of hearings, and I would be very 
surprised if some of my friends on this panel don't reiterate those 
points. While I, too, believe that certain reforms and new technologies 
should be introduced as rapidly as possible--I would like to equip our 
troops with warp drives, cloaking devices and photon torpedoes as soon 
as they are invented--my ``alternative approach'' today will be to 
point out the benefits of continuity. I believe that there is an urgent 
need to reassert American geopolitical leadership by rebuilding 
American military power, that the crisis is now and in the near-term 
future and that, because the underlying structures of the ``world 
America made'' remain sound, it is possible to keep it from unraveling. 
Moreover, because the blessings of this American moment--that is, an 
enduring global great-power peace, a remarkable extension of economic 
prosperity and a historically unprecedented expansion of political 
liberty--represent the fulfillment of our national purpose, that it 
would be a moral failure of the gravest sort to do anything less than 
our utmost to preserve what our predecessors fought for, or to bequeath 
to our children what they deserve.
    I would like to begin the case for continuity by pointing out the 
constancy of American strategic purpose, at least since the end of 
World War II. The two recent blue-ribbon panels chartered by Congress 
to assess the Defense Department's defense reviews concurred on a 
succinct definition of U.S. goals: we have sought to ``secure the 
homeland,'' meaning North America and the Caribbean Basin; to assure 
peaceful access to and the military ability to exploit the ``commons'' 
at sea, in the skies, in space and in cyberspace; maintain a favorable 
balance of power in the three critical regions of Europe, East Asia and 
the greater Middle East; and to work to preserve a decent quality of 
international life by preventing atrocities such as genocide or 
ameliorating the effects of natural disasters. It should also be 
observed that the panels were forced to deduce these goals by 
reflecting on the pattern of American behavior, not by reference to the 
QDR or the formal national security strategy. That is to say, this is 
what we have done, but not what we have said we would do, let alone 
what we have planned to do.
    Thus the gap between our traditional strategic reach and our 
current military grasp has widened and still grows. When the 2010 QDR 
independent Panel and last year's National Defense Panel analyzed the 
administration's defense reviews, they were reluctant to express 
anything beyond dissatisfaction with the existing force-planning 
construct. As the NDP put it: ``[G]iven the worsening threat 
environment, we believe a more expansive force-sizing construct--one 
that is different from the [current] two-war construct, but no less 
strong--is appropriate.''
    Where the NDP stopped, we at AEI started. While recognizing the 
fact that we lacked the sort of resources that the Pentagon can call on 
in its QDR process, we felt compelled by the urgency of the moment to 
advance specific recommendations, at least to frame the debate that is 
needed. What we lacked in depth we made up for by directness. We came 
to four broad conclusions. The Defense Department must:

    <bullet>  Adopt a ``three-theater'' force construct. To remain a 
global power, the United States must preserve a favorable balance of 
power in Europe, the Middle East and East Asia. The ways and means of 
doing so differ from theater to theater. Deterring further Russian and 
Chinese aggression requires forces that are powerful and constantly 
present, backed up by sufficient forces based in the United States to 
respond, quickly win the initiative and favorably conclude any crisis 
or conflict that may occur, even one that may last a long time. While 
both theaters demand advanced aerospace capabilities, the principal 
presence missions would call on maritime forces in the Pacific and 
land-based forces in Europe. In the Middle East, the situation is quite 
different; there is no favorable status quo to defend and the trends 
are getting worse rather than better. Securing our regional interest 
requires not just presence but also mounting an effort to reverse the 
rising tide of many of our adversaries: Iran, ISIS, al Qaeda and its 
associates and, for the first time in many decades, Russia. But while 
the demands differ in each region, the United States must address each 
individually and simultaneously in order to preserve the global order; 
activity in each theater is necessary but none is by itself sufficient 
to achieve our goals. As a global power, America cannot ``pivot'' among 
these theaters, nor can it retreat to the continental United States. 
And there are good reasons to maintain very diverse sorts of forces.

    <bullet>  Increase military capacity. The reductions in the size of 
the U.S. military of the past three decades have been the most pressing 
problem of national defense. Since the end of the Cold War, American 
soldiers, sailors, airmen and Marines have been unrelentingly deployed. 
After 9/11, they were not sufficient in number to successfully conduct 
campaigns simultaneously in Iraq and Afghanistan, despite a massive 
mobilization of reserve component troops; an increase, though tardy, in 
active-duty numbers; and innovative employment of Navy and Air Force 
leaders in ground missions. Neither the rapid introduction of new 
equipment such as the massive mine-resistant vehicles nor the 
renaissance in counterinsurgency operations could make up for the lack 
of forces. Despite advances in technology that have improved the 
precision and tactical effectiveness of weaponry and combat units, 
numbers still matter in war. The daily headlines demonstrate the 
destabilizing effects of our withdrawals, not just from the Middle 
East, but from Europe and indeed East Asia as well; even before the end 
of the Cold War, the United States gave up its position in Southeast 
Asia by closing the massive facilities in the Philippines. Now, thanks 
to the constraints imposed by the 2011 Budget Control Act, the capacity 
of U.S. forces will be further diminished to levels not seen since 
America emerged in the early 20th century as a global power.

    <bullet>  Introduce new capabilities urgently. Programs to 
transform the technological and tactical prowess of the U.S. military 
or offset the new weaponry now fielded by adversaries have been a 
strategic disaster; the failure to modernize across the force since the 
1980s now leaves America's armed forces without the kind of great 
technological advantages that allowed it to ``shock and awe'' its 
enemies and conduct decisive operations with very few casualties. 
``Skipping a generation'' of procurements has simply allowed others to 
catch up. Now the Pentagon has little choice but to buy what it can--
what is now available or could be made available rapidly--quickly and 
economically. This means accelerating the small number of mature 
procurements still left on the books, such as the F-35 and the Littoral 
Combat Ship, despite their problems and imperfections. Second, the 
spirit of innovation should be applied to reviving those programs that 
could be reworked to give important new capabilities. The F-22, for 
example, could be refitted with F-35-era electronic systems, or the 
Zumwalt-class destroyer, which has a larger hull and vastly more 
powerful engine than the Arleigh Burke, could be redesigned not as a 
pocket battleship but as an air-and-missile defense platform with a 
rail gun and then perhaps with directed energy weapons. Third, programs 
ready for development, such as the Long Range Strike-Bomber, should be 
fully funded so that they can be fielded within the next five years. In 
sum, near-term modernization and innovation must take precedence over 
longer-term transformation.

    <bullet>  Increase and sustain defense budgets. The defense cuts of 
the early Obama years and the further reductions mandated by the Budget 
Control Act have merely accelerated a pattern of defense divestment 
that began a generation ago. No amount of internal reform can offset 
the cuts, and the damage is too great to repair within the course of a 
single presidential term. The current Defense Department and the 
shriveled defense industry cannot, as they stand now, intelligently 
spend a Reagan-era-style level of budget increase; the late 1970s and 
early 1980s provided a much more robust base from which to grow. 
Therefore a sustained reconstruction of U.S. military capacity and 
capability is called for; while it is critical to address urgent needs, 
it is also imperative to carry through a substantial program of 
rebuilding for at least a decade. A ``two-target'' investment strategy 
is required: first, return military budgets to the level set by former 
Defense Secretary Robert Gates in his original 2012 budget. Second, 
defense budgets should gradually be built to an affordable floor of 4 
percent of gross domestic product that would sustain the kind of 
military America needs.

    Sound defense planning demands a long-term perspective, focusing 
not on what changes--threats and technologies--but on what remains 
constant--the security interests of the United States and American 
political principles. Since 1945, the one constant of international 
politics has been the military power of the United States. That 
proposition now demands new proof, and our next commander-in-chief 
should expect to be tested, as John Kennedy was by Nikita Kruschev: 
have the retreats and ``pivoting'' of recent years become the new 
American norm, or will there be a renewed commitment to the traditions 
of American strategy and international leadership? Absent sufficient 
military means, there can be but one answer to that question.

    Chairman McCain. Mr. Brimley.

   STATEMENT OF SHAWN BRIMLEY, EXECUTIVE VICE PRESIDENT AND 
  DIRECTOR OF STUDIES, THE CENTER FOR A NEW AMERICAN SECURITY

    Mr. Brimley. Thank you, Mr. Chairman, Ranking Member Reed, 
and distinguished members of the committee. I'm truly honored 
to be--to appear before you today, and also to testify along 
with my distinguished colleagues.
    In my statement, I argue that America's Armed Forces are 
the most highly trained, equipped, and experienced in the 
world, yet the margin of their battlefield superiority is 
eroding. I believe we are seeing the slow but steady erosion of 
America's military technical superiority. Unless that trend is 
arrested, and arrested soon, America's Armed Forces will find 
it more difficult to prevail in future conflicts.
    Modern U.S. military strategy depends on technological 
superiority. This was a consistent pillar of strategy during 
the Cold War, the inter-war years that followed, and even the 
wars of the post-9/11 era. This edge was the product of 
intentional Cold War strategy designed to increase the quality 
of U.S. forces to help offset Soviet numerical advantages. And 
this strategy ultimately resulted in capabilities, like the GPS 
[Global Positioning System] constellation of satellites, 
stealth aircraft, and precision-guided munitions. The resulting 
monopoly on these technologies that we enjoyed is among the 
reasons the United States stood alone and triumphant at the end 
of the Cold War. The erosion in American military technical 
superiority is occurring because the technologies that 
underwrote that position are rapidly proliferating across the 
world, and there's nothing that we can do to stop it. The same 
technologies that U.S. forces enjoyed a monopoly on for decades 
are now central to the defense strategies of our competitors. 
This development, alone, is shaking the foundations of U.S. 
defense strategy and planning.
    In my statement, I describe at some length how the velocity 
of global change, coupled with the accelerating diffusion of 
military power, is shaping the contours of tomorrow's likely 
battlefields in three important ways:
    First, precision munitions will dominate battlefields. 
These weapons have now proliferated so extensively that nearly 
any actor who desires to employ them can do so effectively on 
the battlefield. And we have only just begun, as a community, 
to grapple with a world in which even nonstate actors will be 
able to hit anything they aim at.
    Second, the sizes of battlefields will expand. The 
proliferation of precision munitions and the ISR [intelligence, 
surveillance, and reconnaissance] networks that support their 
employment are increasing the effective range of military 
units. Our adversaries will not only be able to hit what they 
can see, but also strike U.S. forces accurately over longer and 
longer distances.
    Third, concealing military forces will become more 
difficult. More actors are developing sophisticated 
capabilities designed to find and target their adversaries. On 
future battlefields, finding the enemy will be much easier than 
hiding from him.
    I believe these features of the operating environment--
ubiquitous precision munitions, larger engagement zones, and 
more transparent battlefields--are clearly apparent today. For 
instance, the obvious hesitancy on the administration's part to 
assert freedom-of-navigation rights in the South China Sea, in 
my mind, is due, at least in part, to China's multi-decade 
investment in long-range guided anti-ship ballistic and cruise 
missiles. We see Russia deploying and reinforcing what our top 
military commander in Europe, General Breedlove, calls anti-
access bubbles over parts of Ukraine and Syria, or even the way 
nonstate actors, like Hezbollah and some inside Syria today, 
are using advanced anti-tank guided munitions. The logical 
extension of these trends into the future should concern us 
all.
    In order to better prepare for this emerging reality, we 
need to demand creative thinking from the Pentagon and across 
the entire defense community concerning how to change 
operational concepts. These are the things which guide how U.S. 
forces plan to engage adversaries in different plausible 
contingencies. Core operational concepts will need to focus 
more on enhancing our abilities to strike at range, persist 
inside contested areas for long periods of time, disperse our 
forces over wide geographic areas, while still retaining the 
ability to consolidate or amass our firepower, when needed. And 
I describe these ideas at some length in my written statement.
    If our operational concepts begin to evolve along these 
lines, I believe it will help guide us towards a defense 
investment portfolio that does three fundamental things:
    First, shore up our air and maritime power projection 
capabilities by employing land- and particularly carrier-based 
unmanned strike platforms--and I note the Chairman's leadership 
in this regard; emphasizing submarines that can attack from 
concealed positions; developing dispersed undersea sensor grids 
and unmanned attack platforms that can persist inside an 
adversary's contested maritime zones for long periods of time; 
and, as we heard the other day, ensuring the new long-range 
strategic bomber is procured in numbers large enough--so 100 
planes is very important, I think--to constitute a credible 
sustained power-projection ability.
    Second, we need to ensure U.S. ground forces are rapidly 
adapting to guided munitions warfare by pushing guided 
munitions down into the squad and even the individual level for 
our ground forces; experimenting robustly with robotic ground 
systems and air systems that can obviate the need to risk human 
beings in some high-risk missions; and developing platforms 
that can deploy alongside our dismounted units to provide them 
some protection from adversaries' guided munitions.
    Third, and finally, ensure our forward bases and deployed 
forces can defend against guided munitions by more aggressively 
funding research and development of directed energy systems and 
exploring innovative basing concepts that can disperse U.S. 
military forces across larger geographic areas.
    Mr. Chairman, America's finely honed military technical 
edge is eroding, and U.S. policymakers have a closing window of 
opportunity to arrest this trend. For decades, our adversaries 
were convinced that U.S. forces would be able to see them first 
and shoot them first, due to our overwhelming advantage in 
precision-guided munitions and the means to deliver them at a 
time and place of our choosing. If this erosion is allowed to 
continue, the credible deterrent power of the United States 
will erode, as well, causing significant disruptions to the 
global balance of power. And we must not let that happen.
    Thank you for the great honor of testifying before you.
    [The prepared statement of Mr. Brimley follows:]

                       Statement by Shawn Brimley
               the ongoing disruption in military affairs
    America's armed forces are the most highly trained, equipped, and 
experienced in the world--yet the margin of their battlefield 
superiority is eroding. Whether our armed forces and international 
allies and partners are facing the determination of a dictatorship 
fighting for its continued existence, a rising power determined to flex 
its military power in pursuit of its maritime interests, or a former 
great power doggedly refusing to cede influence in its near abroad, 
beneath those headlines is a consistent trend that powerfully 
influences the nature of these and other security competitions. That 
trend is the slow but steady erosion of America's military-technical 
superiority, something that U.S. policymakers have come to assume and a 
feature of the international system that our core allies depend on for 
their security and, in some cases, their survival. Unless that trend is 
arrested, America's armed forces will find it more difficult to prevail 
in future conflicts.
    Modern American military strategy depends on technological 
superiority. This was a consistent pillar of strategy during the Cold 
War, the interwar years to follow, and the wars of the post-9/11 era. 
American presidents are rightfully loath to send military personnel 
into the breech without a clear qualitative military edge. What was 
once an element of deliberate strategy has, over the course of decades, 
evolved into a presumption of technological superiority.
    This presumption stems from nearly thirty years of the United 
States enjoying an unrivaled military-technical edge in conventional 
weapons. This edge was deliberately honed by the adroit use of 
defensed-directed research and development spending in the twilight 
years of the Cold War. This military-technical strategy--referred to as 
the ``offset strategy''--served to spur first a revolution in military 
affairs and then a broader societal shift that thrust the world 
headlong into the information age. That underlying investment portfolio 
bequeathed advanced computer networking or what became the Internet; 
the global positioning constellation of satellites; stealth 
technologies; advanced intelligence, surveillance, and reconnaissance 
(ISR) platforms; and precision guided munitions or ``smart weapons.'' 
The resulting monopoly on precision munitions and the efficient means 
of their delivery is among the reasons the United States stood alone 
and triumphant at the end of the Cold War, and enjoyed unrivaled 
military superiority in the decades that followed.
    But today's Pentagon leaders are conveying with some urgency the 
view that this defining military-technical edge is eroding to the point 
where the United States can no longer rest its defense strategy on the 
confidence that it enjoys a qualitative military edge against plausible 
future adversaries. That we can no longer do so portends a seismic 
disruption in military affairs.
    The erosion in American military-technical superiority is occurring 
because the technologies that underwrote that position are now nearly 
fully proliferated throughout the international system. The United 
States must now deal with advanced integrated air defense systems, 
stealth technologies, and, most problematically, precision guided 
munitions. The same technologies that U.S. forces enjoyed a monopoly on 
for decades are now central to the defense strategies of America's 
competitors. This is terra incognita to U.S. defense planners, who are 
now several generations removed from those who worked under the daily 
pacing threat of a near-peer competitor with global military reach.
         the velocity of change and diffusion of military power
    The erosion of America's military-technical edge is exacerbated by 
two overarching trends that are driving the emerging security 
environment and powerfully shaping U.S. defense strategy and planning: 
the velocity of geopolitical change and the accelerating diffusion of 
military power.
    The velocity of geopolitical change could very well be 
unprecedented in the modern era. Several trends here are worth 
highlighting. First, the erosion of state power typified by the ongoing 
collapse of Arab regimes and the implications throughout the Middle 
East and Europe are unprecedented in their scale and pace. Second, the 
return of great power politics driven by the rise of China as a global 
maritime power and the resurgence of Russian determination to maintain 
continental influence in its near abroad. Third, the rapidly changing 
geopolitics of energy driven by the shale oil revolution that is 
positioning North America to be a net energy-exporter by the end of the 
decade. Any one of these ``macro'' trends would be sufficient to cause 
significant disruption in global affairs, but that all three are 
occurring simultaneously will greatly complicate U.S. statecraft and 
the formulation of cohesive national security strategy. \1\
---------------------------------------------------------------------------
    \1\ There are, of course, other significant global trends. See the 
National Intelligence Council report Global Trends 2030: Alternative 
Worlds. On the geopolitics of energy, see Elizabeth Rosenberg, Energy 
Rush: Shale Production and U.S. National Security (Washington DC: 
Washington DC: Center for a New American Security, 2014). On the rise 
of China see Robert Kaplan, Asia's Cauldron: The South China Sea and 
the End of a Stable Pacific (New York: Random House, 2014).
---------------------------------------------------------------------------
    These trends are all complicated by the accelerating diffusion of 
military power. \2\ The very forces unleashed, in part, by the 
Pentagon's Cold War-era research into advanced computer networking (to 
ensure the survivability of U.S. nuclear forces and hence the 
credibility of their deterrent power) helped spur a commercial 
revolution that thrust the world into the information age. This in turn 
accelerated the diffusion of military power by supercharging 
globalization and creating the broader knowledge economy, which 
together served to lower entry barriers that heretofore prevented many 
state and non-state actors from acquiring advanced military technology. 
\3\ The result of this diffusion of military power has been to expand 
the employment of advanced technology both horizontally (i.e. more 
actors are employing them) and vertically (i.e. the technology is 
employed throughout an actor's military organizations).
---------------------------------------------------------------------------
    \2\ See Michael Horowitz, The Diffusion of Military Power: Causes 
and Consequences for International Politics (New Jersey: Princeton 
University Press, 2010).
    \3\ One of the first to talk about the ``democratization of 
violence'' was Fareed Zakaria in The Future of Freedom: Illiberal 
Democracy at Home and Abroad (New York: W.W. Norton, 2003).
---------------------------------------------------------------------------
    These ongoing geopolitical trends and the diffusion of military 
power described above are causing the security environment to evolve at 
a pace that makes defense planners and strategists uncomfortable as it 
raises the risks of strategic surprise and the resulting consequences.
                contours of the operational environment
    The forces driving the evolution of the security environment shape 
the contours of what defense planners call the ``operational 
environment''--the space within which military forces will compete with 
one another in peacetime and engage in violent action when asked to do 
so. There is a spectrum of activity along which military leaders must 
prioritize the creation, training, equipping, readiness, and geographic 
posture of military forces. Assessments of the likely operational 
environment must inform such choices.
    Based on the likely security environment outlined above and insight 
derived from assessments of recent conflicts, there are three trends 
that will directly shape the battlefields on which future U.S. military 
forces will fight: the proliferation of precision munitions; the 
expanding size of battlefields; and the increasing ability to find and 
target military forces.
    First, precision munitions will dominate battlefields. The United 
States held a near-monopoly on the use of precision-guided munitions 
since they were introduced at scale during the 1991 Gulf War. \4\ 
Precision munitions enable military forces to hit targets with near-
zero miss--in other words, accuracy becomes independent of range. The 
introduction of precision munitions ushered in a revolutionary break in 
warfare that is accelerating throughout the international system. 
Precision munitions have now proliferated so extensively that nearly 
any actor who desires to employ them can do so effectively on the 
battlefield. Defense analysts refer to this dynamic as the ongoing 
maturation of the precision strike warfare regime. \5\ As retired 
Lieutenant General George Flynn, U.S. Marine Corps, has noted, `` . . . 
the prospect of even non-state actors being able to hit more or less 
everything they aim at with precision guided mortars, artillery, and 
short-range rockets is not only worrisome, but unavoidable as 
relatively inexpensive guided weaponry proliferates world wide.'' \6\ 
The implications for military strategy are significant, and Pentagon 
planners must now assume that any future adversary will employ 
precision munitions against U.S. forces.
---------------------------------------------------------------------------
    \4\ Early antecedents of guided munitions stem as far back as the 
wake-homing torpedoes that emerged at the end of World War II. See 
Barry Watts, The Evolution of Precision Strike (Washington DC: Center 
for Strategic and Budgetary Assessments, 2013). Also see Robert Work 
and Shawn Brimley, 20YY: Preparing for War in the Robotic Age 
(Washington DC: Center for a New American Security, 2014).
    \5\ See Andrew Krepinevich and Barry Watts, The Last Warrior: 
Andrew Marshall and the Shaping of Modern American Defense Strategy 
(New York: Basic Books, 2015).
    \6\ As cited by Barry Watts in The Maturing Revolution in Military 
Affairs (Washington DC: Center for Strategic and Budgetary Assessments, 
2011): p.11. Also see Dan Lamothe, ``More Accurate Artillery Concerns 
General,'' The Military Times (April 20, 2010).
---------------------------------------------------------------------------
    Second, the size of the battlefield will expand. The proliferation 
of precision munitions and the battle networks that support their 
employment are increasing the effective range of military units. The 
introduction of guided munitions at all levels of operation means not 
only that military units can hit what they can see but also that the 
ranges across which they can do so can increase. This is not simply a 
challenge in the air and maritime domain, where U.S. forces have had to 
deal with the proliferation of precision munitions for some time, but 
increasingly will pose serious challenges for U.S. ground forces. The 
introduction of guided rockets, artillery, mortars and even bullets 
will make ground combat far more lethal, as the ability to maneuver 
using terrain features to shield forces from enemy fire will become 
much more difficult against an adversary with precision munitions and 
supporting battle networks. This dynamic will cause the ranges at which 
opposing forces first engage in violent action to increase across all 
operating domains.
    Third, concealing military forces will be more difficult. More 
actors are developing sophisticated intelligence, surveillance, and 
reconnaissance capabilities designed to find and target their 
adversaries. From high-end capabilities including space-based 
surveillance, networked multi-static radars, and surveillance drones, 
to the effective use of cloud computing, commercial imagery services, 
and real-time analysis of social media platforms, it is becoming harder 
to conceal the presence and movement of military forces from 
adversaries who are determined to find them. The nature of an actor's 
awareness of adversary forces will differ, but it seems clear that on 
future battlefields, finding the enemy will be easier than hiding from 
him. \7\
---------------------------------------------------------------------------
    \7\ This dynamic is explained well in Michael Vickers and Robert 
Martinage, Future Warfare 20XX Wargame Series: Lessons Learned Report 
(Washington DC: Center for Strategic and Budgetary Assessments, 2001).
---------------------------------------------------------------------------
    These trends are distinct in nature, and will interact with one 
another in different ways depending on the particular theater and the 
domain (e.g. air, ground, maritime, space). \8\
---------------------------------------------------------------------------
    \8\ It's possible that many of the dynamics that are apparent in 
the physical domain also have some similarities to dynamics in the 
cyber domain. But for the purposes of this argument I focus only on the 
physical warfighting domains.
---------------------------------------------------------------------------
    A future operating environment characterized by the use of 
precision munitions, over larger areas, coupled with surveillance 
networks that make battlefields less opaque will require new vectors 
for force development, military posture, and concepts of operation. 
Moreover, it seems clear that the proliferation of precision munitions, 
expanding combat ranges, and a more transparent battlefield will result 
in future conflicts being far more lethal to all combatants.
                 the erosion of america's military edge
    The dynamics of the security environment outlined above coupled 
with the likely implications for how future battlefields will evolve 
are certain to require significant modifications to U.S. defense 
strategy. There is a broad and growing recognition that the 
proliferation of precision munitions and their associated battle 
networks throughout the international system and all the implications 
that stem from the shift from the unguided-to guided-weapons era are 
actively eroding long-standing pillars of U.S. defense strategy.
    One must only take a cursory glance at recent newspaper headlines 
to see this dynamic at work. For instance, the obvious reticence of 
U.S. policymakers to challenge China's unilateral island-building 
activity in contested areas of the South China Sea is partly due to the 
fact that Chinese military capabilities are much more threatening to 
U.S. military forces than at any time before. China's acquisition and 
deployment of sophisticated integrated air defense systems and, in 
particular, precision-guided anti-ship ballistic and cruise missiles 
pose serious threats to U.S. air and naval forces. For instance in 
March 1996, when China conducted live-fire military exercises and 
missile tests off the coast of Taiwan, the United States dispatched two 
aircraft carrier strike groups into the mouth of the Taiwan strait in a 
significant show of force and resolve. The United States could do so at 
relatively low levels of risk given the immaturity of China's air and 
naval forces. After nearly two decades of China's deliberate investment 
into modernizing its military forces however, the relative superiority 
of America's military posture in the Asia-Pacific is much less 
pronounced, and thus even traditional displays of military power such 
as freedom of navigation assertions through international waters have 
become more complex and potentially dangerous affairs. Through their 
patient and deeply strategic military investments, Beijing has now made 
significant progress in eroding America's military-technical edge in 
the Asia-Pacific. This dynamic has worrisome implications for regional 
stability, particularly given the rising military tensions between 
China and several key U.S. allies in the region including Japan and the 
Philippines.
    The dynamics that are shaping military competitions playing out in 
the Asia-Pacific region are also becoming increasingly apparent in 
other theatres. Russian aggression in Crimea and Eastern Ukraine, as 
well as their operations in Syria, were facilitated by their ability to 
construct what top NATO commander General Philip Breedlove has called 
``anti-access bubbles'' in these areas. \9\ The rapid deployment of 
integrated air defense systems--radars, surface-to-air missiles, and 
modular ISR architectures--quickly gave Russia the freedom of action, 
in Crimea at least, to engage in rapid ground operations take and hold 
territory. And in Eastern Ukraine and Syria, the ability to quickly 
create ``nogo'' areas of airspace has helped to buttress Russia's 
partners and increase deterrence against other actors, including the 
U.S. and NATO. Moreover, Russia's recent cruise missile strikes against 
targets in Syria from naval vessels in the Baltic Sea is further 
evidence that America's competitors are confident in their abilities to 
fully employ advanced military technologies that heretofore only the 
United States could or would use in wartime.
---------------------------------------------------------------------------
    \9\ Thomas Gibbons-Neff, ``Top NATO general: Russians starting to 
build air defense bubble over Syria,'' The Washington Post (September 
29, 2015).
---------------------------------------------------------------------------
    Not only have major military competitors like China and Russia made 
great strides into the guided-munitions warfighting regime, but these 
technologies have diffused to the point where almost any plausible 
state or non-state actor will employ them in some way. For instance, 
Hezbollah employed guided anti-armor and also anti-ship munitions to 
notable effect during the 2006 war with Israel. \10\ And today, U.S.-
supported rebel groups in Syria are reportedly employing similar types 
of weapons against Assad's military forces. There is every reason to 
expect that any significant military actor will employ advanced anti-
armor, -ship and -air munitions in the future. This dynamic will be 
extremely challenging to address if U.S. forces are ever asked to 
engage in sustained military operations against an adversary with 
access to these types of weapons. In this respect, recent large-scale 
conventional operations in Iraq and Afghanistan may turn out to be 
among the last sustained engagements against adversaries that are not 
fully able to employ guided munitions and rudimentary battle networks 
supporting their use.
---------------------------------------------------------------------------
    \10\ Deputy Secretary of Defense Robert Work, in an April 2014 
speech at the Army War College described this at some length: `` . . . 
when the IDF crossed swords with Hezbollah [in 2006], they were caught 
by surprise. Hezbollah--fighters were armed with advanced anti-tank 
missiles, thousands of long-range rockets, Chinese-made Silkworm anti-
ship missiles, advanced man-portable anti-air missiles, and unmanned 
aerial vehicles (UAVs). They had very simplistic, but very effective 
battle networks to employ them. They practiced irregular warfare, but 
at the same time maneuvered effectively against Israeli armored 
columns, proved proficient in indirect fire, and they used swarms of 
heavy anti-tank missiles to great effect.''
---------------------------------------------------------------------------
    Clearly the ongoing diffusion of military power is problematic to 
U.S. defense strategy, and the loss of a near-monopoly position with 
respect to the employment of guided munitions on the battlefield will 
be a defining feature of the operating environment for U.S. forces, but 
one must be careful not to overstate the case. The United States 
remains the most capable military actor in the international system and 
will remain so for the foreseeable future, even given the constrained 
levels of defense spending seen in recent years. The erosion of 
America's military edge does not mean U.S. forces will be unable to 
fight and win the nation's wars, but it does strongly imply that 
battlefield victories will come at increasing levels of cost and risk 
in terms of lives lost and resources spent.
                reestablishing a military-technical edge
    Of all recent Pentagon leaders, current Deputy Secretary Robert 
Work has been the most detailed in his public accounting of how the 
U.S. military is losing technical dominance over its adversaries. It is 
worth quoting him at length describing the scope and scale of the 
challenge:

        ``Looking back on the [1990s], we enjoyed conventional 
        dominance across the spectrum. Our global command and control 
        network was unparalleled and it really wasn't under any type of 
        a cyber attack threat. Our space assets, which provided us the 
        ability in a simple theater-wide battle networks, weren't 
        really threatened. We enjoyed freedom of access on the land, in 
        the air, on the sea, under the sea, in cyberspace. In contrast, 
        we have potential competitors all across the spectrum, 
        developing capabilities and challenges in all domains. Our 
        space assets are now at more risk than they have ever been. Our 
        global command and control system is at more risk than it has 
        ever been. Several nations are developing capabilities that 
        threaten to erode our ability to project power over trans-
        oceanic distances, which is what makes us the only global 
        military superpower. The so-called A2/AD capabilities include 
        advanced anti-ship and anti-air missiles, as well as new 
        counter-space, cyber, electronic warfare, undersea and air 
        attack capabilities. We are seeing levels of weapons 
        development in other states that we have not seen since the 
        mid-'80s, when we faced a near peer military competitor in the 
        Soviet Union.'' \11\
---------------------------------------------------------------------------
    \11\ Robert Work, Speech to McAleese / Credit Suisse Defense 
Programs Conference (Washington DC: March 17, 2015).

    The implications of what Secretary Work outlines are far-reaching, 
striking as they do at the very foundation of U.S. defense strategy and 
doctrine. Two paradigmatic cases are worth discussing: air and maritime 
power against near-peer competitors; and the likely contours of future 
ground combat.
                   air and maritime power projection
    First, the increasing opacity of future battlefields, the expansion 
of engagement ranges, and the prevalence of guided munitions are 
combining in ways that call into question the ability of the joint 
force to project striking power against an adversary. Put another way, 
these dynamics mean that America's forward military presence, whether 
on land, in the air, or on the sea, will be within range of an 
adversary's guided munitions much earlier than was the case when they 
were designed and built; and that U.S. power projection capabilities 
will need to engage an adversary at much greater distances than 
previously planned.
    The best contemporary case concerns the way U.S. defense planners 
conceive of the aircraft carrier and its embarked air wing. As military 
historian Jerry Hendrix describes in the recent report Retreat from 
Range: The Rise and Fall of Naval Aviation, the singular purpose of 
U.S. aircraft carriers designed during the Cold War--the so-called 
``supercarriers''--was to launch and recover aircraft able to carry 
heavy ordnance payloads over long distances. This was to enable U.S. 
naval forces to project power (conventional and nuclear strike 
missions) beyond the engagement ranges of Soviet air and maritime 
defensive systems. With a complement of bombers, long-range attack 
aircraft, and air superiority fighters, the carrier air wings for most 
of the Cold War could perform deep strike missions at about 1000 
nautical miles (nm) from the carrier. \12\ For a variety of reasons, 
principally judgments about the favorable security environment in the 
immediate post-Cold War period, the Navy was permitted to emphasize 
operational concepts that prioritized the number of sorties the air 
wing could generate. This was not without some logic, for as Hendrix 
describes: ``The campaigns that the nation and the Navy found 
themselves participating in gave a false sense of permanence. Operation 
Desert Storm in 1991, operations in Yugoslavia from 1995 to 2000, and 
the 2003-2012 Iraq War were all conducted in permissive maritime 
environments that allowed U.S. aircraft carriers to operate just 
offshore of target nations, maximizing the on-station time of their 
aircraft.'' \13\ The prioritization of ``close-in'' operational 
concepts for carrier operations has resulted over time in an air wing 
with an average unrefueled range of less than 600nm.
---------------------------------------------------------------------------
    \12\ Jerry Hendrix, Retreat from Range: The Rise and Fall of 
Carrier Aviation (Washington DC: Center for a New American Security, 
2015).
    \13\ See Hendrix, Retreat from Range, p. 50. See also Seth Cropsey, 
Bryan McGrath, and Timothy Walton, Sharpening the Spear: The Carrier, 
the Joint Force, and High-End Conflict (Washington DC: Hudson 
Institute, 2015).
---------------------------------------------------------------------------
    Given the increased prevalence of long-range guided munitions and 
battle-networks--of the type that China has spent decades procuring, 
among others--operational concepts that presume an ability to establish 
air or maritime dominance sufficient to enable close-in engagement 
ranges seem quite unrealistic. Unless Pentagon and Navy leaders can 
drive change sufficient to enable long-range strike missions from 
aircraft carriers, this critical ``day 1'' mission will be deferred to 
other elements of the joint force, which would call into sharp relief 
the very purpose and mission of the aircraft carrier--heretofore the 
crown jewel of U.S. power projection.
    The aircraft carrier is not the only element of America's power 
projection force that is increasingly vulnerable given the trends 
outlined above. Advances in air defense systems make stealth aircraft 
easier to detect; America's space-based satellite constellations are 
more vulnerable to attack and disruption; and U.S. military bases in 
and around contested regions are more exposed to higher volumes of 
accurate ballistic missiles that will stress even the most advanced 
defensive systems.
Ground Combat
    Second, these trends will cause profound disruption in ground 
combat. While U.S. ground forces are and will remain the most effective 
in the world at the core mission of closing with and destroying the 
enemy, the U.S. Army and Marine Corps are likely to undergo a very 
disruptive period, as the guided munitions-revolution has not yet fully 
taken hold at the level of the individual soldier. The kinds of 
revolutionary air and maritime capabilities that became apparent to the 
world in the 1991 Gulf War--smart munitions and sensor grids--are 
rapidly now emerging in infantry combat. For instance, we are now 
seeing the emergence of precision-guided infantry weapons, including:

    <bullet>  Lightweight anti-personnel drones carried and employed at 
the infantry squad which can dive bomb targets from above;

    <bullet>  Handheld laser-guided grenade launchers that carry 
integrated electronics that enable precise detonation to maximize 
lethality;

    <bullet>  Miniature guided missiles launched from currently fielded 
grenade launchers that can hit targets beyond 2 kilometers;

    <bullet>  Large-caliber rifle rounds that can maneuver during 
flight to hit laser-designated targets; and

    <bullet>  Firearms with integrated fire control systems to 
counteract the effects of the shooter's movement and increase accuracy 
by an order of magnitude. \14\
---------------------------------------------------------------------------
    \14\ I am indebted to my CNAS colleague Paul Scharre, whose work in 
this area will soon be publicly available in his paper, Uncertain 
Ground: Emerging Challenges in Land Warfare that will provide greater 
context and description of these trends and the implications for 
strategy, planning, and procurement. Another recent publication worth 
examining is Michael O'Hanlon, The Future of Land Warfare (Washington 
DC: Brookings Institution Press, 2015).

    These types of emerging technologies will likely first be employed 
by U.S. or allied forces but will rapidly proliferate globally in part 
because many of these capabilities are derived from commercial 
products. These technologies will expand the engagement ranges for 
mounted and dismounted infantry, significantly complicate or obviate 
the ability to use terrain features for cover and concealment, and 
hence make the battlefield far more lethal. All the while, the ongoing 
proliferation of anti-tank guided munitions will continue, as will the 
evolution of the kinds of sophisticated antipersonnel devices (e.g. IED 
and EFPs) seen in Iraq and Afghanistan.
    In both these cases--air and maritime power projection and ground 
maneuver warfare--the loss or relative diminution of long-relied upon 
U.S. advantages will necessitate major changes in operational concepts 
and the capabilities required to execute them.
                vectors for developing the future force
    New operational concepts must be developed to address the 
vulnerabilities in defense strategy outlined briefly above. Operational 
concepts define the ways in which U.S. military forces plan to employ 
military means to accomplish desired political ends. They are the 
critical connective tissue that enables effective theater and 
operational planning, and they should guide the Pentagon's force 
development priorities. The credibility of these concepts undergirds 
U.S. deterrence just as much as the capabilities inherent in specific 
military platforms. ``The United States must be able to give some sense 
of how it can make war against opponents who can contest U.S. military 
superiority in their regions . . . '' argues defense analyst Elbridge 
Colby, `` . . . and how it can make such war in a way that the costs 
and risks of the conflict would in some reasonable sense be correlated 
with the gravity of the interest at stake.'' \15\
---------------------------------------------------------------------------
    \15\ Elbridge Colby, ``America Must Prepare for Limited War,'' The 
National Interest (October, 2015). Emphasis mine.
---------------------------------------------------------------------------
    Whether concerning air and maritime power projection, or in ground 
combat scenarios, the likelihood is rapidly rising that U.S. forces 
will soon encounter adversaries that can, in temporary or sustained 
ways, achieve a degree of parity or overmatch. Given this emerging 
reality, existing operational concepts will need to be updated and many 
will require revision to ensure U.S. forces can operate effectively and 
achieve success on future battlefields. While difficult to capture the 
range of current operational concepts with a broad brush, current 
planning tends to assume that qualitatively superior U.S. forces will 
be able to operate beyond adversary engagement zones, penetrate them if 
required, locate enemy forces, and prevail over numerical superior 
forces by concentrating precision munitions at the point of attack.
    Given that future battlefields will be more transparent, the use of 
precision munitions ubiquitous, and engagement zones spanning larger 
distances, future U.S. operational concepts will require greater focus 
on the following characteristics:

    <bullet>  Range. U.S. forces in any domain will need to be able to 
target and engage adversaries over longer engagement ranges.

    <bullet>  Persistence. U.S. forces, particularly in the air domain, 
will need to stay inside contested zones for longer periods of time to 
find and engage an adversary's mobile assets.

    <bullet>  Disaggregation. Future military forces will often need to 
disaggregate into smaller components in order to present adversaries 
with more complex targeting challenges.

    <bullet>  Dispersion. Forces will need to spread out those 
disaggregated units across wider geographic areas to fully take 
advantage of networked sensors and fires.

    <bullet>  Mass. Dispersed forces will still need to find ways to 
concentrate firepower and/or platforms at particular points to 
overwhelm an adversary.

    <bullet>  Concealment. Military forces will need to: improve core 
stealth technologies (e.g. to reduce radar cross-sections); shift 
emphasis within a certain warfighting domain (e.g. submarines as 
primary attack platforms instead of increasingly vulnerable surface 
ships); and create innovative ways to distract or distort an 
adversary's means of detection (e.g. advances in electronic attack and 
cyber capabilities).

    It seems clear that if opposing forces are roughly in qualitative 
parity, battlefield outcomes may increasingly turn on which adversary 
can generate quantitative superiority at key points. Such superiority 
will stem from different platforms depending on the scenario, but will 
ultimately boil down to the number of munitions that can be brought to 
bear against an adversary. Whether long-range missiles, bombs dropped 
from aircraft, or munitions fired from armor or infantry units, 
battlefield outcomes featuring roughly equal opponents will tend to be 
governed by the one that can bring more mass to the fight.
    It is important to underscore how different this dynamic is from 
much of current U.S. military strategy and force planning, which has 
spent decades planning and executing operations with technically 
superior forces that can detect, target, close with, and engage a 
surprised adversary with the overwhelming application of precise force. 
U.S. defense leaders must do all they can to maintain a qualitative 
military edge, for the modern history of U.S. military strategy 
suggests that competing for numerical superiority with an adversary 
plays to their strengths, not ours. \16\
---------------------------------------------------------------------------
    \16\ Some notable recent defense research is exploring ways in 
which the United States could attempt to generate numerical or 
quantitative battlefield advantages by fully embracing the emerging 
contours of robotic warfare. See two reports by Paul Scharre, Robotics 
on the Battlefield Part 1: Range, Persistence and Daring (Washington 
DC: CNAS, 2014), and Robotics on the Battlefield Part 2: The Coming 
Swarm (Washington DC: CNAS 2015).
---------------------------------------------------------------------------
            implications for military platforms and posture
    The transition from a world in which the United States has a clear 
qualitative military edge to one in which our military forces must 
``fight fair'' against an adversary is a transition that must be 
prevented. A major focus for Congress, the Pentagon, and all those 
interested in preserving military-technical superiority for U.S. forces 
should be the development of a comprehensive bipartisan strategy to do 
so. Thankfully, for nearly a year, the Pentagon, under the leadership 
of Secretary Ash Carter and Deputy Secretary Robert Work, has been 
developing the contours of such an approach. Hopefully, the ongoing 
FY2017 budget deliberations inside the Pentagon will soon result in a 
clear commitment to invest against the challenges outlined above. A 
notional list of priorities for capability investments and posture that 
stem from the above discussion would include:
    First, shore up air and maritime power projection by:

    <bullet>  Employing land and carrier-based unmanned strike 
platforms that can penetrate sophisticated integrated air defense 
systems, locate mobile targets, and deploy significant munitions 
payloads. Automated aerial refueling would fully realize the game-
changing ability of unmanned platforms, significantly extending the 
striking distance of U.S. military forces.

    <bullet>  Emphasizing submarines that can attack an adversary from 
concealed positions, ideally with platforms with larger payload 
capacities (e.g. the planned Virginia Payload Module designed to triple 
the strike capacity of future Virginia-class submarines; as well as the 
planned Ohio-replacement program).

    <bullet>  Developing dispersed undersea sensor grids and unmanned 
attack platforms that persist inside an adversary's contested zones for 
months at a time, credibly posing the threat of surprise close to an 
adversary's shores (e.g. DARPA and the Office of Naval Research are 
experimenting with long-duration unmanned underwater vehicles and so-
called ``upward-falling payloads'').

    <bullet>  Ensuring the new Long-Range Strategic Bomber (LRS-B) is 
procured in numbers large enough (the planned buy of 100 planes) to 
constitute a credible ability to sustain power projection missions 
against an adversary over the course of a long-duration air campaign.

    Second, ensure U.S. ground forces are rapidly adapting to guided-
munitions warfare by:

    <bullet>  Pushing emerging guided munitions capabilities down to 
squad-and individual-level.

    <bullet>  Experimenting with robotic ground systems that can 
obviate the need to risk humans in some high-risk logistics and 
surveillance missions, and some ``advance to contact'' tasks.

    <bullet>  Ensuring that unmanned aerial systems are pushed down to 
the platoon and squad-level to better enable dismounted troops to find 
adversaries over longer ranges.

    <bullet>  Developing platforms that can deploy alongside dismounted 
units that can provide greater protection from an adversary's guided 
rockets, artillery, missiles and mortars.

    Third, ensure U.S. forward bases and deployed forces can better 
defend against an adversary's guided munitions by:

    <bullet>  Aggressively funding continued research and development 
of directed energy systems that can defend against guided rockets, 
artillery, missiles, and mortars.

    <bullet>  Exploring innovative basing concepts that can disperse 
U.S. military forces across larger geographic areas (e.g. austere 
locations with prepositioned equipment that can be rapidly reinforced 
during a contingency).
                    arrest the erosion while we can
    America's finely honed military-technical edge is eroding, and U.S. 
policymakers have a closing window of opportunity to arrest this trend. 
The consequences of failure are clear and troubling. The maintenance of 
a clear military-technical advantage is a foundational element of 
American defense strategy and must remain so. For decades, certainly 
since the 1991 Gulf War--America's adversaries were convinced that U.S. 
forces would be able to see them first and shoot them first due to our 
overwhelming advantage in precision-guided munitions and the means to 
deliver them at a time and place of our choosing. If this erosion is 
allowed to continue, the credible deterrent power of America's military 
forces will lessen as well, potentially causing significant disruptions 
to balances of power around the world.
    The likelihood of America's adversaries employing sophisticated 
guided munitions against our forces and those of our allies and 
partners necessitates far-reaching changes to overall defense strategy, 
force development and modernization efforts, concepts of operation and 
contingency planning, and global basing and posture. An adversary that 
can establish even temporary advantages in guided munitions and the 
means of their delivery could potentially put U.S. forces on equal 
qualitative footing, which would foist the requirement to generate 
quantitative battlefield advantages back into the forefront of military 
preparations to a degree that today's defense planners would find 
extremely difficult to do successfully.
    Fortunately, senior Pentagon leaders understand the scale and scope 
of this challenge, and are building on the strong history of previous 
attempts to offset an adversary's military advantages to do the same in 
time to prepare for future conflicts. The report of the 2014 bipartisan 
National Defense Panel also highlighted the erosion of America's 
military-technical superiority. \17\ It is vital that Congress supports 
the Pentagon's efforts, and holds its civilian and uniformed leaders 
accountable for making the necessary changes in defense strategy and 
planning before it is too late. The stakes could not be higher, for 
they concern nothing less than the foundations of American military 
power and its beneficial effect on the stability of the global order.
---------------------------------------------------------------------------
    \17\ See report of the 2014 National Defense Panel, Ensuring a 
Strong U.S. Defense for the Future (Washington DC: U.S. Institute of 
Peace, 2015). The report argues in part: ``In this rapidly changing 
environment, U.S. military superiority is not a given; maintaining the 
operational and technological edge of our armed forces requires 
sustained and targeted investment.'' (p.2).

    Chairman McCain. Well, I thank the witnesses. And I think 
it's very important, and I hope that all of our witnesses will 
read your written statements, which I think are very important, 
as well.
    I'll tell the witnesses, a little over a year from now, 
very little over a year from now, we're going to have a new 
President of the United States. And let's suppose that you are 
called over to see the incoming President of the United States, 
and he--he or she wants to talk about defense. What's your 
first recommendation to the new President of the United States?
    We'll begin with you, Mr. Brimley.
    Mr. Brimley. Thank you, Mr. Chairman.
    My advice would be to invest his or her political capital 
early on, working with Members of Congress, to reestablish a 
baseline defense budget that is robust enough to fund what the 
Pentagon's been arguing for some time, along with your 
leadership and the leadership of others. And, as I said in my 
written statement, I think the erosion of our qualitative 
military edge has to be addressed. Size is important. The 
quantity is important. But, I worry that, unless the--if we 
allow this erosion of our military technical edge to continue 
at this pace, it will pose great danger to our men and women we 
will ask, and the future Commander in Chief would ask, to put 
in harm's way, at some point.
    Chairman McCain. Mr. Donnelly?
    Mr. Donnelly. I would suggest that the President try to 
reposture American forces farther forward, particularly in the 
Pacific, particularly in the South Pacific, but also in Europe, 
in the Middle East. That's something that he or she could do, 
even with the force that will be inherited, and it is an 
important first step towards reassuring our allies that the 
United States is serious about preserving the world that we 
live in today.
    Chairman McCain. Out of curiosity, Dr. Preble, are you 
related?
    Dr. Preble. Very distantly, sir. I did the research, years 
ago. It's about as distant as you possibly can get, so--but, 12 
generations away, so----
    Chairman McCain. Still a great name.
    Dr. Preble. It is a great name. Thank you, sir.
    My advice to the new President--it gets back to strategy. 
Strategy is about choosing. And that means setting priorities. 
We have not done a very good job of that. Now, I understand 
that when you articulate those priorities, you send signals, 
some of which are not necessarily welcome, some of which are 
necessary. And I do think it's important to send a quite 
different message to our allies that we will forever have their 
back, forever and ever, and that they're not expected to do 
anything to assist us. I don't think that's wise. I don't think 
that's, over the long term, going to be effective. I just--I 
don't believe that it's--that the United States has the ability 
to foresee, for many, many other countries, what their security 
priorities are better than they can.
    Chairman McCain. Mr. Wood.
    Mr. Wood. Thank you, Mr. Chairman.
    I believe that the President needs to clearly define U.S. 
national security interests, and then resource those 
commensurate with those interests. I mean, how could you do 
otherwise? So, if you're not willing to devote the resources 
necessary to serve, then you have to recast your interests and 
the role you want to play in the world. We have seen the impact 
of a baseline budget of $500 billion with erosion, Army 
dropping from 520,000 down to 490-, 450-, potentially lower 
than that. We've seen the degradation in readiness. We've seen 
the shrinkage of capacity for U.S. military forces to do 
things. So, if we want to maintain a primary role in the world, 
the leading primary role in the world, then we need to resource 
that, commensurate with those level of interests.
    So, I think the recent budget deal, where we're got, what, 
$607 billion, I think, when it's all added up, is merely to 
stem the erosion that we have seen. It's not going to buy back 
significant numbers of readiness, you're not going to rebuild 
brigade combat teams, where we've seen them drop from 45 down 
to 32. So, that's a bare minimum that folks have been able to 
agree to.
    So, I think the funding needs to increase. The services 
themselves will figure out how to solve operational challenges. 
They need that breadth of capability and capacity to do the 
experimentation, the testing, see how new technologies are 
brought into it. But, if they don't have the capacity to do 
that, with capacity made possible by adequate funding, then 
we're not going to be able to get ahead of that curve, and we'd 
better have a terrible record of trying to predict what the 
next war will be, against who, what the characteristics of it 
will be, what symmetries or asymmetries will be actually in 
that mix, in that current conflict. But, to have that kind of 
ability to test those kinds of things, capacity, I think, is 
the overarching need, and it's finding the adequate funding to 
have the military, commensurate, again, with the U.S. role in 
the world.
    Chairman McCain. Dr. Krepinevich?
    Dr. Krepinevich. I think the first order of business, 
assuming we continue to sustain the vital interests that we've 
established for ourselves in the Middle East, the Far East, and 
Europe, is to come up with a strategy to deal with the three 
revisionist powers, to describe what the priority is among 
those three, not only in the near term, but over time, so it's 
a time-sensitive strategy. I think my going- in position would 
be that, in the Far East, we need a defense posture, a strategy 
of forward defense; I think in the Middle East, it has to be 
low footprint combined with expeditionary posture; and I think 
in Eastern Europe, it would be a tripwire force, with the 
potential for reinforcement, if necessary. And I think, 
finally, we need to come up with a strategy to address the 
problem of what I would call modern strategic warfare that 
involves not only nuclear weapons now, but advanced nuclear 
weapons, defenses against missiles and cruise missiles, 
cyberweapons, and advanced conventional weapons capable of 
attacking targets that were once reserved only for nuclear 
weapons.
    Chairman McCain. My time is expired, but I would ask the 
witnesses to give me a written response to what you think is 
the future of the aircraft carrier.
    [The information referred to follows:]

    Dr. Krepinevich. This is a complicated question for which there is 
no easy answer. Anyone who tells you they have the answer with respect 
to the carrier's future has not taken the time and intellectual effort 
needed to arrive at even an informed opinion.
    Let me provide you with a few observations regarding long-term 
trends in maritime warfare with an eye toward providing a framework for 
thinking about this important question. I've put some of the salient 
passages in italics.
    For over two decades, the U.S. military has enjoyed a near-monopoly 
in precision-guided weaponry and their associated battle networks. 
Recently, however, the proliferation of these capabilities to other 
militaries and nonstate entities is gathering momentum.
    The extended period during which the U.S. military has enjoyed a 
major advantage in this aspect of the military competition suggests it 
may be slow to appreciate the progressive loss of this advantage. 
Nowhere is this more the case than in the maritime domain, where U.S. 
freedom of maneuver has rarely been challenged in conflict since World 
War II, and then with only modest effects. This era, which now 
stretches over nearly seventy years, may make it more difficult for the 
U.S. military to adapt to the ``new normal'' in which existing and 
prospective enemies have precision-guided munitions (PGMs) and, in some 
cases, the associated battle networks and long-range strike systems 
that form what the Russians termed ``reconnaissance-strike complexes.''
    Further complicating matters is the fact that the maritime 
competition has long since moved beyond purely a contest of ships and 
submarines at sea. Since the early days of World War II, land-based 
aircraft have played a major role in the maritime balance, followed by 
missiles of ever-greater range, speed, and lethality. In recent years 
military capabilities and systems in space and cyberspace have become 
major factors in determining the balance, further complicating efforts 
to assess the competition. Thus while naval forces, strictly speaking, 
are those that operated on or below the surface of the water, the 
maritime competition is influenced by forces operating in all domains.
    Further increasing the ``degrees of difficulty'' in assessing the 
emerging mature maritime precision-strike regime are changes in the 
character of the maritime domain itself. Maritime geography has 
undergone a marked transformation since the last time U.S. maritime 
power was seriously challenged in war. This stems from the expanding 
undersea economic infrastructure. A state's economic assets at sea were 
once thought of primarily as cargo-bearing ships. Today in many places 
the undersea continental shelves host a complex energy extraction and 
transport infrastructure that is increasingly accessible, even to 
nonstate entities. Add to this a thickening web of undersea 
telecommunications cables. Aside from the challenge of defending this 
undersea infrastructure, there are concerns that some states with 
expansive views of what constitute their exclusive economic zone (EEZ) 
could also affect the competition in ways that would limit freedom of 
maneuver in the maritime domain, including a maritime power's ability 
to map the undersea and to maneuver in neutral states' EEZs in wartime.
    As has been the case for millennia, maritime access will likely 
remain contested most strongly in littoral regions. Similar to the 
Royal Navy's experience when it encountered torpedo boats and 
torpedoes, mines, and submarines--the first modern anti-access/area-
denial (A2/AD) defenses--in the late nineteenth and early twentieth 
centuries, today's U.S. surface fleet may find it prohibitively costly 
to operate in the littoral regions against adversaries in a mature 
maritime precision-strike regime. And since modern scouting and strike 
systems can operate over much greater distances than those of a century 
ago, a robust maritime A2/AD defensive network could extend out 
hundreds of miles from the shore, intersecting with a rival's similar 
network to create a No Man's Land or ``no-go zone'' of operations. This 
would affect a wide range of maritime missions, to include sea control 
and denial, strike, presence, commerce raiding and defense, and 
blockade and counter blockade.
    While it is easy to make the case for a mature maritime precision-
strike regime differing from today's maritime environment, actually 
spelling out those differences poses many problems. The first concerns 
the broad development of military capabilities--that is, the diffusion 
of precision-guided munitions and development of extended-range 
scouting forces linked to strike forces through battle networks. Recent 
promising advances in directed energy could greatly enhance 
communications along with air and missile defenses. New generations of 
nuclear weapons could enable their use while creating far less 
destruction than those associated with Cold War ``Armageddon'' 
arsenals. Hypersonic missiles, should they prove practicable and 
affordable in substantial numbers, could greatly reduce engagement 
times. Cyber weapons may prove able to fracture battle networks and 
corrupt information provided by scouting forces. Advances in artificial 
intelligence could enable robotic systems to conduct complex operations 
independent of human control, moving from an era of unmanned weaponry 
controlled by humans to autonomous weaponry. The broad advance of 
military capabilities greatly increases the uncertainty entailed in 
describing the salient characteristics of a mature maritime precision-
strike regime.
    The challenge of determining what this means for the aircraft 
carrier's future is further limited by a lack of data. It has been 
roughly seventy years since two major maritime powers fought each 
other. In that time the advances in maritime capabilities have been 
dramatic. Yet the data on the relative value of these new capabilities 
are meager, culled from minor conflicts that may stimulate as many 
false conclusions as useful insights.
    The challenge is further compounded in that the more advances there 
are in military capabilities, the wider the range of paths competitors 
might pursue in exploiting their potential within a mature maritime 
precision-strike regime. While some light might be shed on this matter 
by examining a competitor's geographic position, strategic culture, 
stated geopolitical objectives, economic and technical resources, and 
the ability to mobilize them for military purposes, at best it reduces 
uncertainty at the margins. As several prospective key competitors--
India, Iran, and Japan, in particular--have yet to move aggressively 
toward fielding the forces that would characterize a mature maritime 
precision-strike regime, it seems ill-advised to predict what path they 
may pursue, let alone the ultimate outcome.
    There is the matter of operational concepts. Competitors may choose 
a certain path in fielding new capabilities (and blending them in with 
existing capabilities), but this does not necessarily tell us how 
competitors will employ those capabilities in war.
    While these barriers to predicting the character of a mature 
maritime precision-strike regime are formidable, they are not an excuse 
for failing to try. An informed assessment of such a regime that takes 
these conditions into account can serve two useful purposes. First, it 
can reduce the level of uncertainty, though modestly, as to what will 
characterize the competition. Second, an assessment can provide an 
informed point of departure--a ``Mature Maritime Precision-Strike 
Regime 1.0''--at the outset of what must be an ongoing, persistent, 
iterative process to refine and enhance our understanding of this 
emerging competitive environment.
    Absent a major break in the arc of history, there is no uncertainty 
about at least one aspect of a mature maritime precision-strike regime: 
It will emerge in time. What might characterize the competition in a 
mature maritime precision-strike regime? Among the major findings of 
this assessment are the following:
    The seas, especially for the United States, will become more highly 
contested than they have at least since the Cold War. The gradual 
expansion of what we today call A2/AD zones that began over a century 
ago will continue, following what appears to be a period of aberration 
since the Cold War's end.
    Advances in military capabilities since World War II, such as 
satellites, sensors, very long-range ISR, and strike platforms and 
missiles, have created the potential to ``shrink'' the world's oceans 
to what we might call ``Mediterranean Size.''
    There will be different classes of maritime powers. Modest maritime 
powers will be able to strike fixed targets in their littoral region, 
whereas a smaller number will have the ability to strike fixed targets 
at extended ranges, defined as beyond the littoral and perhaps out to a 
1,000 nautical miles (nm) or more. More advanced powers will be able to 
strike mobile targets, though again, only some will be able to do so on 
a significant scale at extended range. Maritime powers will also be 
distinguished by their ability (or lack thereof) to attack the undersea 
infrastructure and mobile undersea targets, and to do so at extended 
range. The ability to frustrate and defend against this range of 
attacks will also differentiate the maritime powers from one another.
    The vulnerability of surface vessels--warships and merchant ships--
will increase dramatically in such an environment. Absent a major 
breakthrough in antisubmarine warfare (ASW), undersea craft--
submarines, unmanned undersea vehicles (UUVs), and autonomous undersea 
vehicles (AUVs)--will preserve their stealth.
    In this environment, attempting to operate surface warships and 
merchant ships in the enemy's littoral regions, at least early in a 
conflict, will likely be prohibitively costly for even the most 
formidable maritime power. Even beyond the littoral, the growth of 
extended-range scouting and precision-strike forces may find 
competitors creating a ``No Man's Land'' for surface ships.
    In such a wartime environment, a surface fleet may spend most of 
its time operating outside the enemy's A2/AD maritime Bastions (and 
perhaps No Man's Land as well), conducting periodic short-duration 
dashes inside the enemy's A2/AD perimeter to launch strikes and execute 
other missions. The fleet's ability to do so will be influenced greatly 
by the range and stealth of its strike systems, by its ability to 
counter the enemy's command, control, communications, computer, 
intelligence, surveillance, and reconnaissance (C4ISR) systems--its 
battle network--that supports its weapons, and by its ability to 
survive an attack.
    Thus although today aircraft carriers possess the U.S. fleet's 
greatest combat potential, unless they can project that potential over 
much greater ranges than is currently possible, they will run a high 
risk of detection and damage or destruction in a mature maritime 
precision-strike regime. Under these conditions, smaller surface 
platforms with longer-range, survivable strike elements may be 
attractive for a fleet in a mature maritime precision-strike regime. 
During the interwar period aircraft carriers were able to conduct 
effective strikes at ranges far greater than could the other ships in 
the order of battle. The advent of the missile age, particularly the 
rise of precision-guided missiles, however, has significantly altered--
if not reversed--the situation: Some missiles can now outrange the 
aircraft on today's American carriers, and will continue to do so for 
the foreseeable future, at least with respect to manned aircraft.
    While surface warships may have the option of not steaming in 
harm's way, transport ships that provide badly needed supplies may not 
have that option. Indeed, with the range of scouting and strike systems 
(including nuclear-powered submarines) having increased so 
dramatically, commerce protection may prove difficult or even 
impractical, in a mature maritime precision-strike regime. If so, a 
competitor's level of economic self-sufficiency could represent a major 
advantage, especially in an extended conflict. Those competitors who 
are relatively self-sufficient may be incentivized to posture 
themselves for protracted war, and be content to keep their seaborne 
commerce outside an enemy's effective scouting and strike ranges. Those 
who are not highly self-sufficient may be compelled to posture for a 
short campaign, undertake a major (and costly) program to stockpile 
strategic materials, or both.
    While precision offers accuracy independent of range, it does not 
offer range independent of cost. Thus only maritime powers of the first 
rank are likely to possess significant numbers of extended-range 
scouting and strike systems to threaten mobile targets, as well as the 
battle networks to enable the effective coordination of their 
activities. Hence a key aspect of initial operations between two first-
class maritime powers will likely involve efforts to seize control of 
the maritime No Man's Land that is contested primarily by their 
extended-range scouting and strike forces as a precursor to defeating 
their A2/AD forces. Depending upon how they are employed, carriers 
could make an important, and perhaps decisive contribution to such 
operations, particularly if their air wing is comprised of aircraft 
with ranges significantly greater than those we have today.
    In this fight, as in much of the overall struggle for maritime 
supremacy, winning the ``hider-finder'' or scouting competition will 
prove crucial to establishing a maritime balance sufficiently favorable 
for a competitor to accomplish key missions at and from the sea. 
Winning or at least dominating this competition will almost certainly 
be essential for maritime forces to strike mobile targets effectively 
and avoid wasting strikes on low-value fixed targets. The ability to 
``scout'' by reading the enemy's codes through cryptanalysis, jamming 
of communications links, or deleting or corrupting an enemy's scouting 
data through cyber operations could prove decisive.
    When scouting forces are mutually degraded, mobile targets may need 
to be engaged quickly, especially at extended range where scouting 
forces are likely to be minimal. This may put a premium on arming the 
scouting elements where possible, or engaging with missiles, as opposed 
to munitions carried by air platforms, given that missiles--
particularly ballistic missiles--can travel substantially faster than 
any aircraft or with submarines employing homing torpedoes.
    Aside from preserving one's own scouting force, a major challenge 
for competitors will be to determine when the enemy's scouting force 
has been defeated or depleted. Thus accurate battle damage assessment 
(BDA) will be critical; however, it will also likely prove challenging, 
especially in the case of cyber and electronic attack. If a competitor 
has high confidence in his BDA against the enemy's scouting element, he 
can move forces that would otherwise be highly vulnerable into No Man's 
Land or even the enemy's A2/AD maritime Bastions. Given the importance 
of effective scouting in a mature maritime precision-strike regime, 
however, friendly forces must anticipate that the enemy may feign a 
loss of his scouting ability, particularly in the cyber and 
electromagnetic domains, in the attempt to draw friendly forces into an 
ambush.
    As increasing the range of precision strike forces cannot be 
achieved independent of cost, these forces will likely be in relatively 
short supply and limited to only the most advanced maritime powers. 
This suggests there may be a need to rethink the relative value of 
surface warships' staying power, including not only active air and 
missile defenses, but also armor and damage control. Put another way, 
measures such as armor and damage control may drive up significantly 
the number of scarce extended-range strike assets required to achieve a 
mission kill or to sink a ship.
    What will likely be plentiful are advanced sea mines. Moreover, 
over time it seems increasingly likely that the distinction between 
``smart'' mines and UUVs will blur, making mines even more formidable. 
Yet the cost of even the most advanced mines will be only a small 
fraction of that for a modern warship. This suggests that mines will 
become an increasingly important part of a maritime competitor's A2/AD 
littoral defense force, particularly if they can be emplaced in deeper 
waters.
    The undersea domain is almost certain to play an increasingly 
important role in a mature maritime precision-strike regime, for 
several reasons. First, submarines (especially nuclear-powered 
submarines) are likely to be one of the few naval assets (in addition 
to extended-range missiles and long-range carrier air) capable of 
operating at acceptable risk in the maritime No Man's Land and 
penetrating the enemy's A2/AD defenses. Submarines may continue 
evolving into ``mother ships,'' carrying AUVs, UUVs, mines, towed 
payload modules, and special operations forces (SOF), along with their 
traditional complement of torpedoes and missiles--creating an undersea 
``combined arms'' force capable of conducting a range of missions, 
albeit on a relatively modest scale. Second, since the last clash 
between major maritime powers in World War II, an undersea economic 
infrastructure has emerged centered primarily on energy extraction and 
communications cables. This infrastructure will likely prove an 
attractive target in future wars. To the extent multiple competitors 
are involved in such a war, a major challenge for a competitor 
attempting to defend his infrastructure may be accurately identifying 
the source of an attack.
    Despite the many uncertainties regarding the competition, if 
history is any guide it will involve many of the weapon systems and 
other military capabilities that are either in the competitors' armed 
forces today, or in their current procurement programs. This is due in 
part because competitors are often hesitant to scrap expensive existing 
capital stock, such as major surface warship and submarines, aircraft, 
and satellites whose service life spans decades. The problem may be 
compounded for many traditional major maritime powers, the United 
States in particular, that have entered a protracted period of fiscal 
limits, in part owing to a dramatic rise in personnel costs and an 
increasingly dysfunctional weapons acquisition system. Ironically, 
those maritime powers with the most maritime capital stock--the United 
States especially--may have the least flexibility in terms of fielding 
new capabilities. This may be mitigated, however, to the extent that a 
maritime platform is designed with an open architecture that enables 
enhanced or alternate sensors, electronics, weapons, and other payloads 
to be upgraded quickly.
    That said, history suggests that even a modest shift in the 
composition of maritime capital stock when combined with appropriate 
operational concepts can make an enormous difference in the overall 
balance. This was demonstrated by Germany's small submarine force at 
the outbreak of World War I and the handful of carriers possessed by 
the U.S. and Imperial Japanese navies at the beginning of World War II 
in the Pacific. Hence an important factor in determining the future 
maritime balance will be the ability of the competing military 
institutions to innovate, or transform (innovate on a scale sufficient 
to exploit a military revolution), with advantage accruing to those 
competitors that identify the best methods (i.e., operational concepts) 
for employing existing and emerging capabilities to their advantage. 
Thus the ability to identify, test (through analysis, gaming, 
simulation, and exercises) and refine these concepts is often crucial 
to maintaining or enhancing a competitor's position. Limitations on 
manpower--both its quantity and quality--will be a major factor in 
limiting and shaping a competitor's approach to the mature maritime 
precision-strike regime.
    There are several operational concepts that have merit in advancing 
thinking beyond the environment assumed here--that is, one in which the 
spread of precision-guided weaponry has reached its mature stage along 
with corresponding scouting forces (such as UAVs and satellites) and 
battle networks. While a detailed assessment of these concepts is 
beyond the scope of this assessment, several general operational 
concepts associated with maritime missions are outlined.
    A key part of the competition will involve restoring maritime 
freedom of maneuver by reducing an enemy's long-range A2/AD 
capabilities and seizing control of the maritime No Man's Land. How 
might this be accomplished? Options include operational concepts 
centered on:
    Winning the ``scouting campaign,'' in part by introducing 
attractive false targets, making real targets less detectable (such as 
through stealth and curtailing electronic emissions), degrading enemy 
communications, and injecting false information into the enemy's battle 
network. This will permit the employment of maritime forces and 
``shell-game'' tactics, enabling forward land-based forces to operate 
at an acceptable cost;
    Depleting the enemy's long-range strike systems that, given their 
cost, are likely to be a relatively small part of its force structure, 
thereby enabling friendly forces to operate relatively freely in No 
Man's Land and to operate more aggressively within the enemy's A2/AD 
defenses, or maritime Bastion;
    Drawing the enemy out from his maritime Bastion through, for 
example, distant blockade, to compel him to seek a quick resolution to 
the conflict; and Engaging in peripheral campaigns (e.g., physically 
seizing key areas outside the immediate area of competition, such as 
sources of key resources for the enemy). This may compel the enemy to 
over-extend his military resources (especially his extended-range 
scouting and strike systems), while enabling friendly forces to 
concentrate theirs at the key point of decision.
    In brief, U.S. planners will likely confront an increasingly 
dynamic environment in which they must address both how the emergence 
of a mature maritime precision-strike regime will affect the U.S. 
military's ability to conduct maritime missions and what countermoves 
the United States could undertake. The objectives of these countermoves 
should be to improve the U.S. competitive position, and include those 
actions that could shape the competition's path in ways favorable to 
U.S. interests.
    Where do we go from here in understanding the emerging maritime 
competition? If history is any guide, success will require persistent 
effort over time. This assessment is only a first step in what will be 
a long and fitful path toward the mature maritime precision-strike 
regime.
    To the extent this assessment has merit, it can inform the debate 
within the professional military and strategic studies community 
regarding the regime's characteristics. The debate can be further 
enriched by considering how some of the key variables--such as directed 
energy, electronic warfare, advanced-design nuclear weapons, cyber 
munitions, and competitor paths--could significantly shape and 
influence the regime and the U.S. competitive position. Priority should 
also be given to identifying how the United States would like to see 
such a competition evolve over time. Success here will enable further 
thought as to how the United States might influence competitors to 
pursue competitive paths less threatening to U.S. interests. This 
effort has historically been facilitated by first developing 
operational concepts that enable maritime forces to address challenges 
and exploit opportunities that might emerge in the new regime. Since 
the competitive environment is dynamic, and since analysis of the 
operational concepts should provide additional insights into their 
strengths and weaknesses, these concepts must be regularly refined. 
This can be accomplished through well-designed wargames, simulations, 
and maritime exercises.
    The process described here need not be expensive; indeed, the 
savings realized from such an effort are potentially substantial. 
Accurately gauging the characteristics of a mature maritime precision-
strike regime could help the U.S. military avoid investing in 
capabilities ill-suited to meet future challenges, thereby allowing 
resources to be allocated to areas that provide the United States with 
a distinct and enduring competitive advantage.
    Although the benefits of embarking on such an effort are clear, it 
will occur only if senior leaders--particularly senior civilian 
policymakers and U.S. Navy leaders--take up the challenge and find a 
way to institutionalize the process described here. This is their great 
opportunity to sustain U.S. maritime dominance or, should they fail to 
seize it, running the risk that this dominance will not long endure.
    Dr. Preble. ``Aircraft carriers have been central to U.S. Navy 
force planning for decades, and for good reason. A single CVN boasts a 
suite of capabilities that cannot easily be matched even by a 
combination of many smaller vessels. But that does not mean that the 
aircraft carrier is the best platform for all missions, or even most 
missions. Specifically, aircraft carriers are ill-suited to operating 
in restricted waterways, or close to a potentially hostile shore. 
Carrier-based aircraft are at a distinct disadvantage when operating 
against comparable aircraft based on land. The carrier itself, 
meanwhile, may be particularly vulnerable to small units employing a 
host of asymmetric means, including suicide attacks by determined foes 
desperate to disable the single greatest symbol of U.S. power. There is 
no peer competitor today or in the medium-term future who could 
challenge the U.S. Navy's dominance on the high seas, but several 
countries could do so in their home waters and littorals close to their 
shores.
    ``A shift in U.S. strategy away from primacy and toward resilience, 
self-reliance and restraint would enable a quite different U.S. Navy 
force structure. Specifically, the Navy would transition from being a 
permanent presence force, deployed primarily overseas, to a flex force, 
based in the United States and operating chiefly in the Western 
Hemisphere, but capable of projecting power over great distances when 
necessary to preserve vital national interests.
    The U.S. Navy under restraint would be focused, first and foremost, 
on defending the waters closest to the United States. That Navy would 
also be well-positioned to cover much of the Western Hemisphere, in 
concert with capable allies in the region. And while that force should 
retain some large-deck aircraft carriers for the foreseeable future, 
the shift in strategy should facilitate the faster adoption of some 
number of smaller, next-generation aircraft carriers focused on the 
launch and recovery of unmanned aerial vehicles. The resulting force 
might have the same, or a similar, number of total flat-tops, but 
presumably at a lower cost to build and operate than a fleet organized 
around 11 or 12 100,000+ ton CVNs.
    Mr. Wood. I believe the carrier will have broad utility for many 
years to come. As I mentioned in my written testimony, the pro- vs 
anti-carrier debate is captured quite well in the Hudson and CNAS 
publications I referenced. They are well worth the time to read. Yes, 
the proliferation of cruise missiles in particular (launched from land, 
aircraft, and ships (surface and submarines)) and other forms of guided 
munitions (e.g. swarming UAVs, unmanned surface and subsurface craft) 
will pose increasingly challenging threats but they won't increase 
linearly without counters. In other words, the U.S. will continue to 
develop responses to such advances so we shouldn't assume that an 
advance in a weapon will simply make its primary target obsolete. 
Further, carriers have broad utility beyond their use in a high-end 
engagement against a peer competitor in a highly contested/lethal 
environment. Major wars do occur with regularity but only once a 
generation or so. In the 15-20 years in between, the U.S. has ample 
need for an ability to project airpower in ways and places not easily 
supported by land-based aviation. The aircraft carrier simply provides 
the U.S. flexible options in a multitude of scenarios. Perhaps it is 
useful to try imagining U.S. power projection and its ability to 
respond to events without having aircraft carriers in its inventory. 
Having said that, I also think the flight deck needs to change to 
account for advances in unmanned systems. Critics of incorporating 
unmanned aircraft often cite the difficulty of operating different 
types of aircraft in the flight deck cycle but this isn't really much 
of an issue. Aircraft carriers have contended with multiple types of 
aircraft having different characteristics for decades. Yes, fewer types 
simplify mattes but strict efficiency should not override utility and 
combat value. I can envision a Navy that has a few supercarriers akin 
to the new Ford class (we're already building them and will have them 
for 40 years) but with many more mid-size carriers that serve as 
platforms for unmanned systems. We have ample experience with this sort 
of platform if one thinks about our LHA/LHD/LPH ships.

    Chairman McCain. I ask that, because the aircraft carrier 
has been the backbone of the Navy, as we all know, since World 
War II, and there's significant questions about the carrier 
itself, its size, the air wing, the role. So, I would 
appreciate that answer. That's one of the issues that we're 
going to be grappling with when we're talking about a $10- or 
$12 billion weapon system.
    I thank the witnesses.
    Senator Reed.
    Senator Reed. Well, thank you very much, Mr. Chairman.
    I, too, want to thank the witnesses for very thoughtful and 
insightful comments.
    Let me ask all of you a question. It's been highlighted in 
all of your comments. One of the most rapid areas of change is 
technological innovation, which is worldwide. It's affecting 
ourselves and it's affecting our competitors. The other dynamic 
which I'd ask you to focus on is, a lot of this--the 
technological change is taking place outside formal government 
procurement channels, defense industries, you know, military 
installations, its private sector. How do we sort of fit that 
into our operations in DOD?
    So, let me start with Dr. Krepinevich and go right down, 
Mr. Wood, down the panel.
    Dr. Krepinevich. I think that's integral to the so- called 
third offset strategy. My sense is, as some of my colleagues 
have mentioned, that the advantage we have developed for 
ourselves in battle networks and precision warfare that was 
based on the decision in the 1970s to exploit information 
technologies as a source of competitive advantage, that 
advantage is now a wasting asset. So, where do we go next?
    If you look, as you said, Senator, where technology is 
going today, whether it's big data or robotics or directed 
energy, those technologies are widely diffused, they're 
available to anyone with the resources to buy them and develop 
them. So, historically speaking, I don't think, as my former 
colleague Bob Work and I have discussed--you look back at the 
1950s or the 1970s, you actually have to look back at the 
inter-war period, the period in the 1920s and '30s. In that 
period, you had a number of great powers. I have mentioned the 
revisionist powers we're dealing with now. Technologies that 
were moving very quickly then--in the automotive industry, in 
radio, radar, aviation--were available to us, the Germans, the 
Japanese, the Brits, and so on.
    What made the difference in World War II were two things. 
Number one, operational concepts, who figured out how best to 
employ those emerging technologies. So, when it came to 
mechanization, aviation, radio, the Germans developed 
blitzkrieg based on that. The French didn't. Okay, 6 weeks. You 
look at other aspects, the first integrated air defense system, 
that was the British. The Germans were a little bit behind on 
that. So, it was a combination of figuring out best to leverage 
that new technology to deal with the problems that you 
identified. It was also the speed at which you could develop 
and apply that. So, we start World War II with eight aircraft 
carriers. We end the war with 99--99 aircraft carriers of all 
types.
    This gets, I think, back to the issue of time. How 
effectively can exploit time? I think that's one of the reasons 
I would certainly commend the committee for its focus on 
defense reform, because we are a terrible competitor when it 
comes to exploiting time. The better you can exploit time, the 
less standing military capability you need. The better you can 
exploit time, the more range of possibilities that are open to 
you. The better you can exploit time, the more uncertainty you 
generate in the minds of your adversaries because of the 
potential directions you can go in.
    So, I think, in terms of, you know, your point about 
``technology is widely diffusing''--I think those are going to 
be the two critical discriminators. Who develops the best 
operational concepts, and who can do it fast?
    Senator Reed. Dr. Wood. My time is diminishing.
    Mr. Wood. Very quickly, then. I think we need to have units 
and formations available to incorporate or experiment with 
these things as they come in, because the change is so rapid. 
So, what residual--what capability do we have that's free 
enough to do the type of experimentation that Dr. Krepinevich 
mentioned in that inter-war period? Secondly, we need 
formations that are able to operate independently. We've become 
critically dependent on a massive interconnected system that, 
if the enemy compromises, the entire formation is now 
vulnerable. So, distributed operations with dispersed units 
that can operate independently, GPS, independent kinds of 
precision munitions, closed-loop kinds of com systems. You 
know, those kinds of things, where, when one part of the 
formation can take a hit, and the rest of the force can 
continue on.
    Senator Reed. Thank you very much.
    Again, my time is diminished.
    Dr. Preble, a comment?
    Dr. Preble. Very quickly. The--I'm concerned about the 
proliferation of technology down to nonstate actors and non---
you know, weak states, and especially--it brings us into an 
era, it seems to me, of defensive dominance, which does then 
raise issues of, will we risk truly exquisite platforms, 
exquisite technologies, and risk large numbers of lives if 
we're projecting power into other people's areas. So, this new 
era of defensive dominance.
    Senator Reed. Thank you.
    Mr. Donnelly, then Mr. Brimley.
    Mr. Donnelly. Okay, sorry. Red means go.
    Again, I think our principal task is to understand what our 
geopolitical purposes are. Technologies, as Dr. Krepinevich 
suggested, mean different things to different people in 
different circumstances. So, we have to figure out what 
elements of this technology are essential to us, and our job 
is--still will be, as it was in 1942, to figure out how to have 
an effect on the far side. We do not want to, you know, 
experience another, sort of, Pearl Harbor-like event. Our 
purposes are quite different than they were in 1941. We are 
trying to preserve an international system, not build one from 
scratch.
    Senator Reed. And finally, Mr. Brimley.
    Mr. Brimley. Thank you, sir. And, very quickly, I'd just, 
number one, associate myself entirely with Dr. Krepinevich's 
comments. And the only thing I'd add to those is, I understand 
that this committee is holding a hearing on the Goldwater-
Nichols Act. And I think--looking at that piece of legislation 
in particular, I think the 1986 or '87 Nunn-Cohen amendment to 
that Act that created [United States] Special Operations 
Command--SOCOM--has unique acquisition authorities that it has 
used pretty well to go direct into the commercial industry and 
pull things and experiment with them and bypass a lot of the 
acquisition bureaucracy. I think, you know, investigating 
deeper into those kinds of authorities, how they've been used, 
and how they might be replicated across the force would be a 
very interesting discussion.
    Senator Reed [presiding]. Well, thank you very--again, 
thank you very much for your testimony, gentlemen. It was 
superb.
    On behalf of Chairman McCain, let me recognize Senator 
Inhofe.
    Senator Inhofe. Thank you very much.
    Well, first of all, just an observation here. I think you 
already observed this, that we've had a lot of great hearings 
on this condition, on the subject of today. They kind of fall 
into two categories. We had hearings with the uniforms present, 
with a lot of those people who were responsible for the mess 
that we're in right now. And then we've had the others, who are 
the outside experts. And that's--certainly, you fall in that 
category. We, last week, had five professors, and that was 
really, really useful, to see from the outside. You know, we're 
hanging around here, and we listen to each other. I like to 
listen to those who are outside.
    I would also kind of single out one individual. That's 
Dakota Wood. He's--certainly has spent time--what, two decades 
in the Marine Corps, and is--has been an outstanding leader in 
America. And, far more significant than that, he's from 
Claremore, Oklahoma, and he is--and that's one of the homes of 
Will Rogers, so you see a lot of the characteristics that he 
exhibits are similar to those of Will Rogers.
    So, let me read something. And this is 30-35 years ago, 
but--you go back, compare what--the criteria that was set out 
in developing a defense budget under the Reagan administration 
with what's happening today. And I'll ask you to respond. Of 
course, Dakota, you've already read this.
    He said--and this is 1983--he said, quote, ``We start by 
considering what must be done to maintain peace and review all 
the possible threats against our security.'' Okay? ``Then a 
strategy for strengthening peace and defending against those 
threats has to be agreed upon. And finally, our defense 
establishment must be evaluated to see what is necessary to 
protect against any and all of the potential threats. The cost 
achieving these ends is totaled up, and the result is the 
budget for national defense.''
    What do you think about that strategy, Mr. Wood?
    Mr. Wood. Well, I think we have--as many members here have 
already noted previously, that we--this has been a budget-
driven exercise, and so it's, How much money do we want to 
spend on defense? And then we try to make do with that. So, I 
think what was--what Ronald Reagan was getting at with that is 
figuring out what it is that you want to be in the world, where 
your priorities are at, and then resourcing that, commensurate 
with those interests.
    So, it should be strategy-driven. It should be U.S. 
interests-driven. And then, if you want to shoulder that 
burden, you have to find, you know, the funding and the 
resources to be able to do that.
    Senator Inhofe. But, to do that, it has--you have 
prioritize where it is. Now, I think most of us up here--I 
can't speak for the--all of the rest of them--that's our 
number-one priority of what we're supposed to be doing here. I 
mean, that's--even the Constitution agreed. Anyone disagree 
with that?
    Yes, sir.
    Mr. Donnelly. It's the second part that I would disagree 
with. I've come to believe that--particularly since the passage 
of the Budget Control Act, that, in effect, what we've seen 
over the last 5 years is, if not an articulated strategy, a de 
facto strategy, wherein the President and, say, the more 
libertarian members of the House of Representatives agree that 
America is doing too much in the world, and that if we take 
away the means of mischief, that we'll get into less mischief. 
Again, I don't think that it's anything like in our--in a 
formal strategic review process. But, there's broad consensus 
that--for the United States to step back from its traditional 
engagement in the world----
    Senator Inhofe. Yeah. Well, let me just get on record and 
tell you, I don't agree with that. And I have made it very 
clear to those individuals that you--without naming them--have 
this philosophy.
    By the way, you were very specific in your written 
statement. I'd read that before you restated it here. And that 
is, we should--one of the things we should do is to adopt a 
three-theater force construct. I agree with that. And I've 
watched it deteriorate down, as you've pointed out, to a two-
theater, and one-and-one-half, and so forth.
    I'd like to know what some of the rest of you think. What 
about you, Dr. Krepinevich?
    Dr. Krepinevich. Senator, I believe that we don't have 
unlimited resources. And so, it's never going to be possible to 
eliminate every threat to our security. To a certain extent, 
the amount we spend on defense is a function of how--of our 
risk tolerance. You know, the more we spend on defense, the 
more we can reduce the--theoretically, the risk to our 
security.
    Senator Inhofe. Yeah.
    Dr. Krepinevich. But, we can't eliminate it, because we 
don't have enough resources to do that.
    I think another factor you have to consider is, what can 
our allies contribute? And oftentimes, it seems the more we do, 
the less they do. So, how do we come up with strategies to 
encourage our allies to do more and be less free riders on the 
security provided by the American people?
    I think there's an element of social choice in this. You 
know, we have chosen, as a country, as a society, to have an 
All-Volunteer Force. That costs a lot of money. Other 
militaries don't have all-volunteer forces, and, you know, when 
we had a draft-era force, our costs were correspondingly less. 
As a society, we place a very high value on human life. We 
spent over $40 billion on MRAPs [Mine-Resistant Ambush 
Protected Vehicle], and another $20 billion on JIEDDO [Joint 
Improvised Explosive Device Defeat Organization], to minimize 
casualties. In World War II, the way the Russians cleared 
minefields was to move their infantry through it and consider 
it an artillery barrage. So, we've made a cultural and social 
choice that we are going to invest a great sum of money to 
minimize casualties.
    And I think, finally, strategy. What--you know, we--this 
always comes back to strategy. A strategy that--there's a group 
that advocates, as I mentioned, an offshore- control strategy, 
in the event of--as a way of discouraging conflict with China. 
And they call for a maritime distant blockade. That's a very 
different level of expenditure than what I've been talking 
about, which is archipelagic defense, which is quite a bit more 
costly.
    Senator Inhofe. Yeah. I'm really sorry to interrupt you, 
but----
    Dr. Krepinevich. Sure.
    Senator Inhofe.--I'm well over my time right now, and I--
let me just say, I kind of disagree in one area, because, in 
terms of the resources that we have out there, we have 
resources. We don't have priorities. And, in fact, in your 
statement you made that very clear, as to the percentage of GDP 
that we had at one time, and how it's deteriorated over a 
period of time.
    So, I would only say that if you give me a written 
response, each one of you, in terms of this, I would appreciate 
that very much, and I can get that for the record, as to how 
the reprioritizing is--would give us the defense that we don't 
have now, and that we need.
    [The information referred to follows:]

    Dr. Krepinevich. A reprioritization of our threats could have a 
major influence on the kinds of capabilities we need, where we need to 
position our forces within the framework of our global defense posture, 
and how we value our allies and their contributions.
    The issue is as complicated as it is important. Unlike in the Cold 
War, today we face three revisionist powers in three different regions, 
each of which has long been deemed by presidents of both parties as 
vital to our security and economic well-being. I refer of course to 
Russia, Iran and China, which are seeking to overthrow the existing 
order in Europe, the Middle East and East Asia, respectively. We also 
confront the challenge posed by radical Sunni Islamist groups, and by 
proxy forces supported by Russia and Iran.
    The most immediate threat is from radical Islamist groups. Yet they 
pose far less of a danger to our security than Russia, with its large 
nuclear arsenal; or Iran, whose proxies are active throughout the 
Middle East and who may further destabilize the region should it 
acquire nuclear weapons; or China, whose already formidable military 
potential is expanding more rapidly than that of any other major power.
    Arguably the greatest threat to our long-term security involves the 
rise of China. Russia is beset by various woes--economic, demographic, 
and institutional--that will likely make them less of a threat over 
time. Iran's regime faces challenges that can be exploited, including 
an increasingly restive population at home and an apparent protracted 
decline in oil and gas prices. Here as well time seems to favor the 
United States. Thus, as your question suggests, we need to decide not 
only on what priority we give to addressing these threats, but also 
whether we places primary emphasis on near-term or longer-term 
readiness.
    My personal view is that, since the threats to our security are 
growing, we need to increase significantly our defense effort across 
the board in the short term with respect to the threats outlined above.
    In terms of relative emphasis, we need to devote a greater share of 
our resources to address the challenge posed by China. As I believe 
that, unlike China, time is on our side with regard to the challenge 
posed by Russia, I would anticipate that over time our defense effort 
in Europe would slowly decline. The same goes for Iran (unless it 
acquires nuclear weapons) and the radical Islamists. (I would be happy 
to discuss the reasons for my prioritization with you if you like.)
    If you subscribe to this line of thinking, we will need a bigger 
military than the one currently envisioned in the administration's 
defense program, but also a significantly different kind of military. 
We would also need to make significant adjustments in our global basing 
posture and in what kinds of contributions we ask of our allies and 
partners.
    Dr. Preble. I believe that my written testimony addresses this 
question. We should reprioritize threats, and encourage--and in many 
cases demand--that capable allies take the lead in defending 
themselves. This would enable them to address those threats that are 
most urgent and proximate to them, and allow us to focus on a more 
manageable roster of threats to U.S. vital national interests. I would 
call attention to the following passage from page 3:
    ``I do not believe that we are living in the most dangerous time in 
human history, or even in my lifetime. There are dangers in the world; 
there always have been, and there always will be. We are quite good at 
identifying a dizzying array of possible threats. An effective national 
security strategy will prioritize among them, and identify the best 
tools to mitigate them.
    ``In that context, the key question is what Americans should be 
prepared to do to address which threats, and what will be expected of 
others. Whether you agree with me or not about today's threats as 
compared to those a generation ago, or a century ago, the best approach 
would involve many countries who are willing and able to confront 
potential local or regional challenges.
    ``Under the current model, the United States is expected to address 
all threats, in all regions, at all times. We need a new grand 
strategy, one that expects other countries to take primary 
responsibility for protecting their security and preserving their 
interests. We need a resilient international order, one that is not 
overly dependent on the military power of a single country. We need 
capable, self-reliant partners. And we must restrain our impulse to use 
the U.S. military when our vital interests are not directly 
threatened.''
    A grand strategy of resilience, self-reliance and restraint adopts 
a particular view of ``defense'' that is quite different from the 
conventional wisdom in Washington, DC, and among foreign policy elites. 
My colleague Benjamin Friedman and I addressed this confusion around 
``defense'' several years ago. The relevant passages are excerpted 
below:
    ``The United States does not have a defense budget. The adjective 
is wrong. Our military forces' size now has little to do with the 
requirements of protecting Americans. The U.S. military is supposed to 
contain China; transform failed states so they resemble ours; chase 
terrorists; train various militaries to do so; protect sea lanes; keep 
oil cheap; democratize the Middle East; protect European, Asian, and 
Middle Eastern states from aggression and geopolitical competition; 
popularize the United States via humanitarian missions; respond to 
natural disasters at home and abroad; secure cyberspace; and more. The 
forces needed to accomplish this litany of aspirations can never be 
enough. Hence, neither can the defense budget. But the relationship 
between these objectives and the end they are supposed to serve--the 
protection of Americans and their welfare--is tenuous.
    ``In fact, defining the requirements of our defense so broadly is 
counterproductive. Our global military activism wastes resources, drags 
us into others' conflicts, provokes animosity, drives rivals to arm and 
encourages weapons proliferation. We can save great sums and improve 
national security by adopting a defense posture worthy of the name. 
Arguments about defense spending are arguments about defense strategy. 
What you spend depends on what you want to do militarily, which depends 
in turn on theories about what causes security. A more modest 
strategy--restraint--starts with the observation that power tempts the 
United States to meddle in foreign troubles that we should avoid. 
Restraint means fighting that temptation. It would husband American 
power rather than dissipate it by spreading promises and forces hither 
and yon.''
    Mr. Wood. If we believe that the threats posed by large states like 
Russia and China, who possess large nuclear inventories and very large, 
advanced, combined arms militaries, are real and more profound than the 
sort of threat posed by terror groups (suicide bombing of limited 
effect by comparison), then we should account for the carnage and loss 
of high-end conventional warfare . . . meaning, our thinking about 
force size, shape, capabilities, and use must account for attrition. 
Our current force and its capabilities, and the type of force we are 
currently funding and equipping with our modernization programs, can 
easily handle the sort of operations we have been engaged in since 9/
11/2001. But it is not a force that can sustain substantial combat 
losses over time nor the rate of munitions expenditures that would 
occur in a ``real'' war against a large-scale, competent opponent. I 
realize I keep returning to this issue of ``capacity'' but I believe it 
has been entirely overlooked in current discussions about defense 
capabilities. Try imaging a return of land warfare in Europe should 
Russia attempt to expand its aggression to include the Baltics or 
perhaps Poland, if the U.S. needs to get serious in contesting Chinese 
expansion in the South China Sea, or coming to South Korea's aid should 
North Korea decide to renew hostilities. We do not have the ability to 
sustain operations in the face of the type of combat losses that would 
accompany such scenarios. As I stated in my written testimony, our 
current modernization program (its high cost) is leading us to a well-
equipped but small force.

    Senator Inhofe. Thank you, Mr. Chairman.
    Senator Reed. Thank you very much.
    And, on behalf of Chairman McCain, let me recognize Senator 
Manchin.
    Chairman McCain. Thank you, Mr. Chairman.
    And, to all of you, thank you for being here and bringing 
your expertise, and sharing it with us.
    And I'll start with you, Mr. Brimley, but I'd like all five 
of you to answer as quickly as you can, because we're really 
limited on time. But, if you could tell me what you think the 
greatest threat to our national security is, what--in your 
mind, what our greatest threat to our national security is.
    Mr. Brimley.
    Mr. Brimley. Thank you, Senator.
    At the risk of being, maybe, somewhat provocative, I'd say 
the number-one threat is, you know, our policymakers and the 
American people overestimating the ability--the abilities of 
the U.S. military to close with and destroy and confront and 
deter our enemies. I think that there's a growing gap, as I 
talk about in my written statement, between what our forces are 
designed to do and what our adversaries can contest us with. 
And I think--I would hate for the country to experience a level 
of strategic surprise----
    Senator Manchin. You think we overreach----
    Mr. Brimley.--associated----
    Senator Manchin.--may be overreaching?
    Mr. Brimley. I think there's an element of overreach, but, 
as the Chairman talked about in his opening statement, I think 
there's also an element of underreach, as we see, I would 
argue, in places like Syria and Iraq.
    Senator Manchin. Mr. Donnelly?
    Mr. Brimley. I think there's a balance there.
    Mr. Donnelly. I would say the rise of Iran as a potential 
hegemon in the Middle East is really the----
    Senator Manchin. Greatest threat we face?
    Mr. Donnelly. Because the Middle East is such a mess, and 
it's so critical to the whole system. It's the----
    Senator Manchin. Yeah.
    Mr. Donnelly.--the point of most likely failure. And again, 
Iran's bid for hegemony there is----
    Senator Manchin. Dr. Preble?
    Mr. Donnelly.--is the thing.
    Dr. Preble. I think the greatest threat is what threatens 
our greatest strength, which is our ability to mobilize power 
through a strong, vibrant economy. And therefore, the greatest 
threat to our country is some--are the things that undermine 
the strength of our economy and reduce our ability to mobilize 
in the future.
    Senator Manchin. Mr. Wood?
    Mr. Wood. Two different types. One is actors that can 
operate at scale, so when you have somebody like Russia or 
China, profound implications that dominate entire regions with 
very deep nuclear magazines. That's a different kind of threat 
than a North Korea or Iran, which can be very sharp and 
erratic, and very pointed.
    Senator Manchin. I'm just talking our national security, 
the greatest threat. So, you think Russia, with----
    Mr. Wood. I do. I think the more profound, enduring kinds 
of challenges are Russia and China.
    Senator Manchin. Dr. Krepinevich?
    Dr. Krepinevich. I would agree with Dakota Wood, in that I 
think the threats that could destroy us as a society, as a 
country, emanate from Russia and China. I think it's--the 
existential threat is nuclear conflict, although I would expand 
that to say that there is a blurring between nuclear and 
conventional weapons that's been occurring for the last 15-20 
years or so, lower-yield nuclear weapons, more powerful 
conventional weapons, not clear. When you have a Russian 
military doctrine that says you escalate to nuclear use to de-
escalate a conflict, that worries me.
    Senator Manchin. Let me take this to another level now, if 
I may, sir. I'm so sorry to cut you off. Our time is so short 
up here.
    I asked this question 5 years ago, and I had Joint Chiefs 
of Staff before me, and I'm brand new, 5 years ago, coming into 
the Senate. And I asked the question. And I was--Admiral 
Mullen, we asked--it was asked of Admiral Mullen, and I was 
intently listening, and everybody--``You all give me your 
opinion.'' He never blinked an eye, and he said, ``The debt of 
this Nation is the greatest threat that we face.'' The debt of 
this Nation is the greatest threat we face.
    So, Dr. Preble, I would say to you, Do you believe that we 
have enough money in the system--in the system, Department of 
Defense--if we can make the changes? Or are we unwilling to 
make the changes because we're going down a path where, if you 
throw more money--and I'm going to put it to you this way. I 
asked my grandfather one time, I said, ``Hey, Papa, what's the 
difference between a Democrat and Republican?'' ``Oh,'' he 
says, ``No problem, honey, I can explain that to you. If you 
put a pile of money on the middle of the table, tax dollars, 
they'll both spend it all, Republicans will feel bad about it, 
but they'll all, above all, spend it.'' So, with that, I don't 
think we can print enough money.
    Tell me if we can make--if we just have to make sure we 
have enough.
    Dr. Preble. We could, if we chose, fund our military at the 
level that Mr. Donnelly is talking about, or more, 4 percent, 5 
percent, or more.
    Senator Manchin. Sure.
    Dr. Preble. We could. I don't think it's wise to do so. In 
real-dollar terms, because our economy has grown so much over 
the years, thankfully--in real-dollar terms, what we're 
spending now on our military is higher than the Cold War 
average in inflation-adjusted terms. So, we have----
    Senator Manchin. So, we're not getting the bang for a buck.
    Dr. Preble. Correct.
    Senator Manchin. Gotcha.
    What--I mean, so you're saying that we make some 
adjustments. It's not that we're--taxpayers are--I want to make 
sure we're giving our military everything we've got.
    Dr. Preble. Right.
    Senator Manchin. I totally committed to the military. But, 
people question about the money we're throwing at it, or the 
money that they're demanding, because I don't think you can 
print enough.
    Dr. Preble. That's right, sir.
    Senator Manchin. And you think it could be revamped.
    Dr. Preble. Yes, sir.
    Senator Manchin. And still protect our Nation. And still be 
a superpower of the world.
    Dr. Preble. Yes, sir. All true. All the above.
    Senator Manchin. Do any of you have any comments to that?
    Dr. Krepinevich. Just a quick comment. If you look at the 
Cold War era, we spent an average of over 6 percent a year of 
our GDP on defense. We're on a path now to go below 3 percent. 
That's not the ultimate metric. A lot of that has to do with 
how wisely is the money spent, how great is the threat? My 
point was, the threats are growing----
    Senator Manchin. Well, you all are using different 
parameters. I----
    Dr. Krepinevich. Right. But----
    Senator Manchin. You're using a different--Mr. Preble, and 
he's----
    Dr. Krepinevich. Right.
    Senator Manchin.--using GDP. And you're----
    Dr. Krepinevich. Right. Well, the----
    Senator Manchin.--using basically----
    Dr. Krepinevich.--the point I want to make is, in terms of 
our overall national wealth, we are not in financial trouble 
because we're spending too much money on defense.
    Senator Manchin. Gotcha.
    Dr. Krepinevich. Paul Kennedy once spoke of imperial 
overstretch, the decline of great powers because they spent too 
much on defense. We are in the throes of entitlement 
overstretch and an unwillingness to fund those things that we 
actually want. And so, we're deferring that--we're deferring 
that burden to the next generation, and sticking them with the 
bill for what we're unwilling to pay for now.
    Senator Manchin. Mr. Preble.
    Dr. Preble. May I say, Senator, that I do think you will 
find a rare area of agreement of all five of us, to what he 
just said. We are not in fiscal distress because of the money 
we spend on our military.
    Senator Manchin. Gotcha.
    Dr. Preble. But, raising money--to increase the amount of 
money we spend on the military is constrained by the other 
things that we are spending on.
    Senator Manchin. Thank you, Mr. Chairman.
    Chairman McCain [presiding]. I will be showing the 
committee the decline in the size of our military in the number 
of ships, in the number of brigade combat teams, in the--and 
also commensurate decline in capabilities, Dr. Preble. I know 
of no one who believes that we have sufficient capabilities to 
meet the challenges that we face today, which have been 
outlined, at this percent of our gross domestic product. We 
just have an honest disagreement.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman, for your opening 
comments and those of Senator Reed. I believe they're very wise 
and raise some very important questions that all of us need to 
think a lot about.
    With regard to the question of debt being the greatest 
threat, well, I think the Admiral, in one sense, if you take it 
in this sense, was correct, that the larger our debt, you get 
to a point where you can't function anymore, and everything 
gets squeezed. So, if he's trying to maintain a certain defense 
budget, as long as our defense--our debt continues to surge, 
then it does inevitably squeeze the defense budget. Wish it 
weren't so, but it does. So, we tried to fund an increase in 
the defense budget this year, on the Republican side, based on 
the dangers that have surged around the world, and the 
President insisted that we equally defend--raise the same 
amount of money for nondefense. I mean, so at double the cost. 
This doesn't help us.
    I believe, Mr. Krepinevich, you mentioned our allies' 
contributions. Met with some Germans recently, and we were in 
Estonia. Estonia is at 2 percent of GDP on defense. Germany is 
at 1.3. The German presiding officer here, with a good 
delegation, stood up and said, ``I agree,'' when I raised this 
question, that it is unacceptable that the United States spends 
70 percent of the cost of NATO. ``You are correct, Senator,'' 
basically is what he told me. Secretary Gates, last week, 
talked about his plea, demand to Europe that they do a better 
job. And you, I believe, indicated that sometimes when we raise 
our spending, our allies reduce their spending. How do we deal 
with this?
    Dr. Krepinevich. I think, Senator, we have inherited, or we 
have, right now, an alliance portfolio that we constructed in 
the 1950s, in a very different time, with a very different 
security environment. I think, if you look at the situation 
now, as we revise our strategy, I think it's also time to 
revise our alliance portfolio. Not to say that we dismiss long-
term allies with whom we still have security interests, but I 
think, for example, in the case of Europe, we're going to have 
to look more to the eastern European countries and less to 
those of our traditional western European allies. I think, in 
the Middle East, obviously, Israeli is--the Israelis are, in a 
sense, a--you know, almost a de facto ally. There are other 
countries in the region, like the UAE [the United Arab 
Emirates], for example, that show an increasing interest in 
stepping up and providing for the regional defense.
    Japan--I was in Kyushu, a few months back, their western 
army command. I was amazed at the level of effort they have 
going on right now on Kyushu and in the Ryukyu Islands in 
implementing what I call archipelagic defense. And I think the 
Abe government is gradually moving toward a more robust defense 
posture. We have non-allies, for example, like Singapore. The 
level of interest in contact between Japan and India is 
striking. So, I think part of it is to look at countries who 
live in dangerous neighborhoods. I mean, I think, to a certain 
extent, West Europeans haven't come to realize that their 
neighborhood is still dangerous.
    Senator Sessions. Well, I think it's a problem. We need to 
keep the pressure on.
    Mr. Donnelly, it seems to me that a big change has 
occurred--I'll ask you, from your experience, to comment--in 
the Middle East if Iran gets a nuclear weapon. I mean, there's 
not a country in the Middle East that this United States 
military couldn't topple its government in short order. But, is 
there a historic alteration of those circumstances that--if 
Iran would obtain a nuclear weapon?
    Mr. Donnelly. I think Iran is already getting the benefits 
of threatening to have a nuclear weapon. Again, I would offer 
that Iran's goal is regional hegemony. And then the nuclear 
question is--was a means, first of all, to deter us, but, 
secondly--so, they're getting the things that they wanted, and 
they're actually enjoying a run of success, as one might say, 
without--and they have the prospect of possibly having a legal 
nuclear capability within 10 years. So, they have a very clear 
path to becoming the dominant power in the Middle East without 
even having to cross the nuclear threshold, at this point. So, 
I think we kind of find ourselves in a worst-of-both-worlds 
situation, where the Iranians are getting what they want, and 
we're acquiescing on that, if not enabling it.
    Senator Sessions. Well, thank you.
    We're talking about strategy. I'll just--my time's up, but 
I notice Secretary Gates, last week, when he talked with us, 
said, ``My concern is, we don't have an overriding strategy on 
the part of the United States in this complex challenge over 
the next 20 to 30 years.'' He says, ``We seem to be thinking 
strictly in a--sort of month-to-month terms.'' I think that's a 
tremendously devastating comment by the Secretary of Defense 
that served in this administration and a previous 
administration, a man of great wisdom and experience. I don't 
believe we do have a strategy. And I think it's important--and 
I think it's possible to do it in a bipartisan basis.
    Thank you.
    Chairman McCain. Senator Shaheen.
    Senator Shaheen. Thank you, gentlemen, for your very 
thought-provoking testimony this morning.
    I've been in several countries in Europe in the last 4 or 5 
months, and one of the things that I heard everywhere I went 
was concern about our inability to respond to the propaganda 
that's being put both by Russia and by ISIS [the Islamic State 
of Iraq and Syria], and the impact that that is having on the 
potential for us to be successful in eastern Europe, in the 
Baltics, in Latvia, and we know the numbers around recruiting 
that ISIS has done in the Middle East. But, I was interested 
that none of you mentioned that, even though former Secretary 
Gates, last week, talked about our failure, that we have even 
dismantled USIA [United States Information Agency] in the '90s 
because we thought it was no longer needed. I wonder if anyone 
would like to comment on the need to do a better job, and the 
role that the Department of Defense should have in our response 
to the propaganda that's coming out of Russia and other 
opponents that we face.
    Dr. Preble, you wanted to go first?
    Dr. Preble. Senator, if I may, just quickly. I'm not--to 
your last point, I'm not convinced this is the right field for 
the Department of Defense. I'm not convinced of that. But, what 
I think we're seeing, strangely, is, in the same way that I 
talked about the proliferation of technology to nonstate 
actors, we're also seeing the proliferation of information and 
the ability of nonstate actors and weak states to control the 
information in a way that, not so long ago, was controlled 
exclusively by states.
    Now, we recognize that there is a double-edged sword there, 
because state-controlled media also has its problems. And so, I 
think we just have to recognize that we are in a different 
environment in which it is far harder for a single large 
entity, even as large and as powerful as the United States, to 
shape that narrative. We have to rely on many more sources of 
information to sort of drown out that of ISIS or Russia, as the 
case may be.
    Senator Shaheen. Mr. Donnelly?
    Mr. Donnelly. I think the problem is the message, not the 
means. I mean, young men with very few prospects respond to the 
spectacular violence that is in the ISIS videos. Vladimir Putin 
takes his shirt off and tries to look at virile as possible. 
So, our problem is that we don't have a message of strength, 
which is not the only message that we should be committing, 
but--communicating, but one that we must communicate. And it's 
just not very convincing. Because there's a proliferation of 
means of communication, I'm sure we would win this battle, and 
that it wouldn't require much government intervention to, you 
know, get the message out. It would just be nice to have a 
better message to try to communicate.
    Senator Shaheen. Well, it's not clear to me that we're 
communicating much of a message at all at this point.
    Mr. Donnelly. I think we are communicating a message. I 
think we're communicating a message of withdrawal and retreat, 
loud and clear.
    Senator Shaheen. But, I mean, we don't have a strategy and 
a means by which we are actively looking at responding to the 
propaganda that's coming out of Russia and ISIS.
    Mr. Donnelly. Again, I would just offer that the way to 
defeat their propaganda is to defeat their narrative, and we 
don't have a convincing story to tell at this point.
    Senator Shaheen. Anyone else want to respond to that?
    Mr. Wood. Well, I agree with the general tenor of the 
discussions here. To counter propaganda, you have to be 
confident of who you are, what you represent, and why what 
you're offering is better than the other guy, right? So, what 
we're seeing is a lack of confidence, a lack of clarity of 
message, and a lack of assertiveness in saying that the United 
States, our value systems, and what we represent is a better 
path, that it's something better than the opposition. But, I 
think what we have been focusing on was actually the core idea 
of this particular panel. It had to do with military 
capabilities, force structure----
    Senator Shaheen. Well, I--no, I understand that that was 
the idea, but I'm suggesting that we're missing a critical 
element of what should be part of our military--or at least our 
national security strategy.
    Dr. Krepinevich?
    Dr. Krepinevich. Just--and I'm not an expert on this by any 
means--but, it seems to me, fundamentally, we're talking about 
the old story of hearts and minds. If you're trying to mobilize 
people, can you win their hearts? Can you, you know, convince 
them that you're going to provide a better future for them than 
the other side? And then minds. You can win my heart, but if, 
in my mind, I think the other side's going to win and I'm going 
to have to live with them, then you've lost me. So, hearts and 
minds. The--so, it's important to have the good narrative to 
win the hearts, but it's also to--also have the capability and 
a strategy that convinces them that, ultimately, you're going 
to succeed.
    There's also a problem with the way the message is 
communicated. You know, the Russians present one problem, 
because it's state-based media. Groups like Daesh [ISIL], you 
know, they take advantage of modern technologies to reach mass 
audiences that--you know, 20-30 years ago, a nonstate entity 
couldn't dream of reaching. And so, you're looking at mass 
audiences, you're looking at a lot of microclimates, where 
you--it's almost a highly segmented market. And I think we're 
at square one on a lot of these issues. And it's--I think 
strategic communication is going to be--I don't know if it's a 
mission for the military. We used to call it propaganda. But, I 
do think it's going to be a mission for the U.S. Government, 
and an important one, because of the--what I would call the 
democratization of destruction, the concentration of greater 
and greater destructive power in the hands of small groups.
    Senator Shaheen. I certainly agree with that.
    And my time is up, but I would just make an observation as 
you talk about what kind of message are we communicating. As we 
watch the tens of thousands of refugees who are fleeing the 
Middle East, and conflicts in Afghanistan and Iran and Syria, 
they aren't fleeing to Russia or Iran. They're fleeing to the 
West, because they want to live in countries that have strong 
economies and have values that support--democratic values. And 
so, I would say we have a strong message. We're just not doing 
a very good job of communicating that.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair.
    Gentlemen, thank you for being here today. This has been a 
very interesting discussion as we talk about strategy and force 
structure.
    December 13th, 1636. That's the birth date of our modern 
National Guard. And, of course, I'm very proud of our National 
Guard's capabilities. And we have seen the National Guard 
participate in conflicts all around the globe, as well as in 
support roles in places such as Kosovo and Honduras and many 
other types of exercises around the world. And I would like to 
hear a little bit from all of you about what role that you 
think the Army National Guard should play. As I mentioned, 
we've been in support, combat sustainment roles, but we've also 
served in combat roles, as well. Just recently, our 2nd Brigade 
Combat Team from Iowa actually occupied battlespace in 
Afghanistan. So, there is an increasing reliance upon the Army 
National Guard, and they respond quite well, I believe, to the 
needs of the United States and our forces.
    I would like to know that--if you believe the Army National 
Guard should be designated as an operational reserve of the 
Army, and if so, why, or, if not, why not?
    Dr.--excuse me--Krepinevich? Say that for me, please.
    Dr. Krepinevich. You said it right, Senator.
    Senator Ernst. Okay, fantastic.
    Dr. Krepinevich. Thank you. Thank you so much.
    Senator Ernst. Thank you. I apologize.
    Dr. Krepinevich. No, no, no.
    Again, I think that gets back to Admiral Fisher's question, 
you know, ``Tell me how you're going to fight. Tell me how 
you're going to deter.'' I think one of the big growth areas--
if I could--if it's Krepinevich's strategy, I think, over the 
next 20 years, the big growth area in ground forces is going to 
be in rocket artillery, air defense, missile defense, coastal 
defense, and strike. I think that's going to be essential to 
have an effective defense of the first island chain. So, I 
think, in terms of an operational reserve or a second wave 
force or a reinforcing force, I think the National Guard could 
perform a function there.
    In the Persian Gulf, if we were--I think the Guard, of 
course, has many capabilities that would support a low 
footprint mission, but also, if we had to have an expeditionary 
force there, obviously you're going to have to mobilize a 
certain amount of force. Again, I think a support--major growth 
area for there would be rocket artillery in its various forms.
    And then, in eastern Europe, if you buy my idea that a 
tripwire force is what we're going to need because of limits 
on, you know, finances and manpower and so on, if we were to 
develop our own anti-access area-denial bubbles in eastern 
Europe, we would be relying on a lot of those kinds of systems, 
as well.
    So, to the extent that the Guard--and I worked with the 
Guard a long time ago, in--when we had something called 
ARADCOM, the Army Air Defense Command----
    Senator Ernst. Correct.
    Dr. Krepinevich.--and they were off the charts, in terms of 
their capability and expertise in that area. So, I think 
certainly it's an operational reserve for those kinds of tasks. 
I think the Guard could perform a valuable function.
    Senator Ernst. Wonderful. Thank you. I appreciate that.
    Mr. Wood?
    Mr. Wood. I view it more as a strategic reserve, selected 
operational reinforcement of Active Army formations. And we've 
talked about the proliferation of technology, the increasing 
complexities of military operations, especially when you're 
coordinating and synchronizing operations at higher levels, 
when we talk about distributed operations--I mean, there's a 
skill set that becomes ever more complex and takes a lot of 
time to develop competencies in those areas. And so, I think 
the Active component, doing that 24/7, is a force of choice to 
go off and do these kinds of things that we're talking about, 
but you only have so much of that, so I think the strategic 
reserve capability, and then, in selected skill sets, where you 
could have Army Reserve, other service Reserves and National 
Guard units that would develop those kinds of things so it 
would plug into a larger structure. So----
    Senator Ernst. Very good. Thank you.
    Dr. Preble?
    Dr. Preble. Quickly. I've spoken a little bit to this 
question in the written testimony. I have traditionally thought 
of the Reserves as a strategic reserve. And that was, of 
course, the intent when we moved away from the conscripted 
force to a volunteer force, that is to augment that smaller 
Active Duty well-trained force.
    I do see value in engaging the public and communities in a 
way, when we wage war abroad and there are people from their 
community that are drawn away from their jobs and their 
families in a way that they weren't intending, because they're 
not full-time Active Duty, then it seems, at a minimum, we 
should have had a debate, or then we are having a debate, over 
where exactly are we fighting, and why. So, if it were--if we 
were to move to an operational reserve, and it also engendered 
a debate over the wars that we're fighting, and why, then I 
would support it.
    Senator Ernst. Okay. And very briefly--my time is 
expiring--Mr. Donnelly.
    Mr. Donnelly. I would tend to more agree with--well, 
actually, both Andy and Dakota. You know, there used to be a 
National Guard artillery brigade that had long-term 
associations with every Army division. We got rid of those some 
time ago. So, there are roles that the Guard can play for early 
deployment, and so on and so forth, but if we find ourselves in 
a situation as we found ourselves, say, in 2006-2007, where we 
were using anything that looked--wore a uniform as a soldier, 
that is a testament to bad strategic planning and bad force 
planning.
    Senator Ernst. Yes. Thank you.
    Mr. Brimley?
    Mr. Donnelly. And not a knock on the Guard at all.
    Senator Ernst. Mr. Brimley.
    Mr. Brimley. I would just quickly say, Senator, that the 
Guard is an operational reserve. They've been used that way for 
the last 10-plus years. And so, in my mind, I see them that 
way. I think there's value there. There's hundreds of thousands 
of former Active Duty troops who are now populating the 
National Guard. So, now is the time to think through, if 
they're to be used that way, how to do so.
    I would just say that I'm a little bit--I've been 
frustrated to see relations between the Active Army and the 
Army National Guard deteriorate in recent years. I think 
there's--and there's a lot of blame to go around, there. But, 
I've been frustrated that the Active Army doesn't seem to think 
about the Total Army. It seems to think, first and foremost, 
about the Active Army, and then, and only then, do we think 
about the Army National Guard, and, to a lesser degree, the 
Army Reserve. I think, as you think about looking at Goldwater-
Nichols, one of the questions we should be asking is, Has the 
elevation of the Chair of the National Guard to four-star 
status inside the formal Joint Chiefs of Staff--has that had 
second- and third-order effects that have complicated the 
relations between what should be a cohesive total Army?
    Senator Ernst. Yes. And that is a debate that we have had 
in recent months, as well. I do see an effort by General Milley 
and General Grass to repair some of the conflict that we've had 
in the past.
    So, thank you, gentlemen, very much.
    Thank you, Mr. Chair.
    Chairman McCain. Senator Hirono.
    Senator Hirono. Thank you, Mr. Chairman.
    And thank all of the panelists.
    I do agree, Mr. Brimley, that we should have a close 
relationship--strong relationship between the Active Army and 
the National Guard.
    You noted, in your testimony, that we have focused, 
militarily, on the quality of our military, and that we had--we 
held a technological edge, which is being eroded. And I do 
think that, when we lose our technological edge, then numbers 
begin to matter more, because, when you look at China and their 
modernization of its military, they will have more ships, more 
planes, et cetera. And, while they may not have the 
technological capability in these assets that we do, at some 
point their superiority in numbers shift and becomes a 
qualitative advantage.
    So, when we focus on the technological edge that we need to 
retain, what would you suggest that we do? What specific things 
should we do to retain and regain our technological edge?
    Mr. Brimley. In my written--thank you, Senator--in my 
written statement, I outline some ideas in some depth. I would 
highlight two things for you now. One is to really make sure 
that all the services are embracing, truly embracing, the shift 
to unmanned systems and unmanned robotic systems. Some services 
are doing better than others. One of the debates that Chairman 
McCain is engaged on is the future of the carrier air wing, and 
the debate surrounding what unmanned aircraft from the carrier 
ought to look like, what would their roles be, how much--and 
what would their missions be. And I think that's an area where 
the Navy really needs to be pushed hard. Anytime you have 
emerging technology that fundamentally calls into question the 
role of traditional, say, pilots in this regard, you'll get a 
lot of natural bureaucratic tension and friction. And I think 
that's an area where civilians can really play a strong role, 
both inside the Pentagon and also in Congress.
    Senator Hirono. Mr. Donnelly, you noted, in your testimony, 
that you recommend the three-theater construct involving 
Europe, the Middle East, and East Asia. And in your looking at 
what we do in East Asia, could you elaborate a bit more on what 
we're doing with regard to an East Asia strategy, construct, 
and what more we should be doing there?
    Mr. Donnelly. Well, the policy of this administration has 
been to pivot to East Asia. And that's problematic, to begin 
with. Global powers don't pivot. It's not a kiddie soccer game, 
where everybody sort of follows the bouncing ball. But, I would 
say that it's notable where the Chinese are probing, in 
southeast Asia, where we are most absent. They are much more 
cautious when it comes to poking the Japanese, for example, in 
northeast Asia. So, despite the fact--I mean, I would agree 
that the development of Chinese military power is an important 
element and an essential issue for defense planning. But, the 
first order of business is get some presence there. Secretary 
Carter made a big deal the other day about the fact that we 
were sending a destroyer to, you know, reestablish freedom of 
navigation. Again, the striking thing about that, to me, was 
not what was being done, which was very welcome, but the fact 
that it had taken so long to do it and that it required a 
couple-billion-dollar Arleigh Burke destroyer to safely go in 
those waters again. If we had been there over the course of the 
past couple of decades, maybe the reefs wouldn't have been 
paved into an airfield----
    Senator Hirono. So----
    Mr. Donnelly.--in the first place.
    Senator Hirono. Excuse me. Are you suggesting that we need 
a stronger forward presence in East Asia?
    Mr. Donnelly. Absolutely.
    Senator Hirono. And also to work----
    Mr. Donnelly.--southeast Asia.
    Senator Hirono.--a lot more closely with our allies in this 
area?
    Mr. Donnelly. Absolutely. The Filipinos are desperate to 
have us return to the region. Again, in this conversation about 
allies, we should focus on the allies. They were really front-
line states, and they're the ones who are, again, most 
interested in having us return. And what they provide, which is 
a battlefield, is something that is very hard to put a pricetag 
on.
    Senator Hirono. For Dr. Preble and Dr.--Mr. Donnelly, I'd 
like your reaction to--a recent hearing, Dr. Thomas Mahnken, 
from the School of Advanced International Studies, stated that, 
``Strategy is all about how to mitigate and manage risk.'' And 
he feels that the U.S. has grown ``unused to having to take 
risks and bear costs.'' Do you believe that we, as a Nation, 
have become too risk-averse? To both of you, to Dr. Preble and 
Mr. Donnelly.
    Dr. Preble. I wouldn't say risk-averse. I would agree with 
the rest of the statement, which we have become less capable or 
adept at prioritizing. I think that, when we do see great risk-
aversion, especially in the admirable desire to not see 
American soldiers be killed overseas, the question is, is the 
mission vital to U.S. national security? And I think you're 
much more risk-averse and much more averse to casualties when 
there isn't a clear sense of how that mission is serving U.S. 
national security interests.
    Senator Hirono. Very briefly, Mr. Donnelly?
    Mr. Donnelly. I would have a different definition to 
strategy, that is to achieve our national security goals, not 
so much to mitigate risk, per se. But, I do not believe that 
this Nation is risk-averse, if properly led.
    Senator Hirono. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator King.
    Senator King. Mr. Chairman, before I begin my questioning, 
an inquiry of the Chair or perhaps of staff. What is the budget 
agreement due to the unfortunate veto of the national defense 
bill? Do we know?
    Chairman McCain. I think the deal is--would entail a $5 
billion reduction that we, on the committee, are trying to work 
through; instead of $612 billion, it would be $607----
    Senator King. But, would the veto still--do we have to act 
on the veto, or is it withdrawn, or--what's the procedural 
situation?
    Chairman McCain. I--you know, I don't think you can 
withdraw a veto. I think we--I think we're going to have go 
through the drill again. Isn't that your understanding, Jack?
    Senator Reed. I do think so, sir.
    Chairman McCain. Yeah. I think we have to go through it 
again.
    Senator King. You mean repass the bill or override the 
veto?
    Chairman McCain. I think what we have to do is readjust the 
authorization by looking at the elimination of about $5 billion 
out of authorizing, then move it through the process again, I'm 
afraid. I hope not, but I'm afraid that----
    Senator King. I hope not, as well.
    Chairman McCain. Yeah.
    Senator King. I'm going to ask some fairly narrow and 
specific questions. I was surprised when you all said what you 
thought the most serious threat was. To me, the most serious 
threat is capability plus will. And what makes me lose sleep is 
North Korea. They certainly are developing the capability, and 
their will is unpredictable, as opposed to Russia or China, 
that have some semblance of a rational calculation of their 
interests.
    Mr. Brimley, your thoughts about--I just don't want to wake 
up and say, ``Who knew the--North Korea was going to fire a 
nuclear weapon at the West Coast?''
    Mr. Brimley. Thank you, Senator. I think that's an 
excellent observation. Certainly, in the near term, that is a 
huge strategic concern. I think the longer-term threat that is 
somewhat typified by your comment is the marriage of increased 
capability.
    Senator King. That's right.
    Mr. Brimley. And 15 years ago, in North Korea, to have an 
intercontinental ballistic missile that they could mate with a 
nuclear warhead that could target the continental United States 
would have been unthinkable.
    Senator King. And, of course, the follow-on question is, 
jihadists with a nuclear weapon in the hold of a tramp steamer.
    Mr. Brimley. Indeed. In 2004, Fareed Zakaria wrote a book 
called ``The Future of Freedom,'' where he talked about the 
democratization of violence. And that's essentially what's 
happening in the international system. And what most concerns 
me in that world is, when precision-guided munitions are 
available to all of these actors, it's very scary.
    Senator King. Well, what bothers me about North Korea is 
that we all seem to be commenting and saying, ``Oh, yes, 
they're developing nuclear weapons, they're developing a 
missile,'' and my question--and I'd like to take this for the 
record--is, What should we be doing about it, if anything? What 
are our alternatives?
    [The information referred to follows:]

    Dr. Krepinevich. By far the greatest threat from North Korea is its 
nuclear capability. While very modest compared to our arsenal, 
Pyongyang is estimated to have as few as 6 to 8 weapons to as many as 
one or two dozen ``weapon equivalents.'' (The term ``weapon 
equivalents'' is derived from estimated stockpiles of weapons-grade 
uranium and plutonium.) These weapons could be delivered by several 
means, including aircraft and ballistic missiles, or by something as 
simple as a cargo ship.
    Given the likelihood that nuclear use by North Korea would trigger 
a devastating response that would end his regime, Kim Jong-un might be 
tempted to employ nuclear weapons only he believed his regime is 
directly threatened. If, for example, the North Korea economy were on 
the verge of collapse and Kim feared either a popular uprising or a 
military coup, he might view the use of nuclear weapons as the only way 
left to him to extort large-scale economic assistance from Japan, South 
Korea, and/or the United States. He might use one as a 
``demonstration'' with attacks on neighboring countries to follow if 
his demands were not met. Or he might seek to inflict as much damage in 
a nuclear strike in an effort to exploit the advantage of surprise.
    There are several military actions the United States might (in 
conjunction with Japan and South Korea) take to reduce this threat. One 
is to enhance our air and missile defenses. Another is to develop 
munitions (such as earth-penetrating conventional weapons or advanced-
design, low-yield nuclear weapons) capable of destroying the North's 
nuclear arsenal if it became clear Kim intended to employ such weapons.
    Perhaps the most important factor in deterring Kim from employing 
nuclear weapons is to convince him that it will not spare his regime or 
him personally. This is not a matter so much of our weaponry as it is 
of Kim's perception of our current and future president and his/her 
willingness to follow through with such a threat if Kim were to employ 
nuclear weapons.
    Dr. Preble. I asked my colleague Doug Bandow, a senior fellow at 
the Cato Institute, to address this question. Doug has written 
extensively about North and South Korea, including, most recently, The 
Korean Conundrum: America's Troubled Relations with North and South 
Korea, co-authored with Ted Galen Carpenter. He has traveled 
extensively in the region, including a visit to North Korea in 1992. 
(His bio and links to his writings can be found here: http://
www.cato.org/people/doug-bandow.) Mr. Bandow replies:
    ``For more than two decades Washington has tried both engagement 
and isolation with North Korea, but the latter's behavior has remained 
essentially unchanged. Today Pyongyang likely is a nuclear power, 
though with very limited capabilities. In the coming years it could 
have an arsenal like those possessed by Pakistan and Israel.
    ``That would be bad news, but the threat to America posed by the 
North is largely self-induced. North Korea aims its rhetoric at the 
United States because Washington confronts Pyongyang over issues of 
greatest interest to South Korea. American policymakers should shift 
responsibility for dealing with the North to Seoul and other regional 
players.
    ``The Democratic People's Republic of Korea is a brutal 
dictatorship. The regime possesses a large conventional military 
positioned for war and a growing arsenal of missiles and WMD. 
Nevertheless, the Kim dynasty's overriding goal appears to be regime 
survival.
    ``Washington should adopt a new approach, reducing confrontation 
between the U.S. and the DPRK. First, the U.S. should turn over 
responsibility for defending the Republic of Korea to South Korea, 
which possesses around 40 times the GDP and twice the population of the 
North. More than six decades after the Korean War ended the ROK should 
stop relying on American troops and taxpayers for its security.
    ``Second, Washington should acknowledge that North Korea is very 
unlikely to negotiate away its nuclear arsenal. Current policy has 
failed spectacularly. Indeed, there is little that any nation, probably 
including China, can do to influence decisions on regime security in 
Pyongyang.
    ``Washington should allow South Korea to take the lead in 
formulating policy toward the North. The U.S. also should indicate its 
willingness to open low-level diplomatic relations and initiate 
discussions with Pyongyang over a range of issues, including human 
rights. Further, the U.S. should approach Beijing, offering to work 
with it to address China's concerns over the potential consequences of 
a North Korean implosion in order to encourage it to put more pressure 
on the North. Moreover, American officials should share the North 
Korean problem with China, indicating that Washington would reconsider 
its opposition to South Korean and Japanese nuclear programs if the 
North continues to enlarge its arsenal.
    ``U.S. policy in Korea has succeeded admirably, allowing the ROK to 
develop a prosperous democracy. But foreign policy should reflect the 
ever-changing threat environment. Today Seoul can take over its 
defense. Equally important, as America withdraws its forces from the 
peninsula, Washington should off-load responsibility for promoting 
nonproliferation onto the North's neighbors, including China.''
    Mr. Wood. Review the type and amount of support we are providing to 
South Korea. North Korea is deterred by power. To the extent it 
perceives South Korea as weak, or alone (lacking robust support from 
the U.S. or others), it sees opportunity and inventive to act 
provocatively. The Kim regime must assess that its survival is at risk 
should it behave too badly. At present, this is the only factor that 
seems to moderate its behavior.

    Senator King. Second point, on the issue of the budget and 
Joe Manchin's questions, and Senator Sessions. I did a little 
quick calculation. If interest rates return to historic levels 
of 5.5 percent, the differential--the increase of 3 and a half 
percent between what we're running now--would exactly equal the 
current entire defense budget. It would be over--it would be 
something like $630 billion, just in the increased in interest 
charges. So, I think the national debt is a threat, not to 
define our defense budget--I'm not arguing that we should 
reduce it because of that. The real problem with the national 
debt is increasing demographics and health care costs. That's 
where the problem is. But, I think we have to be cognizant of 
it as a national security threat.
    Number three, Mr. Preble, you talked about submarines as 
the possible--instead of the triad submarines--question is, How 
vulnerable are submarines to detection? My concern is that we 
not fall into the Maginot line trap.
    Dr. Preble. Thank you, Senator. This has been a 
longstanding concern since we start--since the third leg of the 
triad, after all, was submarine-launched ballistic missiles in 
the late 1950s, and, from the very beginning, concern about the 
ability to detect them and undermining their capabilities. I 
think that, generally speaking, those concerns have been proved 
wrong, so far, over time, that each time that people claim that 
there is some exquisite technology or new technology that 
significantly undermines the stealthiness of our submarines, 
that they continue to perform extremely well.
    As I pointed out in my statement, however, is that if that 
circumstance were to change, then we still have the flexibility 
to adapt other forces. But, for now, the combination of stealth 
and precision and other improvements in technology make 
ballistic missiles the best of the three platforms for----
    Senator King. But, you would agree that the key word there 
is ``stealth.''
    Dr. Preble. Yes, sir.
    Senator King. And if their technological----
    Dr. Preble. Yes, sir.
    Senator King.--erosion of that quality, then that creates a 
problem we need to be attentive to.
    Dr. Preble. We need to be very attentive to it, yes, sir.
    Senator King. A question for the record for all of you is, 
How do we enforce the 2-percent standard? You all have 
mentioned it. We are carrying too much of the burden. What--I'd 
like some suggestions as to how that is carried out, rather 
than--in ways other than just imprecations to our allies.
    [The information referred to follows:]

    Dr. Krepinevich. There is no way the United States can compel its 
NATO allies to make good on their commitment to allocate at least 2 
percent of their GDP to defense.
    There are, however, several things we might do to encourage our 
allies to meet their commitments. One is to tie certain U.S. defense 
efforts to those of our European allies. Poland, for example, is more 
concerned over Russia's behavior than is France, whose top priority at 
present involves ISIS and the situation in Syria/Middle East. Enhanced 
U.S. support for Poland could be tied to Warsaw's willingness to up its 
defense effort. Similarly, offering support for France in its efforts 
to suppress ISIS could be linked to France's willingness to provide 
greater support for our efforts to discourage Russia from engaging in 
aggressive action against our allies in Eastern Europe.
    Finally, it is not only how much our allies spend, it also is a 
matter of how wisely they invest their defense funds that determines 
the effectiveness of their forces. We need to keep that in mind as 
well.
    Dr. Preble. I have written before about the problem of global 
public goods, especially the free-rider problem, and the difficulty of 
enforcing allies' commitments to contribute to collective defense. 
[See, for example, The Power Problem: How American Military Dominance 
Makes Us Less Safe, Less Prosperous, and Less Free (Ithaca, NY: Cornell 
University Press, 2009), pp. 96-104]. Most of this work, however, does 
not directly address Sen. King's question. My colleague Emma Ashford, 
visiting research fellow at Cato, recently did discuss allied burden 
sharing in a public forum. She agreed to summarize her remarks for the 
record. (Her bio and other writings can be found here: http://
www.cato.org/people/emma-ashford.) Dr. Ashford replies:

        ``The central flaw of today's NATO alliance is that United 
        States bears the vast majority of NATO's burdens, not only with 
        respect to spending, but also in operational terms. This has 
        been acknowledged by a variety of senior policymakers: former 
        Sec. of Defense Bob Gates' farewell speech, for example, argued 
        that NATO has a ``dim, if not dismal, future'' if this 
        discrepancy is not resolved. Despite this, and despite the 
        threat many NATO members claim to feel from Russia, we have 
        been almost entirely unsuccessful in getting other states to 
        increase spending. Since the Russian invasion of Crimea in 
        2014, only one state (Poland) has increased its defense 
        spending to the required 2 percent level.

    ``In addition, while it effectively illustrates the massive 
imbalance between U.S. and European contributions to NATO, the use of 
the 2 percent spending level as a measure can be misleading. First, 
that 2 percent spending figure provides no real indication of readiness 
or capacity. Indeed, for some states, that figure includes non-
readiness related expenditures, such as pensions. Such contributions 
would still leave the United States bearing the brunt of NATO's 
operational costs. In the long-run, it may be more effective to work on 
increasing readiness and capacity contributions from NATO allies. 
Second, it obscures the fact that many NATO members are small 
countries, with limited practical ability to contribute. If we truly 
wish to reduce the burden on the United States, it is paramount that 
pressure be placed on Europe's larger states--Germany in particular--
contribute an amount commensurate to their abilities.
    ``Ultimately, the United States has been unsuccessful at increasing 
NATO commitments from allies for one reason: while we continue to 
provide security for these states, they have no incentive to provide it 
themselves. Faced with Russian aggression in Crimea and Eastern Ukraine 
in the last year, most European nations did not seriously engage in 
discussions about how to increase defense spending or capacity. 
Instead, they turned to the United States, which offered a billion 
dollars for a European Reassurance Initiative. Though the scope of any 
additional US rotational troop presence in Europe is not yet known--the 
Pentagon is still preparing proposals--the United States has committed 
to contribute air support, Special Forces and intelligence support to 
the new NATO rapid reaction force. If we truly wish European nations to 
contribute more to NATO, then the United States must resist increasing 
our support in this way every time our allies profess the need to be 
reassured.''
    Mr. Wood. The U.S. must act more confidently and forcefully in 
``publicly shaming'' NATO members who are not meeting the two-percent 
of GDP investment standard, but making such arguments with well-
crafted, fact-based, historically validated points that show weakness 
not only invites aggression from competitors but also has a negative 
impact on national economies. The U.S. should be careful, however, of 
presuming that further cutbacks in U.S. spending and forward deployment 
of U.S. forces is the chief means to force allies to ``step up'' as 
they should. Even if Germany, France, Great Britain, and others found a 
way to dramatically reprioritize their national spending, which 
presumes that they somehow handle their own domestic situations far 
better than the U.S. is managing its own, it will take many years for 
them to bring their military capabilities up to a level they should be 
at. In the meantime, U.S. national security interests in Europe would 
be dependent on such success and the hope that nothing untoward happens 
in the interim . . . which means some element of increased risk to U.S. 
interests.

    Senator King. Finally--I'm not even going to--I'm going to 
screw up the pronunciation, as we all have--Krepinevich, how's 
that? Pretty close? Dr. Krepinevich, I think you made a really 
important point: time is an issue. Senator Inhofe has a chart 
that shows the average time now to put a new aircraft in the 
field is 23 years. I would submit that if that had been the 
case with radar in the Manhattan Project, we'd probably be 
speaking another language here today. We have to be able to 
field new technologies faster. Cost is obviously a question. 
But, to talk about a new bomber that probably won't be built 
for 10 or 12 years, maybe not even then--I mean, we have to 
deal with this issue of time. I----
    Dr. Krepinevich. Time is a resource every much as manpower 
is or, you know, technology is, or defense dollars.
    Senator King. Are we overthinking these new weapon systems, 
in terms of making them so complex that it becomes just--time 
just wastes----
    Dr. Krepinevich. I think Secretary Gates had it almost 
right. He talked about performance characteristics, and he 
said, ``We want everything that's possible, and a lot of things 
that aren't possible, in a new system.'' He talked about cost, 
and he said, ``We treat cost as though cost is no object,'' and 
he talked about time and said, you know, time--again, 
everything is subordinate to performance. So, we sacrifice 
cost, in terms of no limits on cost; we sacrifice time, in 
terms of we seem to be willing to wait forever; and I think 
this is also--time is also linked to relevance, because it's a 
lot easier to know what kind of security challenges you're 
going to face in 2 or 3 years than in 20 or 30.
    Senator King. It----
    Dr. Krepinevich. And so, his point was, ``I'd rather have 
an 80-percent solution that you can give me within a reasonable 
cost and get on the ramp, or wherever, in a reasonable amount 
of time that's relevant to the threat.'' And that's why he 
canceled systems like Airborne Laser and Future Combat System, 
and so on.
    Senator King. I agree with that. And it seems to me that 
the message is exactly as you stated it, plus design and build 
these systems so that they can be upgraded over time, as--but 
get the system online.
    Thank you very much, Mr. Chair.
    Chairman McCain. Thank you.
    Dr. Krepinevich, known to many as ``Andy''----
    [Laughter.]
    Senator Reed. Mr. Chairman, we have a famous Coach K, and 
we have a famous Dr. K, from where I come from.
    [Laughter.]
    Chairman McCain. Senator Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman.
    I'm--I am more sympathetic, maybe, to the pronunciation of 
names, having a more difficult one to pronounce than Reed, 
McCain, and King. But, thank you all for being here. This has 
been an excellent discussion, and I have been following it in 
the midst of doing other duties.
    And I think that, just to pursue a line of questioning that 
Senator King raised on stealth or, as Mr. Brimley referred to 
it as concealment, and just to quote one sentence in your 
testimony, ``The nature''--quote, ``The nature of an actor's 
awareness of adversary forces will differ, but it seems clear 
that, on future battlefields, finding the enemy will be easier 
than hiding from him.'' Senator King rightly identified the 
advantage of submarines as their versatility and their stealth. 
The Ohio-class replacement promises to be far stealthier than 
any submarine now known, or perhaps imagined. But, I wonder, in 
terms of both your point, Dr. Preble, in relying on a smaller 
nuclear deterrent that may consist only of submarines, whether, 
in fact, we can pursue that objective, in light of the 
plausible point that finding our submarines will be, in fact, 
easier than hiding them. And obviously, we're at a loss here, 
because we can't talk about the technology in this setting. 
And, in fact, I might be at a loss to talk about the technology 
in any setting, in terms of my scientific or engineering 
expertise. But, maybe you could just expand on that point.
    Dr. Preble. The--on the question of survivability as a 
function of concealment or stealth for the submarines, of 
course it's not nearly that our submarines are well hid, and 
continued improvements have made them, you know, kind of leaps 
ahead, but it is that there are many of them. When we talk 
about one leg of the triad, of course, it's not just one boat. 
It's 12 or 14 or 16. And so, we would have to believe that the 
advance in technology that made it so much easier to find those 
submarines was made without our knowledge and then sprung on us 
in a moment of surprise in which all of those vessels were all 
held vulnerable at the same time. I think that highly unlikely. 
Therefore, that's why--we wrote a whole paper on this subject. 
I'd be happy to share a copy, Senator. But, that is why we 
believe that, while some of the earlier arguments against the 
submarine in the early days of the triad were valid, those have 
been overcome over time through a combination of technological 
advances and changes in nuclear-use doctrine, which also 
explain why they are a suitable platform.
    Senator Blumenthal. The--I think that point is very 
powerful and convincing, certainly for the first 10 or 20 
years, but the Ohio replacement is a sub that's going to last 
well into this century, and it may not be sprung on us in the 
first 5 years or even 10 years, but at some point one wonders 
whether that technology can't be developed.
    Dr. Preble. Which I think speaks to the other conversation 
we've been having today about the essence of time and the 
length of time it takes to develop new technologies, and our 
seeming inability to adapt over time, which, of course, is not 
true. We are capable of adapting and revising technology in an 
iterative process. But, investing so much in a single platform, 
on the assumption that it will retain its technological edge 
for 40 or 50 years, I agree with you, is unreasonable.
    Senator Blumenthal. And, Mr. Brimley, I happen, by the way, 
to agree with you that we should never have a fair fight 
against an adversary, and--and I'm quoting you--one of our 
first steps should be to, quote, ``shore up maritime power 
projection by emphasizing submarines that can attack an 
adversary from concealed positions, ideally with platforms with 
larger payload capacities, et cetera.'' And I wonder if you 
could, given the point that you made about concealment, expand 
on that thought.
    Mr. Brimley. Thank you, Senator, very much, for your--for 
quoting my written testimony.
    I would just quickly expand on it by saying that there are 
fascinating levels of research that the Office of Naval 
Research is doing, but also DARPA [Defense Advanced Research 
Projects Agency]. I think part of the solution to this 
challenge is--like I said earlier, is to fully invest in the 
unmanned regime. So, in a world where stealth starts to erode, 
or our ability to sort of keep pace with those technologies 
comes into question, I think one of the investment ways we're 
going to have to deal with that is, get fully unmanned, into 
unmanned submarines, to the point where we can answer a little 
bit of the erosion of the qualitative edge with our enhanced 
ability to both generate more, in terms of quantity, but also 
take more risk with those platforms because they're--they will 
be unmanned. That's got to be a huge area. I take some solace 
by the fact that people like Secretary Bob Work, Secretary 
Carter, they are looking at this very closely, because I think 
it's--there's an agreement that this is an area of potentially 
large advantage for us if we invest in it.
    Senator Blumenthal. My time is expired. But, again, I thank 
all of you for this very thoughtful discussion.
    Thank you, Mr. Chairman.
    Senator Reed [presiding]. On behalf of Chairman McCain, let 
me recognize Senator Sullivan.
    Senator Sullivan. Thank you, Mr. Chairman.
    And I appreciate the panelists coming and providing us with 
important insights on some issues.
    I wanted to focus, Mr. Brimley, but really any of the 
panelists, on the issue of energy. And, you know, we've had a 
number of members of the administration--Secretary Carter, for 
example--but then other experts--General Jones, you know, the 
former NATO Commander, Marine Corps Commandant--they've all 
talked about this as a--really kind of an incredible new 
instrument of American power that, 10 years ago, we weren't 
focused on, because we really didn't believe we had it as 
something that was important. But, it is, and it's pretty 
remarkable that we're now the world's largest producer of gas, 
largest producer of oil, largest producer of renewables. Not by 
any real help from the Federal Government, all through the 
innovations in private sector.
    So, would you care to comment on that, as how we should 
take advantage of that, and how the Federal Government can 
help--being from a State where energy is very important; we're 
a big producer of energy, looking to produce more--we have a 
large-scale--actually, a huge LNG [liquid natural gas] project 
that the State of Alaska's working on that would help our 
citizens with low-cost energy, but certainly would help, in 
terms of our strategic--the strategic benefits for our allies 
in Asia who need LNG--even the Chinese need LNG. So, I would 
just welcome comments on that. I know, Mr. Brimley, you talked 
about it in your testimony, but I welcome that for any other 
panelist.
    Mr. Brimley. Thank you, Senator. Very quickly.
    I would just say, from a defense--as a defense analyst, I 
would say I'm very pleased by the fact that potentially by the 
end of this decade, North America will become sort of, quote/
unquote, ``energy independent.''
    Senator Sullivan. It's a remarkable development.
    Mr. Brimley. It is remarkable, although I would say that 
that's not a panacea; it's a global market. We will even--you 
know, we will still be importing and participating in the 
global market. We will have national interests that are 
intimately bound up in the security situations of other 
regions--Europe, the Middle East, et cetera. But, I would say, 
though, the geopolitics of this is going to be interesting, 
fascinating, potentially destabilizing. In a world where the 
exports from the Middle East are coming out of the Persian Gulf 
and they're not going west across the Atlantic, but they're 
going east into the Pacific, all sorts of, I would say, 
interesting dynamics will develop. The role of India and its 
forward defense posture. The role of China, how it invests in 
forward access points as it starts to invest in its global 
posture into the Persian Gulf. We need to be thinking very, 
very seriously about how to track these activities and how to 
react to them, because I think they will potentially be 
destabilizing.
    Senator Sullivan. Any other thoughts? And particularly, 
what the Federal Government should be doing to encourage the 
ability to seize this opportunity. Everybody--every panelist 
we've had in the last 9 months has talked about, ``This is a 
new instrument of American power, in terms of our foreign 
policy and national security.'' And yet, we--it's true, we do 
not have an administration that seems even remotely interested 
in it. They seem to don't like the term ``hydrocarbons,'' and 
they don't want to recognize what is something that's pretty 
remarkable, in terms of a benefit to our country.
    Mr. Donnelly. I would caution about over---I mean, making 
everything a national security issue both devalues the meaning 
of ``security'' and provides a temptation for everybody to try 
to make everything a national security----
    Senator Sullivan. But, if you look globally and 
historically, there's a lot of----
    Mr. Donnelly. How----
    Senator Sullivan.--a lot of conflicts have started and been 
resolved due to energy.
    Mr. Donnelly. And it's likely to continue to be that way. 
Look, I would agree that, say, becoming a stable source of 
energy for Japan would be a very important strategic plus for 
the United States.
    Senator Sullivan. Or Korea.
    Mr. Donnelly. Or Korea. And, you know, other East Asian--
you know, the TPP [Trans-Pacific Partnership] countries--having 
an alternative route of supply for those countries would be 
critically important.
    Senator Sullivan. How about for Ukraine?
    Mr. Donnelly. If we could get it there in a timely way, you 
bet.
    On the other hand, to sort of echo Shawn, there are bound 
to be destabilizing--there are already destabilizing aspects 
from the changes that are affecting the Middle East. The Saudis 
are spending down their cash reserves at a extraordinary rate 
to try to underbid, you know, fracking sources and stuff--also 
to offset Iran. But, what that will mean for the internal 
stability of the Kingdom is a pretty good question that 
probably has a host of answers, but all of which are bad. So, 
changing this regime that has been in place for a number of 
decades now is going to have international political effects 
that almost certainly will have security implications for the 
United States, not all of them good.
    Dr. Preble. I would just agree that the ability of U.S. 
energy producers to reach a global market should be as 
unencumbered as possible. And, to the extent the Federal law 
limits export of various products, that's----
    Senator Sullivan. Or delays development----
    Dr. Preble. Or delays development, it's also a problem, 
correct. But, I--the last point I'd make is that I--I would 
agree, here, with Tom--is that just because there are benefits 
economically does not make it, necessarily, a national security 
issue. I think we need to recognize it distinctly. And also, 
for many years, myself and my colleagues were frustrated by the 
talk that when or if we become energy independent, it will have 
a huge impact on our strategy. We said, for a long time, that 
should never the standard, because we can never be energy 
independent, we trade into a global marketplace, et cetera, et 
cetera. Now that that is happening, and I think soon will 
happen, I would like to see that particular argument taken off 
the table as why it is we behave the way we do, especially in 
the Middle East.
    Senator Sullivan. Thank you, Mr. Chairman.
    Senator Reed. Well, thank you, Senator Sullivan.
    On behalf of Chairman McCain, let me thank you, gentlemen, 
for extraordinarily insightful testimony, which is going to be 
a superb foundation for the hearings that the Chairman is 
envisioning leading up to, we hope, recommendations with 
respect to Goldwater-Nichols, but of many, many other aspects. 
A truly, truly impressive and helpful hearing.
    Thank you very much, gentlemen.
    And, with--again, at the direction of the Chairman, the 
hearing is adjourned.
    [Whereupon, at 11:36 a.m., the hearing was adjourned.]

                                 [all]
</pre></body></html>
